<html>
<title> - VETERANS EMPLOYMENT: IMPROVING THE TRANSITION FROM THE BATTLEFIELD TO THE WORKPLACE</title>
<body><pre>[Senate Hearing 112-19]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-19
 
 VETERANS EMPLOYMENT: IMPROVING THE TRANSITION FROM THE BATTLEFIELD TO 

                             THE WORKPLACE
=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2011

                               __________

       Printed for the use of the Committee on Veterans' Affairs


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/

              committee.action?chamber=senate&committee=va





                  U.S. GOVERNMENT PRINTING OFFICE
66-544                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director



                            C O N T E N T S

                              ----------                              

                             April 13, 2011
                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
Brown, Hon. Scott, U.S. Senator from Massachusetts...............     4

                               WITNESSES

Reppenhagen, Garett, OIF veteran, Director of Veterans 
  Development, Veterans Green Jobs...............................     5
    Prepared statement...........................................     8
Smith, Eric, OIF veteran, member veteran, Iraq and Afghanistan 
  Veterans of America............................................    11
    Prepared statement...........................................    13
    Posthearing questions submitted by Hon. Mark Begich..........    15
McCreary, RADM T.L., USN (Ret.), President, Military.com.........    15
    Prepared statement...........................................    17
    Response to posthearing questions submitted by Hon. Jon 
      Tester.....................................................    20
Yauger, Michael L., President, Teamsters Local Union 786, 
  Coordinator, International Brotherhood of Teamsters' Helmets to 
  Hardhats and Heroes to Healthcare Programs.....................    22
    Prepared statement...........................................    24
    Response to posthearing questions submitted by Hon. Mark 
      Begich.....................................................    26
Jefferson, Raymond M., Assistant Secretary for Veterans' 
  Employment and Training Service, U.S. Department of Labor......    36
    Prepared statement...........................................    38
    Posthearing questions submitted by:
        Hon. Patty Murray........................................    43
        Hon. Richard Burr........................................    44
        Hon. Jon Tester..........................................    44
        Hon. Mark Begich.........................................    45
Berry, Hon. John, Director, U.S. Office of Personnel Management..    45
    Prepared statement...........................................    47
    Response to posthearing questions submitted by Hon. Richard 
      Burr.......................................................    50
Campbell, John R., Deputy Assistant Secretary of Defense, Wounded 
  Warrior Care and Transition Policy, U.S. Department of Defense; 
  accompanied by Ronald L. Horne, Deputy Director of Policy, 
  Transition Assistance Program, U.S. Department of Defense......    52
    Prepared statement...........................................    54
    Posthearing questions submitted by Hon. Patty Murray.........    57

                                APPENDIX

Reserve Officers Association of the United States; prepared 
  statement......................................................    71
Madden, Robert W., Assistant Director, National Economic 
  Commission, The American Legion; prepared statement............    80


 VETERANS EMPLOYMENT: IMPROVING THE TRANSITION FROM THE BATTLEFIELD TO 
                             THE WORKPLACE

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                                       U.S. Senate,
                             Committee on Veterans' Affairs
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 418 of the Russell Senate Office Building, Hon. Patty 
Murray, chairman of the Committee, presiding.
    Present: Senators Murray, Tester, Burr, Brown of 
Massachusetts and Boozman.

       OPENING STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning, and welcome to today's 
hearing. Today we are going to be examining an issue that is 
very troubling to me and frankly should be more troubling to 
our Nation as a whole.
    The high rate of unemployment for recently separated 
veterans is an issue that at first glance defies common sense.
    Our Nation's veterans are disciplined. They are team 
players, who have proven they can perform under pressure. They 
have acquired skills on the battlefield as mechanics, medics, 
and leaders that should translate into successful careers in 
the working world. They are eager to achieve and to give back 
once again.
    But despite all that, according to the Department of Labor 
statistics from just last month, over 27 percent of veterans 
ages 20 to 24 were unemployed. That is, over one in five of our 
Nation's heroes cannot find a job to support their family, do 
not have an income that provides stability, and do not have 
work that provides them with the self-esteem and pride that is 
so critical to their transition back home.
    How can that be? How can these young men and women who have 
performed so admirably, who know how to lead and know how to 
execute, be struggling so much?
    To begin with, one thing we have to recognize is that for 
many of our young veterans, the civilian working world is a new 
experience. For many young veterans, the first job they apply 
for when they return home is often the first civilian job they 
have ever applied for. These veterans need help translating the 
skills they have developed in the military into skills that 
civilian employers can understand. They need direction on what 
employers are looking for, and they need to know what job 
resources are available to them as veterans.
    I believe that we can and should do more to not only 
prepare these veterans for meaningful civilian employment, but 
also to make the critical connections they need to land a job. 
For me, much of this effort begins with Labor's Transition 
Assistance Program (TAP), which should be the cornerstone to 
finding meaningful employment for young veterans. Yet the TAP 
program is only mandatory for the U.S. Marine Corps, and, as it 
stands right now, it is not as good as it can be. It needs to 
be customized, it needs to be updated, and it needs to be 
delivered in a way that is relevant and, most importantly, 
accepted by servicemembers.
    We can no longer afford for TAP to be seen as the last step 
in a servicemember's enlistment. It has to be seen as the first 
step in their successful career. We also need to improve 
efforts to translate skills from the battlefield on to a resume 
and into an interview with the prospective employer.
    Too often what a servicemember has done in the military 
doesn't really seem to count in the civilian workforce and even 
more often, it is just not recognized. We need to make sure 
that veterans are talking about their skills in a language that 
employers understand, and we also need to recognize that many 
States are not accepting the skills veterans learned in 
service, often times sending them into a certification process 
that is riddled with red tape.
    I also believe the Federal Government could be doing more 
to hire veterans and to make sure they are getting the hiring 
preference that is already in law. In fact, a young disabled 
Iraq veteran on my own staff has had an issue with a government 
hiring official who did not understand veterans preference.
    The government needs to be getting this right.
    For some time now, I have traveled throughout my homestate 
and talked to veterans about these and other employment 
challenges. What these veterans have told me has been eye 
opening and should be a call to action for all of us on this 
Committee. I have had veterans tell me that they no longer 
write the fact that they are a veteran on their resume because 
they fear the stigma they believe that employers attach to 
invisible wounds of war.
    I have heard from medics who return home from treating 
battlefield wounds who cannot get certifications to be an EMT 
or to even drive an ambulance. I have talked to veteran after 
veteran who has said they did not have to go through the TAP 
program, or that it just was not taken seriously when they did. 
I have heard from employers who say veterans do not use the 
vernacular of the business world to describe the benefits of 
their experience.
    These stories are heartbreaking, and they are frustrating. 
But more than anything, they are a reminder that we have to act 
now. Our economy is beginning to turn around. We have seen very 
encouraging signs that employers are hiring, and the 
unemployment rate among the general population is beginning to 
subside. We cannot leave our Nation's veterans behind.
    We cannot continue to pat veterans on their back for their 
service and then push them out into the job market alone when 
they come home. It is time to take real and comprehensive steps 
to put our veterans back to work. That is why I am planning to 
aggressively pursue legislation to help our veterans make a 
successful transition from military service to the working 
world.
    This hearing is a critical step to informing that 
legislation and I hope that all of you who are here today are 
open and honest about the challenges that we face and what you 
believe needs to be done. I look forward to working with all of 
my colleagues on this Committee on this legislation and making 
every effort to improve results for our Nation's transitioning 
servicemembers and veterans.
    I want to thank all of our witnesses for being here today. 
I look forward to hearing from you shortly, but at this time, I 
am going to turn it over to Senator Burr for his opening 
statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Madam Chairman, good morning and thank you to 
all of our witnesses for being here for what I think is an 
important hearing.
    As we will discuss today, a wide range of efforts are 
underway by both the private sector and the government to help 
veterans find good jobs.
    There are employment workshops for servicemembers getting 
ready to leave the military, Web sites where veterans can post 
resumes, search for job openings and learn tips for jobs 
searches, personnel at one-stop career centers around our 
country dedicated to serving veterans, and much, much more.
    Despite those efforts, the unemployment rate for young 
veterans reached over 27 percent in February 2011, much higher 
than the non-veterans of that age. Veterans overall had an 
unemployment rate of 9 percent.
    These troubling statistics suggest that many veterans may 
not be receiving the information services and support they need 
to find meaningful jobs after leaving the military service. 
That is why last month Members of this Committee in a 
bipartisan letter questioned the effectiveness of employment 
programs for veterans and committed to look at whatever we 
needed to as far as changes.
    In my view, two recent reports from the GAO provide a good 
starting point for those efforts. Here is what the GAO found: 
in Fiscal Year 2009, the Federal Government spent $18 billion 
on 47 separate employment and training programs run by nine 
different agencies. Geez, this sounds eerily familiar to some 
other studies that have come out.
    All but three of those programs overlapped with at least 
one other program and five programs that specifically targeted 
veterans provided seven similar types of services. GAO noted 
that the overlap among programs might interfere with 
individuals seeking services and frustrate employers.
    On top of that, GAO found a lack of information about the 
effectiveness of the programs. Most, including those serving 
veterans, had not completed studies to see whether positive 
employment outcomes result from their services rather than from 
other factors. And three programs, including the Transition 
Assistance Program, did not track any outcome measures. Let me 
say that again: did not track any outcome measures.
    Madam Chairman, all of this suggests that in trying to 
improve employment assistance for veterans, we should start by 
figuring out which programs are working well and which are not. 
Also, we need to look at whether reducing overlap could make 
these services more effective and obviously more efficient. 
These common sense steps could save taxpayers money and more 
importantly, make long-term improvements in services for our 
Nation's veterans.
    In the near term, we should take other steps to bring down 
the staggering unemployment rate among some groups of veterans. 
That is why I joined several of my colleagues in introducing 
the Veterans Employment Transition Act of 2011, which would 
provide tax incentives to employers to hire veterans who have 
recently separated from the military. This should provide 
another reason for employers to take advantage of the valuable 
skills veterans develop while serving our Nation.
    Also, more should be done so that those skills can easily 
translate into civilian occupations. As we will hear today, the 
men and women of the military can spend years honing their 
skills in a particular trade only to find out that they have to 
start over with training, testing, and certification before the 
civilian labor market recognizes that skill. Improving this 
situation should be a priority.
    Finally, I want to acknowledge that many employers in North 
Carolina and around the Nation are doing their part by actively 
recruiting veterans into their organizations. These efforts 
play a key role in helping our Nation's heroes smoothly 
transition back to civilian life, and I encourage more 
employers in this country to follow their lead.
    Madam Chairman, I thank you for calling this hearing on a 
very important topic, and I look forward to working with you 
and our other colleagues to make sure that veterans will not 
struggle to find good jobs as they return and separate from the 
military.
    Thank you.
    Chairman Murray. Thank you very much, Senator Burr. Look 
forward to working with you on this.
    Senator Brown, do you have an opening statement this 
morning?

               STATEMENT OF HON. SCOTT P. BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Madam Chair. I 
will be brief. I want to hear the testimonies of everyone. I 
also want to make sure that veterans are given the tools and 
resources they need to find jobs. As a member of the National 
Guard, I am familiar with the stereotypes held by employers. It 
is a shaky economy. People have fears that hiring a veteran is 
just too risky.
    I spoke with Admiral McCreary yesterday at length about 
what he and others are doing, and I look forward to the 
testimony to find a way to move forward trying to get our 
heroes employed. In the Guard and Reserve I know the number is 
very, very high. In the active Army, there are ways we can do 
it better to get them assimilated right after they get through 
their military service.
    I want to thank you all for coming to testify.
    Madam Chairman, thank you for holding this hearing.
    Chairman Murray. Thank you very much. We will now turn to 
our first panel for testimony this morning, and we are very 
pleased to have all of you here. I want to thank you for your 
testimony. I look forward to it.
    First of all, we have OIF veteran Garett Reppenhagen, the 
director of Veterans Development from Veterans Green Jobs, who 
will be followed by Eric Smith, also an OIF veteran. He 
represents the Iraq and Afghanistan Veterans of America. After 
that, we will have Admiral T.L. McCreary, president of 
Military.com, and then Michael Yauger, president of the 
Teamsters Local Union 786 and coordinator for the International 
Brotherhood of Teamsters' ``Helmets to Hardhats'' and ``Heroes 
to Health Care'' programs.
    So really again, I appreciate all of you being here. Mr. 
Reppenhagen, we will begin with you.

     STATEMENT OF GARETT REPPENHAGEN, DIRECTOR OF VETERANS 
                DEVELOPMENT, VETERANS GREEN JOBS

    Mr. Reppenhagen. Thank you very much.
    Chairman Murray, Ranking Member Burr, distinguished Members 
of the Committee, thank you for inviting me on behalf of my 
organization, Veterans Green Jobs, to testify today on the 
important topic of veterans needs, and employment. Thank you 
for your tireless efforts in helping those who dedicated their 
lives to service.
    My name is Garett Reppenhagen. I grew up a son of a career 
Army father who was a Vietnam War veteran. Both my grandfathers 
are World War II veterans. Service runs in my family. It is a 
family tradition. I served from 2001 to 2005 in the U.S. Army 
as a calvary scout and a sniper. I was deployed to Kosovo and 
then Iraq.
    As I transitioned from service from the military to 
civilian, I joined a demographic that is basically prone to 
unemployment, mental health injury, substance abuse, 
homelessness, incarceration and suicide. Due to these factors, 
after being honorably discharged in 2005, I actively have been 
involved in employment issues for veterans, particularly those 
of my generation of the post-9/11 era.
    Veterans Green Jobs is a national 501(c)(3) non-profit 
corporation. We are headquartered in Denver, Colorado. We have 
existed since 2008. We are a young organization. Our mission is 
to engage in transition and connect military veterans with 
meaningful employment opportunities that serve our communities 
and environment.
    We work to inspire hope and confidence in our veterans for 
a positive future for themselves and inspire them to rejoin our 
communities and have healthy family lives. Our vision is to 
empower veterans to utilize the military service to become 
leaders in a new mission that helps our Nation achieve energy 
efficiency, energy independence and security, national 
resources conservation and resulting in environmental, social 
and economic benefits.
    We direct our efforts to building programs that offer 
veterans concrete skill building and job placement. We view 
unemployment as a risk multiplier. For all the obstacles our 
veterans face, the lack of stable careers, which provide 
veterans with a purpose and a sense of balance, compounds 
problems with veteran health care, personal relationships and 
other issues veterans face. These act as a roadblock to 
reintegrating in our communities.
    We are dedicated to helping all veterans transition into 
successful career pathways by focusing on opportunities in 
stable economic sectors related to the green economy, to 
include energy efficiency, weatherization, clean and renewable 
energies, natural resource conservation, environmental 
restoration and other green sectors.
    In some cases veterans receive training in military 
occupational specialities that translate to immediate openings 
in green-job sectors; however, most need further training and 
education through community colleges, universities, 
apprenticeships and on-the-job training.
    We encourage veterans we work with to pursue other pathways 
toward employment. We strongly believe that job opportunities 
in these sectors will increase and that veterans will be 
trained and positioned to assume these jobs. Private business 
has a significant role to play in assisting veterans in 
transition from the battlefield to the workforce.
    Veterans Green Jobs directs a number of transition-to-
employment programs to support these goals in partnership with 
government, business, and education. We currently directly 
employ 26 veterans full time on our staff in our weatherization 
programs. Our weatherization program is a partnership through 
the Colorado Governor's Energy Office and provides residential 
weatherization for low-income families.
    Veterans in this program receive a full wage and extensive 
training and certifications.
    Additionally, we are assisting 100 veterans this year in 
our Veterans Green Corps and our Veteran Fire Corps. These 
programs exist in six western States in cooperation with the 
U.S. Forest Service, Bureau of Land Management, National Park 
Service, and Conservation Corps. The program provides eight to 
22 weeks of paid on-the-ground training programs for veterans 
to perform wildfire mitigation, trail clearing, and wildland 
fire fighting on Federal lands.
    Many of these programs are assisted and funded by the 
Corporation of National Community Service, AmeriCorps. The 
support of AmeriCorps leverages funding with the Federal land 
management agencies that contribute, creating a win-win 
situation, which makes it affordable for small regional offices 
to utilize these programs to get work done on our Federal 
lands.
    We also have 15 veterans who participated in Veterans Green 
Jobs' training academy program in Bucks Community College near 
Philadelphia. This program will expand this year to include 
technical training and job placement in the wind-energy sector.
    In cooperation with Gamesa Wind USA, a large energy firm 
with facilities on the east coast, this program is an 
outstanding example of a program that provides technical 
training directly linked to a real job.
    We look for veterans with particular military occupational 
specialties, then recruit and interview them. They are hired by 
Gamesa before the program starts. Bucks County Community 
program trains those veterans, graduates them, and they move 
directly into full-time employment. All of our programs 
represent boots-on-the-ground for putting veterans back to 
work. As a non-profit, our success has been accomplished by 
partnering with a wide array of government, private and non-
profit entities. We have developed an array of formal 
partnerships and teaming agreements with businesses, community 
colleges, 4-year educational institutions and non-profits.
    Additionally, our efforts have been supported through 
charitable giving that includes Walmart Foundation, Sierra 
Club, and the Call of Duty Endowment. However, as a non-profit, 
we struggle to sustain these viable programs for veterans 
because of the downturn in the economy. It has directly 
impacted charitable giving, both corporate and individual, and 
other sources of funding.
    In executing our programs over the last 3 years, we've 
learned a great deal about employment issues facing our 
veterans. There are numerous organizations and public offices 
in the space of veteran support and advocacy. What often sets 
Veterans Green Jobs apart is our ability to build partnerships 
that offer holistic employment assistance linkages from 
training and education to direct job placement by working with 
both veterans and employers.
    In our experiences, the programs with the greatest success 
in serving veterans have incorporated these following elements: 
a sense of service that positively impacts veterans because 
they gain a sense of pride and accomplishment that transforms 
their military service into national and community service; a 
living wage and stipend that allows veterans to support 
themselves and their families with some income while earning 
certifications and training to prepare them for civilian 
employment; direct connection with job placement as a result of 
training and education; well communicated resources that are 
easy to locate and access; and personal guidance that helps 
individual veterans find training and careers based on their 
experience and interest.
    Our experiences have also taught us that some elements do 
not provide notable benefits, including: so-called one-stop 
shops; Web sites with numerous lists and web-based hot links; 
resume banks that only offer standard competitive job searches 
with no additional resources or services; training with no 
prospective or direct employment on the other end linked to a 
specific employer; shallow employment opportunities and part-
time work at a low wage that are not viewed as meaningful 
careers; and disconnected services focusing on one aspect of 
veterans' needs that do not communicate with other 
organizations or offices.
    Promoting veteran employment from the battlefield to the 
workforce is making a commitment to connect private, public, 
and non-profit partnerships to build comprehensive programs. In 
this day and age, our capacities for a lot of our programs are 
very low and by uniting these partnerships we are able to 
multiply our growth in the amount of veterans we serve.
    Some of the suggestions that I want to make to the 
Committee to enhance our workforce opportunities for veterans 
returning from military service are the following: one, convene 
immediately a national-level workshop, engaging leaders in 
government, business and non-profit sectors to address 
solutions to current veterans employment issues.
    This is not a workshop that identifies the issues. We 
already know the issues. This is a workshop that defines 
concrete solutions, successful models, and funding sources for 
those programs.
    Two, develop promotional materials targeted to both 
business industry and returning veterans that identifies skills 
by military occupational specialty and their translation to 
civilian occupations.
    Three, encourage all States to pass legislation that allows 
veterans to receive in-state tuition rates. As an example, 
Colorado has passed a G.I. Promise Bill, which affords these 
rates to all veterans returning to public institutions inside 
the State of Colorado.
    Develop federally-funded grant opportunities to create 
veteran-based environmental restoration, remediation crews to 
assist in brown field restoration, mining reclamation, oil 
spill habitat restoration, specifically on our coastline, and 
other environmental cleanup needs. This would include new 
legislation that establishes a revolving fund from taxpayer 
return checkoffs for veterans to work in these areas.
    Develop guidelines and policy measures that expand 
Corporation for National Community Service--the AmeriCorps 
Veteran Corps model--to provide national service leadership 
opportunities to returning veterans at a livable wage. Take 
into account the unique veteran demographic with creating 
national initiatives that target specific age groups. For 
example, Job Corps and America's Great Outdoors Initiative both 
target veterans and youth, but because of this dual nature they 
are trying to only recruit veterans under the age of 25.
    Provide government incentives to residential and health 
care sectors to enhance the role of veterans in providing 
energy efficiency and weatherization of senior care communities 
in concert with EPA Energy Star ratings and initiatives.
    Develop clear communication and guidelines to education and 
training providers about the post-9/11 G.I. Bill's ability to 
support veterans in non-accredited certification and training.
    There are a lot of trainers who do not realize the benefit 
of the G.I. Bill and have not looked into their State 
certification of becoming a training program for the G.I. Bill.
    Chairman Murray, Veterans Green Jobs is a national non-
profit corporation dedicated to green sector employment for 
veterans. We are fully aware of the urgency of the problems 
facing our veterans as they exit military service and return to 
our communities. Our board of directors, chief executive 
officer and non-profit staff are composed of professionals, 
both veteran and non-veteran, who are dedicated to partnering 
with others in creative and productive ways to place veterans 
into meaningful opportunities.
    This concludes my statement. I will be glad to take any 
questions you have. Thank you.
    [The prepared statement of Mr. Reppenhagen follows:]
        Prepared Statement of Garett Reppenhagen, OIF Veteran, 
         Director of Veterans Development, Veterans Green Jobs
                              introduction
    Chairman Murray, Ranking Member Burr and Distinguished Members of 
the Senate Committee on Veterans' Affairs: Thank you for inviting me on 
behalf of my organization, Veterans Green Jobs, to testify today on the 
important topic of employment needs of veterans and thank you for your 
tireless efforts in helping us who dedicated our lives to service to 
this country. My name is Garret Reppenhagen. I grew up as the son of a 
career Army father who was a Vietnam War combat veteran. Both my 
grandfathers served in WWII. Military service is a family tradition. I 
am an Army veteran who served on active duty from 2001-2005 with the 
1st Infantry Division as a cavalry scout and sniper, to include tours 
in Kosovo and Iraq. As I transitioned from servicemember to civilian I 
have joined my fellow veterans in a demographic that is prone to 
unemployment, mental health injuries, substance abuse, homelessness, 
incarceration, and suicide. Due to these factors, since being Honorably 
Discharged in 2005, I have actively been involved with employment 
issues for our military veterans, particularly those of my generation 
who served in the post-9/11 combat era.
                    veterans green jobs organization
    Veterans Green Jobs is a national 501(c)3 nonprofit corporation, 
headquartered in Denver, Colorado, that has existed since 2008. Our 
mission is to engage, transition, and connect military veterans with 
meaningful employment opportunities that serve our communities and 
environment. We work to inspire hope and confidence in our veterans for 
a positive future for themselves, their families and their communities. 
Our vision is to empower veterans to utilize their military service to 
become leaders in a new mission that helps our Nation achieve energy 
efficiency, energy independence and security, natural resources 
conservation and the resulting environmental, social and economic 
benefits. We direct our efforts to building programs that offer 
veterans concrete skill building and job placement. We view 
unemployment as a risk multiplier for all other obstacles a veteran 
faces. The lack of a stable career, which provides a veteran with a 
sense of purpose, compounds problems with healthcare, personal 
relationships, and other issues, and acts as a road block to successful 
reintegration into our communities.
    We are dedicated to helping all veterans' transition into 
successful career paths by focusing on opportunities in stable economic 
sectors related to the green economy, to include energy efficiency and 
weatherization, clean and renewable energy, natural resources 
conservation, environmental restoration and other green sectors. In 
some cases veterans have received training in their military 
occupational specialties that translate to immediate openings in the 
green job sector. However, most need further training and education 
through community colleges, universities and apprenticeship or on-the-
job programs. We encourage the veterans we work with to pursue these 
pathways toward employment. We strongly believe the job opportunities 
in these sectors will increase, and that veterans can be trained and 
positioned to assume these jobs. Private business has a significant 
role to play in assisting our veterans in transitioning from the 
battlefield to the workforce. Veterans Green Jobs directs a number of 
transition and employment programs to support these goals in 
partnership with government, business and higher education.
                      veterans green jobs programs
    We currently directly employ 26 veterans full-time on our staff and 
in our weatherization programs. Our weatherization program, in 
partnership with the Colorado Governor's Energy Office, provides 
residential weatherization for low-income families. Veterans in this 
program receive a full wage and extensive training and certifications. 
Additionally, we are assisting over 100 veterans this year in our 
Veterans Green Corps and Veterans Fire Corps training and transition 
programs in six western states, in cooperation with the U.S. Forest 
Service, the Bureau of Land Management, the National Park Service and 
the Conservation Corps in these regions. This program provides an 8-22 
week paid, on the ground training program for veterans to perform 
wildland fire mitigation, trail clearing and wildland fire fighting on 
Federal lands. Many of these programs are assisted by funding from the 
Corporation for National Community Service--AmeriCorps. The support 
from AmeriCorps leverages funding that the Federal land management 
agencies contribute, creating a win-win whereby veterans receive 
training while accomplishing important hazardous fuels and conservation 
projects on public lands.
    Also, we have 15 veterans who have participated in a Green Jobs 
Academy training program in cooperation with Bucks County Community 
College near Philadelphia. This program will expand this year to 
include technician training and direct job placement in the wind energy 
sector, in cooperation with Gamesa Wind USA, a large wind energy firm, 
with facilities on the East Coast. This program is an outstanding 
example of a program that provides technical training directly linked 
to a real job. With assistance from Veterans Green Jobs, veterans with 
technical Military Occupational Specialties are being recruited, 
interviewed and hired by Gamesa, then directly placed in the Bucks 
County Community program for training, and then graduated into full-
time jobs.
    All of our programs represent ``boots on the ground'' for putting 
veterans back to work. As a non-profit, our successes have been 
accomplished by partnering with a wide array of government, private and 
nonprofit entities. We have developed an array of formal partnerships 
and teaming agreements with businesses, community colleges, 4-year 
educational institutions and other non-profits. Additionally, our 
efforts have been supported through charitable giving, to include the 
Walmart Foundation, the Sierra Club Foundation and the Call of Duty 
Endowment. However, as a non-profit we struggle to sustain these viable 
programs for veterans because of the down-turn in the economy which has 
directly impacted charitable giving, both corporate and individual, and 
other sources of funding.
          factors affecting employment transition of veterans
    In executing our programs over the past three years we have learned 
a great deal about the employment issues facing veterans. There are 
numerous organizations and public offices in the space of veterans 
support and advocacy. What often sets Veterans Green Jobs apart is our 
ability to build partnerships that offer holistic employment assistance 
and linkages from training and education to direct job placement--by 
working with both veterans and the employers.
    In our experiences, the programs with the greatest successes in 
serving veterans have incorporated the following elements:

    <bullet> A sense of service that positively impacts veterans 
because they gain a sense of pride and accomplishment that transforms 
their military service into other forms of national and community 
service
    <bullet> A living wage or stipend that allows veterans to support 
themselves and their families with some income while earning 
certifications and training to prepare them for civilian employment
    <bullet> A direct connection with job placement as a result of 
training or education
    <bullet> Well communicated resources that are easy to locate and 
access
    <bullet> Personal guidance that helps individual veterans find 
training and careers based on their experience and interests

    Our experiences have also taught us that some elements do not 
provide notable benefit, to include:

    <bullet> So-called ``one stop shops'' or Web sites with numerous 
lists and web-based hot-links
    <bullet> Resume banks that only offer standard competitive job 
searches
    <bullet> Training with no prospective or direct employment at the 
other end that is linked to a specific employer
    <bullet> Shallow employment opportunities and part-time work at a 
low wage that are not viewed as meaningful careers
    <bullet> Disconnected services focusing on one aspect of veterans' 
needs that do not communicate with other organizations or offices
   promoting veteran employment from the battlefield to the workforce
    In making some suggestions to the Committee about how you can 
assist in enhancing the workforce opportunities for our veterans 
returning from military service over the past decade, we offer the 
following:

    1. Convene immediately a national level workshop, engaging leaders 
in government, business and the non-profit sectors, to address 
solutions to current veteran employment issues. This workshop should be 
directed not toward defining and researching the problem, but rather to 
defining concrete solutions, successful models and funding sources.
    2. Develop promotional materials targeted to both business-industry 
and returning veterans that identify skills by Military Occupational 
Specialty and their translation to civilian occupations.
    3. Encourage all States to pass legislation that allows veterans to 
receive in-state tuition rates. As an example, Colorado has passed the 
GI Promise Bill which affords these rates to all veterans returning to 
public institutions in the State.
    4. Develop federally funded grant opportunities to create veteran-
based environmental restoration and remediation crews to assist in 
brown field restoration, mining reclamation, oil spill habitat 
restoration, and other environmental cleanup needs. This could include 
new legislation that establishes a revolving fund from a taxpayer 
return check-off for veterans to work in these areas.
    5. Develop guidelines and policy measures that expand the 
Corporation for National Service-AmeriCorps Veterans Corps model to 
provide national service leadership opportunities to returning veterans 
at a livable wage.
    6. Take into account the unique veteran demographic when creating 
national initiatives that target specific age groups (e.g., JobCorps 
and American Great Outdoors Initiative).
    7. Provide government incentives to the residential and health care 
sectors to enhance the role of veterans in providing energy efficiency 
and weatherization of senior care communities, in concert with EPA 
Energy Star ratings and initiatives.
    8. Develop clear communication and guidelines to education and 
training providers about the Post-9/11 GI Bill's ability to support 
veterans in non-credited certification and training programs.
                               conclusion
    Chairman Murray, Veterans Green Jobs is a national nonprofit 
corporation dedicated to green sector employment for veterans. We are 
fully aware of the urgency of the problems facing our veterans as they 
exit military service and return to our communities. Our Board of 
Directors, Chief Executive Officer and non-profit staff are composed of 
professionals, both veteran and non-veteran, who are dedicated to 
partnering with others in creative and proactive ways to place veterans 
into meaningful employment to the benefit of themselves, their families 
and their communities. This concludes my statement. I will be glad to 
answer your questions.

    Chairman Murray. Thank you very much, Mr. Repenhagen.
    Mr. Smith.

 STATEMENT OF ERIC SMITH, MEMBER VETERAN, IRAQ AND AFGHANISTAN 
                      VETERANS OF AMERICA

    Mr. Smith. Madam Chairwoman, Ranking Member Burr and 
Members of the Committee, happy Monday, and I thank you all for 
inviting me to share my experiences today as a combat veteran 
struggling to find employment in this difficult economy.
    My name is Eric Smith. I served in the U.S. Navy for 5\1/2\ 
years as a hospital corpsman. I deployed twice to Iraq. During 
my tours I gained valuable experience in the medical field 
under the most extreme conditions imaginable.
    In spite of my experience and service, I am struggling to 
find a job today. I am not alone.
    Although mine is just one story, I know that my experiences 
are mirrored in the over 200,000 Iraq and Afghanistan veterans 
who are struggling to find work in today's economy.
    As a Navy corpsman, I carried enormous responsibility and 
acquired a wide range of technical and leadership skills that 
in a perfect world would translate into a good job in the 
civilian workforce. I enlisted at 17. By age 19, I had skills, 
training and responsibilities far beyond those of my civilian 
peers in the medical field. As a senior corpsman, I managed a 
four-man team for a 20-plus bed ICU and performed procedures 
that only the most experienced civilian nurses were trained to 
perform, again, the most experienced civilian nurses.
    During my deployment to Iraq, I served as the primary 
corpsman for an infantry platoon with the 3rd Battalion, 5th 
Marine Regiment, who is actually getting back from their 
deployment in Afghanistan this week. I performed duties that in 
a civilian world are normally left to a physician's assistant. 
In this capacity, my medical and leadership training were 
beyond reproach.
    With my hard-earned experience, I was more than confident 
that upon returning home from Iraq I could find an excellent 
job doing well what I had done for my entire enlistment. I was 
honorably discharged in 2008. I strongly believed that I left 
with an impressive resume that would translate well into the 
civilian market. However, it has not proven to be the case and 
that is why I am here this morning.
    In 2009, I applied for a job at a local hospital as a--
rather a certified nursing assistant.
    Again, my resume was extensive. My experience throughout 
various and differing medical disciplines and procedures, what 
have you, it impressed the nurses, the three nurses that I was 
interviewing for. They were blown away by not only my youth, 
but the experience I had amassed during that time.
    They recommended me to the doctors in charge.
    I mean, I was more than confident that I had this job in 
the bag. I did not get a call back. You know, as it is often 
said, you know, almost to the point of nausea even, hindsight 
is 20/20. In looking back, I am almost positive that despite my 
knowledge and my experience I did not get the job because I did 
not have a piece of paper saying so, that civilian 
certification saying that I was able to do this by law. 
Everything else on that resume, it was hearsay, even though it 
was 100 percent true.
    So I was disappointed by that. But I was more frustrated by 
the fact that despite my graduation from high school to corps 
school and years worth of experience provided to me, I did not 
get that certification out of hospital corps school. That made 
me less competitive than my less experienced civilian peers.
    My experience is mirrored across the services.
    Far too many combat corpsman are becoming highly skilled in 
their trade, yet high operational tempo and multiple 
deployments prevent them from obtaining equivalent civilian 
certifications. Quite frankly, we are not setting our veterans 
up for success.
    While assigned to the Marine Corps, I attended the 
Transition Assistance Program before leaving the service and 
again, as you said, Madam Chairwoman, it is mandatory in the 
Marine Corps. One thing, about the only thing I retained from 
TAPs class was that I was told that my veteran status and my 
experience will put me ahead of the pack when I got out. In 
fact--no, despite that, I do not think that I am on a level 
playing field with my civilian peers.
    In the military, I was more than qualified for the 
positions that I applied for in the civilian workforce. As a 
civilian, however, my military education and training did not 
translate because I did not have, again, that piece of 
paperwork saying so. The resume that I thought would put me 
ahead of the pack in my opinion put me far behind. Today, 
several years later, I am struggling to find a job and utilize 
the skills that the Navy spent over $1 million and nearly 6 
years giving me.
    Unfortunately, my story is not unique, nor is it limited to 
veterans seeking work in the medical field. There are 
thousands, thousands, of highly skilled veterans with training 
far beyond that of their civilian peers that cannot seek 
equivalent employment outside of the military.
    Additionally, the leadership and management skills that 
veterans have obtained in combat are being overlooked by a 
civilian workforce that does not understand their experience. 
As an Iraq veteran and proven health care provider, I am unable 
to continue in that capacity right now without going back to 
school to relearn what the Navy already taught me. 
Additionally, there is no tool currently that employers can use 
to understand my military resume and vice versa, to translate 
that my military qualifications into that corporate language. 
One is desperately needed, as I think we can all agree on.
    To find a solution to this issue, I joined Iraq and 
Afghanistan Veterans of America, or IAVA. Two weeks ago, 27 of 
my fellow veterans and I came here to Capitol Hill as a part of 
IAVA's Storm the Hill 2011. Throughout the week, we met with 
117 offices, 57 Members of Congress and staff members to ask 
them to commission a study and report about how the military 
vocational skills and certifications translate to the civilian 
world.
    If this tool existed, I believe that I would have been able 
to leverage my military training into gainful civilian 
employment. If it existed, I believe we also would not be 
living in a country where Iraq and Afghanistan veterans are 
consistently unemployed at rates that are 2 percent higher than 
our civilian peers.
    As the civilian unemployment rate declines, joblessness 
among new veterans continues to skyrocket. It is unacceptable. 
As a country, we must act now to reverse this trend and uphold 
the Nation's commitment to our men and women serving in 
uniform. It is not too late if we act now.
    IAVA's 2011 policy agenda lays out a clear path for the 
public and private sectors to work together to end new veteran 
unemployment. I am proud of my service and to--rather, I am 
proud of my service to my country and also the brothers and 
sisters that I fought beside in Iraq. I am just one man, but my 
story reflects the struggle of over 200,000 veterans in the 
current job market.
    I am asking you now to show them that you have their backs. 
Thank you for your time.
    [The prepared statement of Mr. Smith follows:]
           Prepared Statement of Eric Smith, Member Veteran, 
                Iraq and Afghanistan Veterans of America
    Madam Chairwoman, ranking member, and Members of the Committee, 
thank you for inviting me to share my experiences today as a combat 
veteran struggling to find employment in this difficult economy.
    My name is Eric Smith. I served in the United States Navy as a 
Hospital Corpsman for 5\1/2\ years, deploying twice to Iraq. During my 
tours, I gained valuable experience in the medical field under the most 
extreme conditions imaginable. In spite of my experience and service, 
I'm struggling to find a job today--and I know I am not alone. Although 
mine is just one story, I know that my experiences are mirrored in the 
over 200,000 Iraq and Afghanistan veterans who are struggling to find 
work in today's economy.
    As a Navy Corpsman, I carried enormous responsibility and acquired 
a wide range of technical and leadership skills that should translate 
into a good job in the civilian workforce. I enlisted in the Navy when 
I was 17 years old. By age 19, I had skills, training and 
responsibilities far beyond those of my civilian peers in the medical 
field. As a senior corpsman, I lead a 4-man team for a 20+ bed ICU, and 
I performed procedures that only the most experienced civilian nurses 
were trained to perform.
    During my deployment to Iraq, I served as the primary corpsman for 
an infantry platoon in the 3rd Battalion, 5th Marine Regiment. In a 
combat zone, a platoon's corpsman is their medical lifeline, performing 
duties that in the civilian world are normally left to a Physician's 
Assistant. In this capacity, my medical and leadership training were 
unparalleled.
    With this experience, I was confident that upon returning home from 
Iraq I could find an excellent job in the medical field. After two 
tours, I left military service in 2008. I strongly believed I left with 
an impressive resume that would translate well into the civilian 
market. This did not prove to be the case.
    In 2009, I applied for a job as a Certified Nursing Assistant. By 
comparison to the high-tempo environment of my combat tour, this was a 
mundane position--but I welcomed the opportunity to keep serving in the 
medical field. My corpsman resume was extensive. My experience in 
numerous medical disciplines and procedures impressed the three nurses 
who interviewed me for the position. When they recommended me to the 
doctors in charge of the clinic, I was confident that I would get the 
job. However, I never received a call back.
    Looking back, I'm almost positive that despite my knowledge and 
experience, I was ultimately disqualified from the position for lack of 
civilian equivalent certifications. I was disappointed by this outcome. 
However, I was more frustrated by the reality that graduation from 
Naval Hospital Corps school and years worth of experience provided me 
with no certifications that translated into the civilian world. I was 
equally frustrated by the lack of a uniform process for acquiring these 
civilian certifications while in the military. Presently, the Navy has 
systems in place that offer some opportunities to gain these valued 
civilian certifications; however, these systems are not standardized 
and they are largely driven by a Sailor's own initiative. For example, 
certification is easily attainable for a Corpsman who is assigned to a 
small command in an outpatient clinic with rigid 9 to 5 hours. He or 
she can leave work to attend certification courses. It is an entirely 
different scenario for a corpsman who works 12-hour night shifts at a 
hospital ward or a ``Greenside'' Corpsman who is preoccupied with back-
to-back combat deployments. The current system is not equitable, nor is 
it reflective of a sailor's valuable experience and training. In the 
end, I firmly believe this hurts Navy Corpsmen like myself looking to 
apply our skills in the civilian medical field. It makes us less 
competitive than our less experienced civilian peers.
    My experience is mirrored across the services. Far too many combat 
Corpsmen are becoming highly skilled in their trade, yet high 
operational tempo and multiple deployments prevent them from obtaining 
equivalent civilian certifications. Quite frankly, we are not setting 
our veterans up for success.
    While assigned to the Marine Corps Forces, I attended the 
Transition Assistance Program (TAP) before leaving the service. The 
military allows you to attend the class as far as 12 months out before 
separation. I did so exactly one year out from my separation date and 
only weeks away from my second deployment to Iraq. However, as I 
prepared to deploy for a second tour, much of the valuable information 
offered in the class was not retained. Many servicemembers were in a 
similar position. TAP was one less thing to do before we separated and 
the earlier we did it the better. Why not shorten that window, so that 
more of the information provided through TAP is retained?
    If there was one thing I retained from TAP, it was that I was told 
my veteran status and military experience would put me ahead of my 
civilian peers when I transitioned out. I was told I would be wanted in 
the civilian workforce because I had proven myself a reliable leader. 
Based on my experience transitioning home, I have not found this to be 
the case. In fact, I do not feel I am on a level playing field with my 
civilian peers.
    In the military I was more than qualified for the positions I 
applied for in the civilian workforce. But in the civilian world, my 
military education and training did not translate because I didn't have 
a piece of paperwork saying so. The resume that I thought would put me 
ahead of the pack actually put me behind. Today, several years later, I 
am still struggling to find a job and utilize the skills that the Navy 
spent over $1 million and six years to give me.
    Unfortunately, my story is not unique nor is it limited to veterans 
seeking work in the medical field. There are thousands of highly 
skilled veterans with training far beyond their civilian peers that 
cannot seek equivalent employment outside of the military. 
Additionally, the leadership and management skills that veterans have 
obtained in combat are being overlooked by a civilian workforce that 
does not understand their experience.
    As a veteran, it is difficult to understand why my hard-earned 
experience in the military is hearsay in the civilian world without 
required civilian certifications. I have applied to jobs where I 
supposedly had a 'veteran's preference' to no avail. Posting my resume 
to sites such as Monster.com and Snag-A-Job.com have proved fruitless. 
With no other options, in the past year I have sought part-time work as 
a bartender, mail sorter and flatbed trailer tarper. Still, part-time 
work has been scarce. I have walked in the early mornings to a 7-11 in 
Baltimore to be picked up for day labor. Desperate for income, I have 
also volunteered to be a test patient in drug studies. At one point, I 
spent over $300 on a round-trip train ticket from Baltimore to 
Metropark, NJ to enroll in a study, only to be told within minutes that 
I did not qualify.
    The time between separation and your final adjustment to civilian 
life can be rough and often times very lonely. Save for my father who 
is a veteran, there are few people who understand the struggles of 
returning combat veterans. Right now, there are just too few services 
to help veterans like myself transfer our military skills to the 
civilian market. As an Iraq veteran, I have no way of translating my 
military vocational skills without going back to school to 're-learn' 
what the Navy already taught me. Additionally, there is no tool that 
employers can use to understand my military resume and credentials. One 
is desperately needed.
    To find a solution to this issue, I joined Iraq and Afghanistan 
Veterans of America (IAVA). Two weeks ago, 27 of my fellow veterans and 
I came here to Capitol Hill to ask Congress for its support in solving 
this problem as part of IAVA's Storm the Hill 2011. Throughout the 
week, we met with 117 offices and 57 Members of Congress to ask them to 
commission a study and report about how military vocational skills and 
certifications translate to the civilian world. If this tool existed, I 
believe that I would have been able to leverage my military training 
into gainful civilian employment when I came home from Iraq in 2008. If 
it existed, I believe we also would not be living in a country where 
Iraq and Afghanistan veterans are consistently unemployed at rates that 
are 2 percent higher than our civilian peers.
    As the civilian unemployment rate declines, joblessness among new 
veterans continues to skyrocket--this is unacceptable. As a country, we 
must act now to reverse this trend and uphold the Nation's commitment 
to our men and women serving in uniform. In addition to ordering a 
study, we must make the TAP program mandatory throughout all branches, 
encourage veterans to start small businesses and promote veteran hiring 
through tax incentives. It's not too late if we act now. And IAVA's 
2011 Policy Agenda lays out a clear path for the public and private 
sectors to work together to end new veteran unemployment. http://
iava.org/policyagenda
    I am proud of my service to my country and the brothers and sisters 
I fought beside in Iraq. I am just one man. But my story reflects the 
struggle of over 200,000 veterans in the current job market. I am 
asking you to act now and show them that you have their backs.
                                 ______
                                 
Posthearing Questions Submitted by Hon. Mark Begich to Eric Smith, OIF 
     Veteran, representing Iraq and Afghanistan Veterans of America
    Mr. Smith, IAVA has put forth a number of recommendations to employ 
our returning veterans.

    Question 1. One of the IAVA recommendations is to conduct a study 
on the similarities and differences between DOD and civilian vocational 
certifications and licenses to ease the transition of veterans into the 
civilian workforce. Has there been any action taken on such a study? 
What would the ideal outcome of such a study be?

    Question 2. One of the IAVA recommendations is to create state and 
local veterans' preference laws for all levels of government hiring and 
contracting. To what extent is this recommendation being implemented 
around the Nation?

    Question 3. The Disabled Veterans' Outreach Program (DVOP) and 
Local Veterans' Employment Representatives (LVER) work with employers 
and veterans and advocate for hiring veterans. Were you aware of these 
services when you were searching for a job in the medical field 
following your separation? If so, did you use these services and were 
they helpful?

    [Responses were not received within the Committee's 
timeframe for publication.]

    Chairman Murray. Thank you very much, Mr. Smith.
    Admiral McCreary?

  STATEMENT OF REAR ADMIRAL T.L. MCCREARY, U.S. NAVY (RET.), 
                   PRESIDENT OF MILITARY.COM

    Admiral McCreary. Madam Chairwoman, Ranking Member Burr, 
Members of the Committee, thank you very much for inviting me 
to appear today to talk about veteran employment and thank you 
for your comments about supporting our vets and their needs as 
they move, particularly as they transition from the service 
into the workforce.
    Military culture, language and job skills are not always 
understood by civilian employers. Many companies have very 
little concept of the diverse jobs and valuable skill sets one 
can learn in the military. Additionally, our vets are coming 
out of the service with little experience in writing a civilian 
resume, no exposure to private sector business culture or 
language.
    As the military looks at reducing end strength, more 
veterans will be looking for civilian employment while job 
growth is not accelerated as much as hoped. Given the services 
these veterans have provided us during war time, we owe them 
the best support possible in their post-service life.
    With the current economy, the budget issues facing our 
Nation and the need to help our vets reassimilate into the 
broader workforce, we are really faced with a stark choice of 
spending more or spending smarter. I think we should spend our 
taxpayer dollars smart.
    To do that, I believe the government should focus on 
preparing the vet for transition and not duplicate or recreate 
what exists in the private sector. In accomplishing this, first 
and foremost military personnel need more exposure to the 
private sector before they leave the service. That exposure 
should happen in the form of a transition assistance program 
where the focus should be on the veteran getting ahead rather 
than just getting out. It should include specific skill, resume 
writing services, information on private sector business 
culture, and hands-on training.
    Our young men and women use the internet today all the time 
and to provide that hands-on training on how to use the online 
tools and the wide array of tools that already exist out there 
in great abundance. The vast majorities of companies have very 
good and generally very efficient ways to find good talent. The 
key must be to get the veterans out there into that system in 
front of the employers, be identified as vets, network with 
others, and compete in the broadest possible job market.
    Second, a better understanding of military knowledge, 
skills and abilities and how they translate into professional 
certifications should be addressed by the Federal Government 
with the States.
    That a soldier, sailor, airman, Marine or Guardsman can 
perform surgery on the battlefield, but not be certified in 
EMT, as Petty Officer Smith here testified, without starting 
from scratch is just astounding to me. VA, DOD and Labor, along 
with the 50 States could probably develop a program as to what 
could be transferred or accepted as certification eligible 
within all States in a very short testing or accreditation 
period.
    Military.com knows the private sector and with our parent 
company, Monster.com, we can and do specialize in harnessing 
the best technology, along with the most effective methods to 
connect our servicemembers with employment. While most 
employers do not tell us how many vets they hire, we do know 
they continually search resumes with veteran status, 
continually post hundreds of thousands of their positions on 
Military and Monster.com over and over.
    If these efforts were not successful, companies would not 
continue this practice because they have a vested business 
interest in getting the right person into the right job. They 
do this because we have the tools to translate military 
experience to the commercial world and we do it both on and 
offline.
    Our veteran career center uses a variety of interactive 
tools and resources. Our skills translator, which decodes 
military skills into equivalent skill sets, had 250,000 
separate visitors in the last year alone using more than 1.5 
million pages of that translation process for that population.
    The key here though is it is directly linked to a Monster 
Jobs database where when they type in that skill, civilian 
equivalent positions are displayed and show immediate openings 
in that person's skill set. We also feature a veterans career 
network.
    While it is still in beta format for us, it has over a 
million members who have raised their hand and signed up to 
offer mentorship and guidance to other transitioning vets.
    We also engage with job seekers and job providers through 
our career expos, sponsored in partnership with the Non-
commissioned Officers Association. In 2010, 15,000 members 
attended our 33 career fair events near military facilities.
    Government knows government. The private sector knows the 
private sector. There needs to be translation between the two 
cultures and our free assistance to vets help make that happen.
    Finally, in today's environment of continual military 
engagement, we now have to see veterans transition and 
employment is a rolling responsibility that will remain a 
permanent fixture on the national landscape. We can do more. We 
must have a public, private partnership that works.
    Thank you for your time. I would be pleased to answer any 
questions.
    [The prepared statement of Admiral McCreary follows:]
         Prepared Statement of RADM T.L. McCreary, USN (Ret.), 
                       President of Military.com
    Madam Chairwoman, Ranking Member Burr, and members of the 
Subcommittee: Thank you for inviting me to appear before you today to 
discuss veteran employment.
    As a 27-year veteran of the Navy and the current President of 
Military.com, I have experienced the issue of veteran employment from 
both sides. As such, I would like to share with you what our 
organization is doing to help veterans find career opportunities as 
well as our belief that aligning government and the private sector will 
best connect our servicemembers with jobs.
    Post-WWII our country experienced what can be called the ``Golden 
Age of Higher Education.'' Armed with their GI Bill benefits, 4.4 
million servicemembers went to college to build the foundation for a 
better life.
    While today's veterans and servicemembers in transition are still 
pursuing their educational dreams with the enhanced GI Bill, a weakened 
economy makes it tougher to find excellent job opportunities. There is 
a disconnect with the private sector on the transportability of 
military skills and our veterans are finding it more difficult than 
ever to translate their total military experience into a civilian 
career.
    The numbers are disturbing. The unemployment rate for all veterans 
remains stubbornly at 9%, the unemployment rate for post-9/11 veterans 
is roughly 11%--higher than the national average. Young male veterans 
between the ages of 18 to 24 had an unemployment rate of 21.9% in 2010 
and female veterans face unemployment at a rate of 13.5%, versus 8.4% 
for non-veteran women.
    Many Americans enter the military because of the opportunity to 
acquire marketable skills along with the ability for advanced degrees. 
Yet when the time comes to transition today, they are not finding as 
much opportunity in today's economy. Worse yet, the connection between 
unemployment and homelessness is irrefutable. Right now the VA 
estimates there are over 100,000 veterans who have no home.
    The reality is, as we continue to reduce our troop end strength, 
more veterans will be looking for civilian employment while job growth 
has not accelerated as much as hoped. Competition will be stiff and we 
already know that unemployment is higher for veterans than for 
civilians.
    Military culture, language and job skills are not easily translated 
to the civilian world. Potential employers have very little 
understanding of the diverse jobs and skill sets one can learn in the 
military. Additionally, our veterans are coming out of the service with 
little experience in writing a civilian resume and no exposure to 
private sector business culture or language.
    There is no doubt that given the service these veterans have 
provided us during wartime, we owe them the best support possible in 
their post-service life.
    So how do we do that?
    First, programs that allow those who have served in uniform and who 
desire to continue their government service in a civilian capacity 
should be embraced. There is great value in the government competing 
for these outstanding men and women.
    But the majority of transitioning servicemembers do look to the 
private sector for employment so focus should be put on public, private 
efforts to land veterans jobs.
    So to assist, military personnel need more exposure to the private 
sector before they leave the service. That exposure needs to happen in 
the form of enhanced Transition Assistance Programs where the focus 
needs to be on the veteran getting ahead rather than just getting out. 
It needs to be taught by human resource professionals from the private 
sector with some military knowledge so instructors can provide the best 
chance for the military member to find the best opportunity on the 
outside. It must include skill-specific resume writing services, 
information on private sector business culture and hands-on training on 
how to use all available private sector resources so veterans can get 
in front of the employers and compete in the human resource networks 
that exist in the private sector. And it must teach networking and 
where to find those who can help and give our veterans insight into the 
marketplace.
    Post-service employment preparation should be focused on how to 
enter the civilian job market rather than trying to create stand-alone 
programs run by the government. The vast majority of companies in the 
private sector have very good and generally very efficient ways to find 
good talent. The key must be to help the veterans get into that system, 
be identified as veterans * * * and compete.
    Second, if government wants a program they can sink their teeth 
into, it should fund training for those in the field of human resources 
on how to understand military skill sets and how those skills apply to 
the civilian world. This training needs to include explanations for 
primary, secondary and tertiary duties an individual may have had in 
the service. The Department of Labor has a basic program around this 
but it could be greatly enhanced.
    Third, a better understanding of how military certifications 
translate to civilian professional certifications should be addressed 
with all state governments.
    My Military.com director of community outreach visited a number of 
military installations overseas in February of this year. During his 
visit to Marine Corps Base Camp Butler, he met a Navy Hospital Corpsman 
Second Class who had recently returned from his second tour in 
Afghanistan. The Navy Corpsman earned a Bronze Star with a Combat ``V'' 
for his heroic efforts in performing a tracheotomy on a wounded Marine 
during a firefight engagement with insurgents. This Navy Corpsman has 
the exceptional skills and abilities to perform such a task under 
extreme hazardous conditions and do it effectively, yet does not 
warrant becoming a qualified emergency medical technician in the 
civilian community unless he goes through a full training and 
certification program where he probably is more qualified than the 
instructor.
    It astounds me that a soldier, sailor, airman, Marine or 
Coastguardsman can perform surgery on the battlefield but not be 
certified an EMT in the civilian world without starting from scratch. 
An all-out effort between VA, Labor and DOD with the 50 states could 
probably develop a program of what knowledge, skills and abilities 
would be accepted as certifications within all states with a very short 
testing period.
    Finally, leveraging the expertise of private companies like 
Monster.com and Military.com is crucial to sustaining any successful, 
long-term veteran employment efforts.
    Military.com knows the private sector; with our parent company, 
Monster.com we can and do specialize in harnessing the best technology 
along with the most effective methods to connect our servicemembers 
with employers. And while most employers don't tell us how many vets 
they hire, we do know they continually search resumes with veteran 
status and continually advertise their positions on Monster and 
Military.com
    While the government assists servicemembers with getting out 
through the Transition Assistance Program, we at Monster.com and 
Military.com help them get ahead by tapping into our large database of 
jobs and providing the guidance needed to enter the civilian job world.
    Military.com was founded in 1999 by a young Navy reservist to 
revolutionize the way our 30 million Americans with military affinity 
stay connected and informed.
    Today, Military.com is the largest military and veteran membership 
organization with more than 10 million members and we're one of the 
largest news destination sites on the Internet. Our free membership 
connects servicemembers, military families and veterans to each other 
and to all the benefits of service at all stages in their lives--
government benefits, resources and career services, education 
information and scholarships, discounts, news and discussion forums to 
share the great stories and challenges inherent in military life, and 
more.
    In 2004, Military.com joined forces with Monster Worldwide to 
accelerate our growth and change the playing field for career and 
educational opportunities for active duty personnel, as well as Guard 
and reservists, veterans and military spouses. We work hard every day 
to serve those who serve our country and we're committed to helping our 
members find work and enter into career paths that will compliment and 
build on the skills they acquired in the military.
    We do this both online and offline.
    Online, we offer a comprehensive offering of services, resources 
and information to support every stage of a military career, from 
recruitment to boot camp to promotions, retirement, education and 
second careers.
    Military.com created a veteran career center using technology to 
successfully deliver a personalized experience with a variety of 
interactive tools and resources. We offer the largest veteran job board 
in the world featuring military-friendly employers as well as hundreds 
of thousands of job postings available through our Monster.com 
database.
    We also offer personalized email alerts for new postings that match 
a veteran's resume and job interests, as well as resume writing tools, 
education and training information, mentoring through our Veteran 
Career Network, and electronic newsletters with news and employer 
information.
    To help veterans begin their new career search, we developed our 
Military Skills Translator. We use the Department of Labor's online 
resource known as ``O-Net,'' or Occupational Data Network as a baseline 
to translate current and older military occupational specialty codes 
into civilian occupations
    Then Military.com is taking it one step further. We present the 
veteran with equivalent jobs currently posted on the Monster job board, 
including those posted by thousands of military employers specifically 
looking for veterans. The veteran can immediately apply to one of these 
jobs from our site or review the job postings and learn what specific 
experiences, skills, education, and training employers are seeking for 
this type of position. This information can help the job seeker better 
``civilianize'' their military experience on their resume and best 
communicate the skill, knowledge, and abilities they acquired while in 
service. Over the last year, we had over 250,000 separate individuals 
use our translator an average of 4-5 times per person.
    Through the Military Skills Translator, not only are veterans 
empowered to apply to currently available jobs, they can also see 
members of our Military.com's Veteran Career Network who have indicated 
they held that same Military Occupational Specialty.
    One of our fastest growing services that is still in beta form is 
this mentor network that connects veterans seeking new careers with 
employed veterans as well as military supporters. Military.com members 
who volunteer for this feature create a profile containing details 
about their military experience, professional interests, and their 
current job position and employer.
    Veterans using this feature can find a career network mentor by 
company, government agency, career field, industry or geographic 
location. Once the veteran job seeker has identified someone with whom 
they would like to network, he or she can contact a mentor directly 
through our secure Military.com email tool.
    Since the implementation of our Veteran Career Network in 2007, 
over one million Military.com members have signed on to network with 
other veterans and help transitioning servicemembers jumpstart their 
civilian careers.
    Our members also access financial information and guidance. Our 
Finance Channel drew over 450,000 views in March 2011 because of the 
comprehensive information VA home loans and our relocation guide which 
helps military families through their mandatory moves.
    For example, in March 2011 alone we had 3 million views on our 
Benefits and Education Channel which includes information on TRICARE, 
GI Bill, VA health care, survivor benefits and information on PTSD 
resources and support.
    We keep our members in touch with the latest information about 
their benefits and interests with our email newsletters, of which 35 
million are sent each month to our members who subscribe to them. Our 
most popular newsletters are the Veterans Insider with over 8 million 
subscribers, our Careers newsletters with over 800,000 subscribers and 
our Active Duty Insider with over 4 million subscribers. These 
newsletters offer tailored content and feature relevant information and 
resource links for our audience.
    Offline, we actively engage with the communities we serve through 
in person events.
    Currently we host, in conjunction with our non-profit partner, the 
Non-Commissioned Officers Association, over 40 career expos a year. Our 
efforts and quality of service have not gone unnoticed. PBS News 
recently featured our efforts during a segment on veteran's employment 
issues and Sen. Mark Warner has supported our work by acting as an 
honorary host for our events in Virginia.
    In 2010, over 15,000 members attended our 33 career fair events 
across the country. Since January of this year, we have held 11 career 
fair events, attended by more than 3500 veterans and transitioning 
servicemembers. We have also recently begun hosting Veteran Power 
Seeker Workshops in advance of our career fairs to help attendees write 
resumes, acquire interviewing and networking skills and research 
employers so they are prepared to most successfully engage with 
employers at the event.
    These career fairs are important because it gives us one to one 
interaction with both employers and transitioning servicemembers. Here 
we are able to walk job seekers through the interview process, review 
resumes and counsel them about the many opportunities outside of the 
government that they may not have known they were qualified for. 
Conversely we get the chance to meet with employers and ``de-code'' the 
military skills or vernacular they are seeing on resumes and point out 
what skills sets will best fit their needs.
    If you question the ability of the private sector to embrace and 
assist our veterans in their job search, look no further than 
Military.com and the solid relationships we have created between our 
servicemembers, veterans and employers.
    In conclusion, we no longer have finite wars with treaties being 
signed on the deck of a battleship. Today's changing global environment 
means that any time our military can be called to action, tapped for 
humanitarian assistance or used to quell instability around the globe.
    As such, we have a much longer-term obligation to understand 
veterans and the employment they seek. Rather than the ``home from 
war'' mentality of previous generations, we now have to see veteran's 
employment as a rolling responsibility that will remain a permanent 
fixture on our national landscape.
    Just as the Post WWII generation enjoyed the ``Golden Age of 
Education'' we can and should see this as our opportunity to create the 
``Golden Age of Employment'' for those who have served our Nation so 
proudly. We are fortunate enough here in our country to have an all-
volunteer force, one that emerges from, and ultimately goes back into 
the civilian population.
    It stands to reason that a crucial component in ensuring jobs for 
those veterans who return to civilian life is leveraging the expertise 
and involvement of the private sector.

    Madam Chairwoman and members of the Subcommittee, this concludes my 
statement. I would be pleased to answer any questions you may have.
                                 ______
                                 
   Response to Posthearing Questions Submitted by Hon. Jon Tester to 
        T.L. McCreary, RADM USN (Ret.), President, Military.com
    Question 1. A lot of the men and women who join our military, do so 
because of the skills and experience they can acquire--something to 
serve them well in the job market and make them more attractive to 
potential employers. It's clear from your testimony that a major hurdle 
has been the fact that military experience is not always understood by 
or translated well to civilian employers.
    Compounding the problem is the absence of any certifications by DOD 
that provide evidence of the specific training and experience acquired 
during military service. It seems to me that, if we are going to invest 
so much in each of these folks, we could at least provide them with 
something that better documents their skills and experience and makes 
them more marketable to future employers.
    When we chatted in my office, you mentioned Military.com's Military 
Skills Translator. Can you speak to this program and any potential 
adaptability of the concept by DOD?
    ANSWER: In early 2002, The Department of Labor in partnership with 
the Department of Defense initiated a program known as the ``United 
Services Military Apprenticeship Program'' (USMAP) which was 
established to help active duty enlisted servicemembers of the sea 
services, Navy, Marine and Coast Guard to earn certification for 125 
apprenticable trade skills learned through documented training and work 
experience (on-the-job training) and related technical instruction.
    In addition the Army created a program in 2005 known as 
``Credentialing Opportunities On-Line'' (COOL) which is similar to 
USMAP, providing enlisted soldiers with a guided instructional program 
on how to obtain civilian credential certification for their military 
occupational specialties.
    The Air Force also offers a credentialing information program 
through the Community College of the Air Force (CCAF) program, which is 
open to all enlisted Airmen.
    These programs still exist today. It is our opinion that they 
receive very little marketing efforts within the respective services, 
where most servicemembers do not know or have heard anything about 
these programs until after they leave active duty. Because these 
particularly mentioned programs are only available while on active 
duty, it becomes too late for a transitioning servicemember who learns 
about the program as he or she departs from active duty.
    While these programs do provide some guidance for servicemembers to 
learn about the procedures to become credentialed for civilian 
certification, most servicemembers feel that what they have learned in 
both classroom, on-the-job-training, and practical experience, 
especially those who put these skills to practical use in combat and or 
operational situations, far exceeds the established credential program, 
yet they feel that they have to go through unnecessary steps and 
procedures to obtain the civilian credentials.
    Ref: USMAP: https://usmap.cnet.navy.mil/usmapss/static/usmap.jsp; 
Army COOL Program: https://www.cool.army.mil/overview.htm; CCAF: http:/
/www.au.af.mil/au/ccaf/certifications.asp.
    That said, the biggest issue facing our men and women is not just 
getting the paperwork, but having states certify that these 
qualifications are equivalent to the states' requirements and that the 
appropriate testing and certification licenses be issued by the state. 
Each service would then have to have the states evaluate their programs 
and agree they meet state requirement for certification.
    With regard to the Military.com's Military Skills Translator--To 
help veterans begin their new career search, we developed our Military 
Skills Translator. We use Department of Labor's online resource known 
as ``O*Net Occupational Data'' as a baseline to translate current and 
older MOS codes into civilian occupations Then Military.com takes it 
one step further: we present the veteran with equivalent jobs currently 
posted on the Monster job board, including those posted by thousands of 
military employers specifically looking for veterans. The veteran can 
immediately apply to one of these jobs from our site, or review the job 
postings and learn what specific experiences, skills, education and 
training employers are seeking for this type of position. This 
information can help the job seeker better ``civilianize'' their 
military experience on their resume and best communicate the skills, 
knowledge and abilities they acquired while in service.

    Question 2. In your testimony, I also heard a lot of concerns about 
the military's transition assistance program or TAP. It seems to me 
that many folks view this as just another box to check as they rush to 
get out the door. At a time when they're simply trying to get back home 
to their families as quickly as they can, we are throwing a ton of 
information at them. I'm sure it can be overwhelming.
    It's important information but it's not always digestible. We need 
to figure out a better way of making this information available. But we 
also need a better way of making it user-friendly and more adaptable to 
a veterans' specific situation. Could you speak to the costs and 
feasibility of utilizing human resource professionals from the private 
sector to aid in the VA's assistance program on military installations?
    Response. Post-service employment preparation should be focused on 
how to enter the civilian job market. I believe that TAP can be 
improved to provide veterans with the skills they need to compete in 
the private sector. This will require a paradigm shift in the current 
program, which provides veterans with the information they need to 
leave the service rather than with the skills they need to get ahead in 
the job market.
    As to the cost of using private sector human resource personnel, I 
believe it would be minimal as it would be taking one set of 
instructors and replacing them with others. The contractors that teach 
these courses could do that easily and I believe it would enhance the 
program. I hope the Committee asks the VA, DOL and DOD to look into it. 
Military.com and our parent company Monster.com works with many veteran 
friendly employers, maybe these companies could provide someone such as 
a retired human resources professional.
    I also believe that TAP could be enhanced if the course content 
include, skill-specific resume writing services, information on private 
sector business culture and hands-on training on how to use all 
available private sector resources so veterans can get in front of the 
employers and compete in the human resource networks that exist in the 
private sector. And it must teach networking and where to find those 
who can help and give our veterans insight into the marketplace.

    Chairman Murray. Thank you very much, Admiral.
    Mr. Yauger.

  STATEMENT OF MICHAEL L. YAUGER, PRESIDENT, TEAMSTERS LOCAL 
UNION 786, COORDINATOR, INTERNATIONAL BROTHERHOOD OF TEAMSTERS' 
     HELMETS TO HARDHATS AND HEROES TO HEALTHCARE PROGRAMS

    Mr. Yauger. Chairman Murray, Ranking Member Burr and 
distinguished Members of the Committee, the International 
Brotherhood of Teamsters welcomes the opportunity to 
participate in today's hearing on Veterans Employment: 
Improving the Transition from Battlefield to the Workforce.
    My name is Mike Yauger. I serve in the capacity of 
international coordinator for the Teamster's Helmets to 
Hardhats program and the Teamster's Heroes to Health Care 
program. As a younger man, I had the honor and the privilege of 
serving in America's military as a team leader and Army Ranger 
with the 173rd Airborne Brigade.
    In the course of that duty, I learned firsthand some very 
important lessons about life. My service taught me the meaning 
of honor, duty, and commitment. These values form the very 
foundation upon which we formed our Teamsters programs around.
    For the past 6 years, the Teamsters have been leaders in 
actively identifying and developing programs to assist our 
veterans in transitioning their military skills into the 
civilian sector. A veteran who receives military training for 
Class 8 vehicles receives a military license and is exempt from 
commercial driver's license requirements imposed by the Federal 
Motor Carrier Safety Act.
    When a veteran is discharged and separates from the 
military, the military license is of absolutely no use in the 
civilian sector. In order to obtain a CDL license, the veteran 
must go through all the State requirements. This may include 
another training program, a CDL licensing test and finding and 
renting a Class 8 truck to take road skills test. This is a 
cumbersome and very costly procedure to impose on someone who 
is facing numerous challenges transitioning back to civilian 
life.
    For example, we have a service person who can drive heavy 
vehicles along supply lines in Iraq in 120-degrees heat while 
being shot at. Yet, when they return home, their military 
driver's license and driving experience does not qualify them 
to receive a civilian license for commercial value. To solve 
this particular problem, the Teamsters created the Teamsters 
Military CDL Licensing Program. It is important to note that we 
did not do this in isolation, rather we worked in partnership 
with multiple State agencies and the military schoolhouses to 
analyze the differentials between Teamster training and the 
military curriculum.
    The result is a 200-hour course that bridges the gaps 
between the two. The course is taught by certified Teamster 
trainers at no cost to the veteran. The program is active in 
Illinois, and it is currently being developed in Washington 
State, Las Vegas, New York, Northern and Southern California. 
The Teamsters military licensing program serves as a model for 
much of our ongoing efforts in support of our Nation's 
veterans. This means a model of bringing all interested parties 
together, analyzing the issues and then solving that problem.
    While we have overcome many of the challenges, it has not 
been easy. In fact, the seemingly logical and straightforward 
CDL program was 3 years in the making. During this process, we 
realized that our military must overcome certain inherent 
impediments and must serve as a strong ally in breaking down 
the barriers that currently inhibit a veteran's transition back 
to civilian life. This means jobs. Additionally, assisting this 
transition would be significantly more successful if there were 
an avenue to provide employers with verifiable proof of a 
veteran's training and experience acquired while serving in the 
military.
    Another example of an innovative program to employ veterans 
is the National Building and Construction Trades Helmets to 
Hardhats program. The Teamsters are active, supporting partners 
to the program, and they have assisted in placement of over 
40,000 veterans in the construction trades over the past 5 
years. Through interaction with veterans over the past 5 years, 
we have discovered and identified gaps in the transition 
process not specific to only the construction industry.
    Another example of an innovative veterans employment 
program which the Teamsters have had a pivotal role is within 
the health care industry.
    Teamsters have been partners to developing the Heroes to 
Health Care program. H2HC is a collaborative effort comprised 
of State representatives--excuse me, representatives from 
service branches, Federal, State, and local governments, 
hospitals and health-care sector employers, private sector 
leaders, union organizations and their affiliations, non-
profits and academia.
    The primary goal of H2HC is to create the framework for 
expedited training, licensing and employment of our veterans 
who possess the qualified service-related training in the 
health-care profession. Unfortunately, it is common for a 
veteran who provided life-saving skills on the battlefield to 
be offered no more than a position of an orderly in a civilian 
hospital. Approximately 8,000 medical corpsmen leave military 
service each year with most having served at least one tour in 
Iraq or Afghanistan. Some of those transitioning careers are 
inclusive to EMTs, lab technicians, radiology technicians, 
medical equipment repair specialists and physician assistants.
    One group of veterans deserves the country's special 
attention and that is our wounded warriors.
    The Teamsters have worked closely with and have 
participated in extended outreach to our wounded warriors. 
Whether their wounds are visible or not, we have worked with 
the Departments of Employment Security to put resources in 
place to identify specific tools and specific employers who can 
work within the confines of their physical and emotional well-
being.
    The Boston Teamsters have developed a campaign called IPODS 
for Wounded Veterans. This campaign has created a stir 
nationally as the project has raised enough funds to supply 
wounded warriors in recovery with 117 iPods and growing.
    As taxpayers, we have invested over $125,000 in 
recruitment, screening, testing and just basic training for 
every man and woman currently serving in our Armed Forces. Our 
military provides the members of our Armed Forces with the 
finest equipment, the finest education available anywhere in 
the world. Yet upon their honorable completion of their 
service, they are given no documentation or accreditation 
attesting to the level of their skills. In addition to the 
sizable initial investment as taxpayers, when the cost of their 
advanced individual training is added to that equation, it 
should be apparent to all that we have a strategic resource 
much too valuable to overlook.
    There was a time when young men and women in this country 
could count on the military to learn a marketable skill that 
would serve them well on their road to achieving the American 
dream. It is now time for our legislatures, military, and 
employers to give these fine young men and women who honorably 
served credit where credit is due. We have defined and been 
partners to an overall program that supports all of the 
identified efforts. Partnership with America will work with 
them in the industry affiliate and all the affiliated programs 
and provide them with the mentorship tools for veterans to 
excel in whatever industry they would like to transition to, as 
well as educate the industry leaders and human resource 
administrators with the tools they will need to implement the 
veteran skills into the workforce community.
    It has been our experience that failure to address these 
critical issues of successful transition to employment will 
result in amplifying the incidence of behavioral issues, Post-
Traumatic Stress Disorder, alcohol abuse, which is the leading 
factor in the increase of suicides. We have at taxpayers' 
expense provided the best education with the best technology 
and equipment in the world. We must partner to provide support 
to better serve those who have honorably served this great 
Nation.
    Again, thank you for the opportunity to discuss our 
experience in helping veterans to transition to the civilian 
workforce. We look forward to working with you on this very 
important matter.
    [The prepared statement of Mr. Yauger follows:]
  Prepared Statement of Michael L. Yauger, President, Teamsters Local 
Union 786, Coordinator, International Brotherhood of Teamsters Helmets 
             to Hardhats and Heroes to Health Care Programs
    Chairwoman Murray, Ranking Member Burr, and distinguished Members 
of the Committee, the International Brotherhood of Teamsters welcomes 
the opportunity to participate in today's hearing on ``Veterans' 
Employment: Improving the Transition from Battlefield to the 
Workforce.''
    My name is Mike Yauger. I serve in the capacity of International 
Coordinator for the Teamsters Helmets to Hardhats program and the 
Teamsters Heroes to Health Care program. As a younger man I had the 
honor and the privilege of serving in America's military as an Army 
Ranger. In the course of that duty I learned firsthand some very 
important lessons about life. My service taught me the meaning of 
honor, duty and commitment. These values form the very foundation upon 
which Teamsters programs are built.
    For the past six years, the Teamsters have been leaders in actively 
identifying and developing programs to assist our veterans in 
transitioning their military skills into the civilian sector. A veteran 
who receives military training for class 8 vehicles receives a military 
license and is exempt from commercial drivers' license (CDL) 
requirements imposed by the Federal Motor Carrier Safety Administration 
(FMCSA) and states. When a veteran is discharged and separates from the 
military the military license is of no use in the civilian sector. In 
order to obtain a CDL license the veteran must go through all of the 
state requirements. This may include another training program, a CDL 
licensing test, and finding or renting a Class 8 truck to take the road 
skills test. This is a cumbersome and very costly procedure to impose 
on someone who is facing numerous challenges transitioning back to 
civilian life. This effort is complicated by the fact that most of the 
training our service people receive is not recognized and/or well 
understood by civilian employers. For example, a service person can 
drive heavy vehicles along supply lines, in 120 degree heat, while 
being shot at; yet when they return home, their military driver's 
licenses and driving experience does not qualify them to receive a 
civilian commercial driver's license or ``CDL.''
    To solve this particular problem, the Teamsters created the 
Teamsters/Military CDL Licensing Program. It is important to note that 
we did not do this in isolation. Rather, we worked in partnership with 
multiple state agencies and the military school houses to analyze the 
differentials between Teamsters training and the military curriculum. 
The result is a 200 hour course that bridges the gaps between the two. 
The course is taught by certified Teamster trainers at no cost to the 
veteran. The program is active in Illinois and is currently being 
developed in Washington State, Las Vegas, New York, and Northern and 
Southern California.
    The Teamsters/Military Licensing program serves as the model for 
much of our ongoing efforts in support of our Nation's veterans. This 
means a model of bringing all interested parties together, analyzing 
the issues, and then solving that problem. While the objective of our 
programs is to develop and provide gainful career opportunities for our 
returning sons and daughters, we have encountered many obstacles and 
impediments to their successful transition. While we have overcome many 
of these challenges, it has not been easy. In fact, the seemingly 
logical and straight-forward CDL program was three years in the making. 
During this process, we realized that our military must overcome 
certain inherent impediments and must serve as a strong ally in 
breaking down the barriers that currently inhibit a veteran's 
transition back to civilian life--this means jobs.
    Additionally, assisting this transition would be significantly more 
successful if there were an avenue to provide employers with verifiable 
proof of a veteran's training and experience acquired while serving in 
the military. Employers base their hiring decisions upon verification 
of work history, educational degrees and state or industry recognized 
certifications. Military experience is not well understood by civilian 
employers, nor does it equate to civilian certifications. Our 
experience has taught us that if the military as a whole would work 
with civilian certifying entities to provide courses that attest to 
their level of education and qualifications while serving, this would 
go a long way toward enhancing employers' understanding and embracing 
of military training and experience. This, in turn, would encourage 
employers to increasingly recruit and hire veterans.
    Another example of an innovative program to employ veterans is the 
National Building and Construction Trades Helmets to Hardhats program. 
The Teamsters are active supporting partners to the program and have 
assisted in placement of over forty thousand veterans in the 
construction trades over the past five years. Through interaction with 
veterans over the past five years, we have discovered and identified 
gaps in the transition process not specific to only the Construction 
industry. We have interviewed veteran candidates from across the 
country and understand that many of the challenges they are faced with 
in transitioning their military skills into the civilian sector.
    Two primary challenges exist within every industry that stems from 
identifying educational/training and job experience requirements for 
each career pathway. For employers this includes identifying pathways 
to vocational transition for maintaining and building a high 
performance workforce. For the military, the challenges include 
supporting their returning veterans who not only are successful 
soldiers, but to also be successful in civilian life. Again, this means 
jobs.
    The answer two both of these challenges is to create an engine for 
partnership among the military, labor and employers, the educational/
training community, state certifying agencies and the veterans 
themselves. We must work together to identify and create a framework 
for expediting training, licensing and certification based on 
qualifying service related training and experience. Our country has an 
obligation to assist veterans in attaining the certification they need 
to achieve employment. This includes creating a methodology for 
connecting them to employers and industry experts once they return from 
service. This will reduce the number of returning veterans who use 
their GI Bill dollars on training and education in areas in which there 
will be no jobs
    Another example of an innovative veteran's employment program in 
which the Teamsters have had a pivotal role is within the healthcare 
industry. Teamsters have been partners to developing the Heroes to 
HealthCare (H2HC) program. H2HC is a collaborative effort comprised of 
representatives from service branches, Federal, state and local 
governments, hospitals and health care sector employers, private sector 
leaders, union organizations and their affiliates, nonprofits and 
academia. The primary goal of H2HC is to create the framework for 
expedited training, licensing and employment of veterans who possess 
qualified service related training in the healthcare professions. 
Unfortunately, it is common for a veteran who provided life saving 
skills on the battlefield to be offered no more than the position of an 
orderly in civilian hospitals. Approximately 8,000 medical corpsmen 
leave military service each year, with most having served at least one 
tour in Iraq and Afghanistan. Some of those transitioning careers are 
inclusive to EMT's, Lab Technicians and Radiology Technicians, Medical 
Equipment Repair Specialist and Physician Assistants. H2HC is currently 
working with regulatory agencies on the Federal and individual state 
levels to design and implement a system of translation of military 
experience and qualifications into each states certification scheme--
such as the model used in creating the CDL licensing program.
    One group of veterans deserves this country's special attention: 
our Wounded Warriors. The Teamsters have worked closely with and have 
participated in extended outreach to our Wounded Warriors--whether 
their wounds are visible or not. We have worked with Departments of 
Employment Security to put resources in place to identify specific 
tools and specific employers who can work within the confines of their 
physical and emotional well being while still ensuring the highest 
quality work result. The Boston Teamsters have developed a campaign 
that called ``IPODS for Wounded Veterans'' this campaign has created a 
stir nationally as the project has raised enough funds to supply 
wounded warriors in recovery with 117 IPods and growing.
    We have partnered with universities to bring training and 
educational opportunities to veterans in the high growth areas of 
energy efficiency, renewable energy and smart grid. These are high 
demand, high growth areas; again, this means jobs.
    As taxpayers we have invested over $125,000 in recruitment, 
screening, testing and basic training for every man and woman currently 
serving in our Armed Forces. Our military provides the members of our 
Armed Forces with the finest equipment and the finest education 
available anywhere in the world. Yet upon the honorable completion of 
their service they are given no documentation or accreditation 
attesting to the level of their skills. In addition to the sizable 
initial investment, when the cost of their advanced individual training 
is added to the equation it should be apparent to all that we have a 
strategic resource much too valuable to overlook. There was a time when 
young men and women could count on the military to learn a marketable 
skill that would serve them well on their road to achieving the 
American dream. It is now time for our legislators, military and 
employers to give these fine young men and women who honorably served 
credit where credit is due. We have defined and been partners to an 
overall program that supports all of the identified efforts, 
Partnership with America (PWA). PWA will work with all of the industry 
affiliated programs and provide them with the mentorship tools for 
veterans to excel in whatever industry they would like to transition to 
as well as educate the industry leaders and human resource 
administrators with the tools they will need to implement the veteran's 
skills into their workforce community.
    It has been our experience that failure to address these critical 
issues of successful transition to employment will result in amplifying 
the incidence of behavioral issues, Post Traumatic Stress Disorder and 
incidences of drugs and alcohol abuse which is the leading factor in 
the increase of suicides. We have at taxpayers' expense provided the 
best education with the best technology and equipment in the world. We 
must partner to provide support to better serve those who have 
honorably served this great Nation.

    Again, thank you for the opportunity to discuss our experience in 
helping veterans to transition to the civilian workforce. We look 
forward to working with you on this important endeavor.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mark Begich to 
 Michael L. Yauger, President, Teamsters Local Union 786, Coordinator, 
 International Brotherhood of Teamsters Helmets to Hardhats and Heroes 
                        to Health Care Programs
    Mr. Yauger, Alaska's Helmet to Hardhat program gets numerous calls 
from active duty short-timers and vets looking for assistance in 
obtaining a CDL--for a short time it was great to refer them to AVOTEC 
(Army Vocational/Technical Soldier Program). But now they have to tell 
them to check with the Education office on post.

    Question. What action needs to be taken to get the Teamsters and 
VETS and the States to get Veterans their CDLs so they can work?
    Response. The Teamsters have discussed this with the Alaska 
Teamster Employer Service Training Trust who provides a significant 
amount of CDL training and testing in Alaska. They have committed to 
provide printed information on CDL training and testing to the various 
military education offices around the State of Alaska and to veteran 
organizations.
    In addition the Teamsters have had active support to their program 
from conception and are working with the United States Army Transition 
and Policy Committees and Marines for Life National Director, Col. 
Joseph Krumm as well as Lt. General Jack Stultz, Chief of the U.S. Army 
Reserves. The Army is actually going take on the task of prescreening 
army candidates who would like to take advantage of this opportunity. 
They will also be identifying the program to those military candidates 
that have had a Military CDL License. Inclusive to that outreach we are 
working with the Department of Veterans Affairs and Department of 
Employment Security/Workforce Training offices in all states we are 
active in and have had outreach in each state with elected officials, 
Secretary of State offices and Veteran Service Organizations to assist 
in outreach to the veteran community. This protocol can be developed 
into any state.
    The veteran that would like to obtain a civilian military license 
in most states must obtain a permit for the CDL A License typically 
provided by the the Secretary of State's (Department of Motor Vehicles) 
office. This is a written test and study guides are available through 
the Secretary of State's office and now also online via the Teamsters 
Training Center www.illinoisteamsterstraining.org a free online study 
guide is in place to prepare them to take the written permit test 
required by state and Federal guidelines. Illinois Teamsters/Management 
and Labor Trust funded the development of the online study guide. This 
will assist the veteran in preparing for the written permit exam. Any 
Veteran, Reserve or Guard candidate will have the capability to access/
register for the online study guide at no cost. (Specific criteria was 
developed to identify them as veterans/military personnel to access 
specific log in codes.)
    Once the veteran obtains their CDL permit they will then be 
eligible to register to take the 200 Hours course (Secretary State 
Approved) developed by the Teamsters with approval from the Department 
of Veterans Affairs State Approving Agency. As of October 1, 2011, the 
Post-9/11 GI Bill Chapter 33 will cover the cost of the training for 
veterans as this would fall under the guidelines of vocational 
training/tuition assistance. The Illinois Teamsters Trust fund is 
funding the first course/class for veterans in June 2011. Teamsters 
training centers in Washington State, Northern and Southern California, 
New York and Las Vegas are preparing to launch the Teamsters/Military 
Licensing program in their states as well. The Teamsters are active in 
working with the Army and Marine Corp. to identify specific candidates 
that had military occupational skills that match the criteria and would 
like to continue driving in the civilian workforce community.
    State by state DOT offices should recognize the veterans training 
and also cooperate by identifying a veteran's preference to those 
veteran candidates that complete the course. In turn the teamsters will 
identify the program to their employers who will also have the 
opportunity to employ these candidates and other veteran candidates who 
are seeking employment in the transportation industry.
    This was and continues to be an overall partnership/collaborated 
effort with state agencies, Federal agency support, military partners 
and the Teamsters. It is necessary to complete this as a state by state 
effort due to the state wide regulations specific Federal licensing.
    The International Brotherhood of Teamsters are the leaders in the 
transportation industry and recognized for quality training in every 
state. Teamsters/Military CDL Licensing program was the only 
alternative solution that made sense to all affiliated entities that 
have been seeking solutions for this particular workforce initiative.

    Chairman Murray. Thank you very much to all of you for your 
very compelling testimony.
    Mr. Smith, let me start with you. You served your country 
honorably. You had enormous responsibility as a combat medic, 
and a huge variety of training and skills during your time of 
service, and you came home to apply for a job in the civilian 
world. The one thing between you and your job was a piece of 
paper, a certification that said you did what you did, correct?
    Mr. Smith. Yes, ma'am, that is it. Nothing more to say 
about that. It was a piece of paper separating me from that 
job, which at that time I desperately needed.
    Chairman Murray. Mr. Yauger, I heard you say the same thing 
for commercial driver's license, the one thing that separates 
men and women who serve in the military is a piece of paper 
saying they did what they did?
    Mr. Yauger. Yes, ma'am, that is absolutely correct. We have 
a need in this country right now for 515,000 CDL license 
holders by the year 2015.
    Yet it takes them 9 months to 1 year for a transitioning 
serviceman just to transition his to a CDL license because we 
have laws in this country that say you are not insurable unless 
you can prove and validate that you have 3 years of verifiable 
experience driving.
    Chairman Murray. So the military says to you, Mr. Smith, 
you did great, thank you very much, goodbye, but they do not 
give you that one piece of paper saying you did what you did 
that translates into the civilian world as certification, 
correct?
    Mr. Smith. Right, it is not a standard set of best 
practices, if you will, that allows each and every 
servicemember in those specialties to get the same 
certification. Now, in the Navy, for instance, you have 
opportunities to get on your own time. It's driven basically by 
a sailor's own initiative.
    You have that ability to get equivalent certifications like 
your LVN license, vocational nurse license, your EMT license. 
But that's pretty easy for the corpsman that works a fixed 
shift, 9 to 5 in a small clinic. He comes into work. He goes 
home, you know, plays Xbox and then he goes to study for his 
exam.
    For a corpsman much like myself who was working 12-hour 
shifts in the ICU, or that green side corpsman, that corpsman 
that's attached to the Marine Corps side, either they are doing 
back-to-back-deployments, where is the time to study up to be 
able to take the test to get those qualifications? I will tell 
you right now, there is none.
    Chairman Murray. There is no ability to do that, so you get 
out without that certification?
    Mr. Smith. Right.
    Chairman Murray. So if you were to go do an equivalent type 
of job in your State right now, how much training would you 
need? How many years of training to prove to that employer that 
you have the necessary experience; do you know?
    Mr. Smith. To be perfectly honest, it would not take me any 
time at all. You know, there are systems in place, the Smart 
Transfer Program that converts my experience into equivalent 
credits. That varies throughout each college. It would take me 
no time.
    Chairman Murray. So you would have to go back and take 
classes?
    Mr. Smith. Right, absolutely, and I would dip into my G.I. 
Bill to do so.
    Chairman Murray. So it would cost taxpayer monies.
    Mr. Smith. Again.
    Chairman Murray. To educate you to do the same thing you 
had done before, but just to get a piece of paper.
    Mr. Smith. Yes, ma'am.
    Chairman Murray. My point is that this is a tremendous cost 
to this country to retrain you to do the job you did before, 
but for a lack of piece of paper.
    Mr. Smith. Yes, ma'am.
    Chairman Murray. I think that is a problem we need to 
address.
    Mr. Reppenhagen, your story is extremely compelling. I'm 
really curious. You were a sniper when you were in the 
military. How did you make the leap to Green Jobs?
    Mr. Reppenhagen. You know, I had a dedication to the 
personnel within my platoon; I took care of them. When I 
transferred out of the military, they actually gave me as a 
going-away gift, they all signed a Mother's Day card. So I knew 
that I wanted to continue serving my fellow veterans and 
comrades on the other side, to help with that transition.
    So, immediately when I got out I got into non-profit work 
and started working here in Washington, DC, with Veterans for 
America, first, as just a spokesperson and then as I learned 
skills among the non-profit world, I started gaining more 
management skills and program directing skills. When I located 
Veterans Green Jobs, I thought it was a good fit. This was 
before the administration change. It seemed like it was 
definitely a good way forward and there are a lot of 
opportunities for veterans to take these positions.
    It basically followed the downturn in the economy, and it 
has been a hard fight, I think, for all of us in this current 
environment. So there are certainly no transferable skills 
between being a sniper in Iraq and working in a non-profit 
organization other than having dedication and really wanting to 
continue to serve my fellow veterans.
    Chairman Murray. It seems to me you do a couple things 
really well. One, you train veterans, but you also place them. 
How could we replicate what you have done with Green Jobs and 
other sectors of the economy?
    Mr. Reppenhagen. Well, I think one of the advantages that 
we have is that we have a very, very narrow niche of jobs that 
we are looking at trying to penetrate, which allows us to look 
at holistic programs for the veterans that are interested in 
those positions and training in those careers. So we can target 
educational institutions and employers that are specifically 
fastened in that green economy niche.
    We realized right away that we did not have the resources 
to build a very broad program, so we immediately started on the 
ground developing local partners within city and State 
governments, and now even Federal partners, which allow us to 
expand those programs. We can only do a certain few things 
well, and we rely on the rest of the offices and a lot of the 
organizations in this room to provide additional care and 
services to make a holistic program. I think that is the key: 
really encouraging those partnerships and helping promote them 
and rewarding organizations that collaborate and work together 
well.
    Chairman Murray. Very good. Senator Burr.
    Senator Burr. On behalf of all of us, I would like to thank 
all four of you for your personal commitment to serve this 
country. To some degree it is embarrassing that we are having 
to have a hearing on this. Admiral, I thank you for the effort 
that you make at Military.com and more importantly, the 
integration in the job search process that you go through.
    You and I have had an opportunity to talk, and the online 
possibilities are unlimited. But it seems like we always come 
together and talk about the cookie-cutter programs that we come 
up with; the inside-the-box approaches that government always 
has to solve a problem that we constantly have a flow of 
individuals that come up and tell us does not work.
    I think all four of you have done a great job of laying out 
for us individual ideas that you think might help to overcome 
the challenges that our separated veterans have with 
employment.
    Let me ask you one simple question. What that we do today 
works? Is there anything that we are currently doing out there 
that is initiated by government that actually works? Garett?
    Mr. Reppenhagen. I think the new G.I. Bill is an incredible 
opportunity.
    Senator Burr. I agree with you totally, and I think most 
Members do, too. Let me just raise an issue.
    For-profit institutions are under the crosshairs of the 
sniper's rifle in Washington right now. Yet for-profit 
institutions are in fact the majority of the institutions that 
our veterans choose to go to get the technical skills or the 
certification, Eric, that they are looking for. Even though 
they might have been a mechanic for 15 years in the military, 
they still have to go in before the automobile dealer is going 
to hire them at a job of $70,000 a year, but it is 14 months 
out of their life. It is paid for, but in the infinite wisdom 
that we have, we are beginning to target institutions to 
eliminate their ability to spend Federal tuition dollars.
    Now, some would tell you that is not targeted to happen 
with the G.I. Bill. I would tell you, if you do it with one 
side of Federal dollars, the leakage is over to another side of 
Federal dollars. It will not benefit our separating veterans.
    Are there other specific jobs programs that are out there, 
some duplicative, that today helped you or helped somebody that 
you know?
    Admiral McCreary. I think they are too broad and do not 
target the level of someone of where they are coming out of the 
service. Somebody who is coming out of the service and retiring 
and somebody coming out after their first tour or second tour 
have different needs in that market.
    Unfortunately, we have not seen any jobs issues around 
veterans from a government perspective work, and I think what 
we try and do with that is recreate what exists out there, yet 
do not prepare the vet to compete in the market. You know, we 
do a tremendous amount of training our men and women who serve 
for conditions on the battlefield. We ought to apply that same 
rigor and training as they are preparing to get out to go and 
compete on the job battlefield and compete out there in the 
private sector. Take the vets to the employers with the skill 
sets they need to explain their qualifications and their jobs 
rather than trying to bring, if you will, the employers into 
where the vets are and kind of limit the scope of what they 
see.
    I think until we embrace that and realize that we do not 
have to create a specific program for everything but really 
apply some very narrow focus to give the talented men and women 
that we really discussed earlier the skills to actually go out 
and compete, that that is what will make it work.
    I have not really seen that happen to date.
    Now, I couldn't have said that 6 years ago when I was on 
the other side because when you are inside the government, hey, 
you know, of course, we can solve every problem, right? You see 
that. Now that I have seen it from both sides, and after 
talking to several thousand of our 10 million members, I have 
an appreciation that until they get out and actually get 
adjusted to the culture and learn how to plan it, they are less 
successful.
    So let's move that skill set prior to them getting out.
    Senator Burr. I saw Eric shaking his head. He agreed with 
you. Let me just say, Admiral, I wrote down three things from 
your testimony--not that the rest of it was not important. But 
I noted: transition preparation, something that clearly is not 
done today; help writing resumes. You know, I think to some 
degree that is overlooked. It is not just a deficiency within 
departing vets, it is a deficiency within the next generation 
of this country right now.
    I thought for the first time somebody actually identified 
in your statement what needs to be done: coordination between 
military, government, and States to set up a certification 
process that applies to everybody. I know, Mr. Yauger, the 
unions have tried to do this in the limited capacity that you 
have.
    Mr. Yauger. Well, actually, Senator, we have an advantage 
because we already have companies that are signatory to our 
bargaining-unit agreements and who are very patriotic people 
and believe in the skill sets of our military. We have proven 
to them that these drivers that come out of the military have 
the necessary skills. They were willing to take a chance, and 
that is why we have been so successful in transitioning them 
into the construction trades.
    For example, a combat engineer that trains at Fort Leonard 
Wood, MI, not only trains how to drive a truck, he trains on 
how to drive a bulldozer, a Bobcat. He is trained on how to do 
surveying. He is a well-rounded individual. His only decision 
when he gets out is going to be choosing what he wants to be. 
Do I want to be a welder, a surveyor, an HVAC specialist?
    The mentorship that we give them there steers them in that 
direction.
    Senator Burr. But even that individual who did electricians 
work for 15 years, in all likelihood is subject to the State he 
chooses to go to as to how hard the certification is going to 
be, and that is just wrong.
    Mr. Yauger. Well, what happens is in the civilian sector, 
when you go to college for 4 years, they give you a diploma 
when you get out and you take that diploma and you bring it to 
your job interview and the prospective company that you are 
going to go work for, he looks at that, your H.R. guy, and he 
sees this as having real value. This is proof that you have 
been exposed to a certain course of education.
    A young man gets out of the military, shows up with his DD-
214 and they look at that and the first thing they want to look 
at, does this guy have any emotional problems? Does this guy 
have this? Does this guy have that?
    The fact of the matter is, and this is what really 
aggravates probably all the people sitting at this table, we 
have the best and the brightest military we have ever had in 
our lives. The cream of the crop of America's youth serve in 
our military. When they enter the military, they raised their 
right hand and they swear an oath to the people of this country 
in front of God that they will be willing to give their life in 
the defense of our country, our citizens, and our way of life. 
Then, when they get out, we betray their trust.
    We trusted them to protect us, and then we betray their 
trust by letting them flounder out there. In a time where we 
have so many Reservists and National Guardsmen doing logistical 
command work, we not only have those soldiers, sailors, airmen 
and Coast Guardsmen and Marines, we have their families to deal 
with. And when you do not find gainful employment opportunities 
for these people, the divorce rate goes up, the behavioral 
problems increase, the incidences of post-traumatic stress 
increase.
    I want to remind you, we are in a pretty bad time. I don't 
have to tell you guys that. We live in a time when you have to 
roll your sleeves up. You have to use it up, and you have to 
wear it out. When you already spend that much money training 
these young men and women, and then you get out and you have to 
support them for a year and add more money to the budget to pay 
for the G.I. Bill, this is money badly spent twice.
    We need to take that investment that we make, roll it over, 
build on it. Give our taxpayers in this country a return on 
their investment. Nobody deserves--these are our sons and 
daughters that are going in harm's way for us. These are not 
some strangers. We already gave them the best equipment, the 
best training in the world. We should give them a bite of that 
American apple.
    Senator Burr. These are also our future leaders.
    Mr. Yauger. That is exactly right.
    Senator Burr. I have gone over my time. The Chairman has 
been gracious. Let me just say, one might conclude that I 
condemned every program that the Federal Government has for 
employment for veterans. There are programs that work; let me 
State that.
    Mr. Yauger. Yes, there are.
    Senator Burr. But I hope that for the programs that do not 
measure outcomes, that you are as disgusted as I am that we 
would continue to fund those efforts. It is impossible for me 
to believe that we will solve this problem if we are not held 
accountable for an increase in the number of veterans that do 
not have jobs, and I think I speak for the Committee when I say 
we will continue to enlist your suggestions as to things that 
we can do.
    Maybe some of them are a bridge too far, but I am convinced 
that we will be willing to do anything we can to make sure that 
these heroes are rewarded with a job. We appreciate them. Thank 
you.
    Chairman Murray. Thank you very much. Senator Tester.
    Senator Tester. Thank you, Madam Chairman. I too want to 
express my appreciation for each and every one of your service 
to this country. I am just going to go right down the line. 
Probably I will start with you, Garett.
    You talked about in your testimony taxpayer checkoffs to do 
some environmental clean up, and we have a ton of old mines in 
Montana, and I know there are issues in the Gulf Coast. You 
listed many of them. I think it is an interesting concept. How 
far have you taken it as an organization?
    Mr. Reppenhagen. We haven't. I mean, we are still 
investigating creative ideas. We are certainly not an advocacy 
organization. We typically do not spend a lot of time here on 
Capitol Hill or even within our State offices advocating for 
any sort of changes.
    I think if we gave the public an option to really invest in 
our veterans, I think we will see an increase in money coming 
to us, whether it is through employment funds or through direct 
taxation. I think our citizens will elect to give more to 
veterans to help us out.
    Senator Tester. I actually agree with that assessment a 
lot, and I think it is an interesting concept. I think it needs 
some fleshing out to potentially move forward with it. I think 
it has merit.
    Eric, I guess the first question is, do you want to move to 
Montana?
    [Laughter.]
    Mr. Smith. If I can bring my whole entire family along with 
me.
    Senator Tester. Yeah, well, I will tell you, there are a 
couple of things that--I mean, your testimony, as well as 
everybody's testimony, pointed out the lack of coordination 
from military to civilian life. Often times--and I will get to 
this with you Mr. Yauger--often times I think it may be 
government-to-government. I mean, you are talking about a CDL 
license. That is not private sector. The people who give those 
CDL licenses are government once again. So we need to do some 
work there.
    I wish the director of the VA was here, because I can tell 
you in Montana, we are looking for medical professionals all 
the time, all the time. It has always been my assumption that 
VA looked to veterans first and if they do not, they should. So 
we will visit about that, I am sure, at hearings in this 
Committee.
    But I mean, you point out in very real terms what needs to 
be done, I think, as far as transferring the knowledge that you 
have gained on the field of battle and in the theater of war to 
what goes on in our hospitals around here. I cannot believe--
because medical professionals are in demand--I will give you an 
example: my daughter is an RN. I do not care if you are an LPN, 
a CNA, RN, she could have picked her spot to go to. You should 
be in that same boat, absolutely, unequivocally.
    I want to talk to you about the TAP program though, Mr. 
Smith. You have been through it. Is it effective? If you were 
going to change something in it, what would you change?
    Mr. Smith. Well, to start, as was stated by Madam 
Chairwoman, it is only mandatory right now in the Marine Corps. 
However, you are able to take the TAP class up to 12 months out 
from your separation.
    Now, me personally, I took the TAP class exactly 12 months 
out and about maybe 2 or 3 weeks before I deployed to Iraq. It 
is pretty much, if you talk to any guy, you know, that is ready 
to get out. It is basically asking what is the quickest way to 
get all this stuff checked off my list to get me out of here?
    That was my thought process going into it.
    This is one less thing to do a year from now when I am 
ready to check out. You know, like I said, I deployed to Iraq 
weeks after I took that class and, of course, none of that is 
going to be retained in that capacity because all I am thinking 
about are much more important pressing matters like the lives 
of my Marines. So all that's, you know I bring them, 
everything.
    I think that one, you should shorten that window. You know, 
90 days is the magic number when you are separating out of the 
military. You know, 90 days is when the clock starts, so to 
speak. Shorten TAP down to 90 days out. It should not be that 
big of a gap between the time you are taking the class.
    Another thing is, we need to update TAP period.
    The TAP curriculum as it stands right now is 19-years old. 
The job market has changed 10, 20, 30 times since that time 
period. The thing is that everybody receives the same class. It 
does not matter whether it is a captain that graduated West 
Point or a PFC from Montana, they are getting that same class, 
but they have separate needs.
    The West Point grad is not going to get out and flip 
burgers at McDonalds. He is probably going to look toward the 
corporate sector. He needs a TAP class that targets his special 
needs and what he can provide to the workforce. The same for 
that PFC. You know, you need a TAP class that is specific to 
what he is able to do and what he is able to provide to the 
civilian workforce.
    Senator Tester. Thank you. I have run out of time, so I am 
not going to ask my other questions, but may put them in 
writing. First of all, thank you for your work, Admiral. Thanks 
for being in the office yesterday to visit about it.
    You do a great job at getting the information out to 
businesses. Do we need to do more education of the businesses 
and how do we do that?
    Do we do that through NFIB? Do we do that through their 
trade groups? How do we do that?
    The other thing, Mr. Yauger, first of all, I appreciate the 
work the Teamsters is doing. I think it is good work, and you 
get all the kudos in the world for working to get our vets 
employed, whether it is in medical care or driving trucks or 
whatever it be. But the issue of CDL conversion--I want to say 
big-truck driving in the military's conversion to CDL, I think, 
has to be done on a State legislative basis.
    Mr. Yauger. That is exactly what we are trying to do. What 
we do, we put together a program where we could train and 
actually go to military bases, Reserves and Guards.
    Senator Tester. I think that the work is easily 
transferable and should be transferable, and it is ridiculous 
that it is not. Thank you, Madam Chair.
    Chairman Murray. Thank you very much. Just one quick 
follow-up on the TAP, the Transitional Assistance Program. It 
is not mandatory, that is correct? It is old. It needs to be 
changed. But the timing of when to do it has been a critical 
question that I have discussed with veterans numerous times.
    You say, Mr. Smith, yours was too soon, before you even 
deployed. It did not mean anything to you when you came back. 
You probably do not even remember what they said. We have other 
veterans who tell us all they wanted to do is get out. It is a 
check-the-box thing. They do not even pay attention; just take 
the class and be gone.
    When is the ideal time, and where is the ideal place to do 
it?
    Mr. Smith. The ideal time, like I said, is 90 days out. The 
ideal place to do it is, I guess I would say, somewhere 
official.
    Chairman Murray. I have talked to veterans who come home, 
and they got their TAP program in North Carolina, but where 
they are going to is Seattle, WA, or Montana. Different job 
markets, completely different jobs available.
    The private sector is not involved, so they do not even 
know the kinds of skills that are going to be looked for where 
they return.
    Mr. Smith. I do not think that location matters as much as 
the content. I think with good content, it does not matter 
where you go. I mean, there is a certain set of things that are 
universal. You are just going to find it everywhere. The 
corporate lingo, it does not change from Maryland to Montana or 
from Maryland to California. That is always going to be there.
    You need to change the content, bottom line, not the 
location.
    Chairman Murray. Mr. McCreary, you want to comment?
    Admiral McCreary. Madam Chairman, I think it really depends 
on the type of job, but anywhere from 3 to 6 months ahead of 
time is the best time. But the problem is right now what we do 
is we do it all offline really, and we hand people information 
and it goes back into the locker. If we went into the tools of 
the trade that are out there, where people could actually look 
through jobs, help write resumes, learn to do that online, I 
guarantee you there would be more touch points in that 3- to 6-
month period before somebody gets out.
    Chairman Murray. So they could go back and relook at it.
    Admiral McCreary. Because they can keep getting online. 
They can keep going back and using all the commercial sites 
that are available out there, I mean, all of them. You know, 
one is not going to work for somebody and it is going to work 
for somebody else, so let's teach the tools to go out there, 
show everybody where those assets are available and put the 
resources into that so that people can go back and touch it 
often in that period.
    Chairman Murray. It is basic education training. You 
cannot----
    Admiral McCreary. There you go.
    Chairman Murray [continuing]. Give a lecture for an hour 
and expect anybody to retain that information. There has to be 
ways that they can relook at it other times and absorb it in 
different ways.
    Admiral McCreary. Yes, ma'am.
    Chairman Murray. Excellent point. I have other questions I 
want to submit for the record. The record will remain open for 
questions. I want to really thank all of you for your testimony 
this morning, and we will now move to the next panel. I will 
introduce them as you all move out and they move into their 
chairs here. [Pause.]
    Coming up on our second panel, we are going to be--if I can 
have the Committee's attention--I am going to be introducing 
our panelists, as they sit down.
    We are going to proceed to the second panel.
    We will be hearing from Hon. Ray Jefferson, who is the 
Assistant Secretary for Veterans' Employment and Training 
Services. If we could have everybody take their conversations 
out of the Committee hearing room so we can move on.
    Following Secretary Jefferson is the Honorable John Berry, 
who is director of the U.S. Office of Personnel Management. Our 
final witness this morning is John Campbell, deputy assistant 
secretary of defense for Wounded Warrior Care and Transition 
Policy.
    Secretary Jefferson, we want to welcome you back to this 
Committee and appreciate your testimony and your willingness to 
be here today. Secretary Jefferson.

  STATEMENT OF RAYMOND M. JEFFERSON, ASSISTANT SECRETARY FOR 
  VETERANS' EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF LABOR

    Mr. Jefferson. Senator Tester, thank you for the 
opportunity to talk about what we are doing with vets to help 
veterans and transitioning servicemembers. I ask that my full 
written testimony be made part of the record.
    I want to thank the first panel for the comments that they 
made and also acknowledge the tremendous partnership that we 
are working in with OPM, DOD, VA, the SVAC and the HVAC, as 
well as our partners with the veterans service organizations, 
the private sector, and the non-profits.
    We have three primary responsibilities at the Veterans' 
Employment and Training Service. The first one is preparing 
servicemembers for meaningful careers, and the primary way to 
do that is through the Transition Assistance Program. This 
program is in radical need of being completely transformed and 
reengineered, and we are doing that this year, and we are on 
time table to have that done by Veterans Day.
    There are six major problems with the TAP program as it 
stands right now. One, it is one size fits all. No 
customization, no segmentation. Two, the content is outdated. 
Three, it is taught primarily by PowerPoint. Four, it does not 
leverage online technology. Five, there is no follow-up 
services to embed what you learn and six, there is completely 
no metrics.
    We will be working with some of the national and 
international best practices. We have one of the leading 
experts on TAP who is here today from Harvard Business School 
who has been advising us on how to create a world-class 
program. We are on record--we are timelined to have that done 
by Veterans Day.
    Also, spouses are eligible for TAP, but last year, less 
than 2,500 participated. So we are forming a partnership with 
DOD's Military Spouse Employment Program. It has gotten jobs 
for 90,000 spouses. We are also partnering with the Services 
Transition Programs, such as ACAP, with the Army.
    Second, a major responsibility we have is providing access 
to meaningful careers. We have a new model of employer 
outreach. Vets used to meet with employers one at a time. Now 
we are working with them 100 at a time, hundreds at a time. We 
launched phase one last year. We are now going to phase two 
with the U.S. Chamber. This is going to consist of 100 mega-
hiring fairs around the Nation. We launched our first one in 
Chicago. We had over 120 employers, over 1,000 veterans there. 
One employer--as we get the outcomes coming back, one employer 
has hired six veterans. They are all working already.
    We have four more that one employer is looking to hire. The 
U.S. Chamber brings the employers to the table. VETS, with 
their partners, bring the veterans to the table. So we have 99 
more of those which are going to be rolling out over the next 
year across the Nation. We are also replicating our pilot 
program with the Society for Human Resource Management. So we 
will be addressing rooms full of hundreds of H.R. executives on 
why to hire veterans, and how to hire them.
    We are doing this with support from Fortune and Forbes and 
Business Week magazines, so employers are going to get the 
message as to why to hire veterans. We have commitments from 
Business Week, Forbes and Fortune to do that this year. One 
article on veterans employment is read by 30 million unique 
visitors out of Business Week.
    The Federal hiring initiative--I know Director Berry will 
talk about that. We are now hiring more veterans into the 
Federal Government than ever before, and we have individuals 
whose sole job is to liaison with veterans, to make sure that 
they are hired in the most efficient, effective manner.
    We have 2,000 employee representatives around America in 
our JVSG, Jobs for Veterans State Grant Program. They serve 
624,000 veterans a year. We find jobs for 200,000 veterans and 
with our partners at ETA, that number goes up to 480,000. But 
there has been no internal assessment to look at how the 
program can be improved since it began in 2002.
    So, we are doing an internal assessment right now to get 
ideas for best-practice improvements, number 1. Number 2, we 
are going to leverage IT to create an online community of 
practice so an employee representative in Washington State can 
share best practices with an employment representative in North 
Carolina or in Montana.
    Our Job Corps pilot for the youngest veterans 20- to 24-
years old, this is a fully-funded residential program. We will 
transport them to the site that will give them a lifelong 
license or credential or certificate, a job, and 21 months of 
post-employment support. We have 300 slots in the pilot. Job 
Corps serves 44,000 clients a year. So once we do proof of 
concept, we can increase the number of slots. We have over 120 
enrolled now.
    I would be grateful for this Committee's support to raise 
awareness of it in the communities to get the other 180 filled.
    We also have a very effective rural veterans outreach 
pilot. We have launched that in Washington State. We were 
hoping to have 10 percent participation. That was our success 
metric. We have over 90 percent participation. Over 4,000 rural 
veterans are participating in that program. It is a tremendous 
success.
    There is much more that we can talk about. I want to be 
respectful of my time. I look forward to answering your 
questions. There is much more to do. We are trying to get all 
of it done as quickly as possible at VETS.
    [The prepared statement of Mr. Jefferson follows:]
  Prepared Statement of Raymond M. Jefferson, Assistant Secretary for 
      Veterans' Employment and Training, U.S. Department of Labor
    Chairman Murray, Ranking Member Burr, and Members of the Committee: 
Thank you for the opportunity to appear as a witness before the 
Committee and speak to you about Veterans' employment and what the 
Department of Labor's Veterans' Employment and Training Services (VETS) 
is doing to facilitate a smooth, efficient and effective transition of 
our Servicemembers and their spouses from the military into the 
civilian workforce.
    VETS' mission is to proudly serve Veterans and transitioning 
Servicemembers by providing resources and expertise to assist and 
prepare them to obtain meaningful careers, maximize their employment 
opportunities and protect their employment rights. We do that through 
the following four major programs that are an integral part of 
Secretary Solis's vision of ``Good Jobs for Everyone:''

    <bullet> The Jobs for Veterans State Grants (JVSG);
    <bullet> The Transition Assistance Program Employment Workshops 
(TAP);
    <bullet> The Homeless Veterans' Reintegration Program (HVRP); and
    <bullet> The Uniformed Services Employment and Reemployment Rights 
Act (USERRA).

    VETS also continues to partner with the Employment and Training 
Administration (ETA) which shares goals for providing services to 
Veterans, including transitioning Servicemembers and eligible spouses 
through a variety of employment and training programs, which allows the 
opportunity to leverage resources for these populations.
    Since being confirmed, I've incorporated stakeholder feedback into 
the development of five aspirations that VETS will pursue during my 
tenure as Assistant Secretary in order to achieve our desired outcomes:

    1. Serving as the National focal point for Veterans' employment and 
training.
    2. Increased engagement with employers, with a particular emphasis 
on the private sector.
    3. Helping Servicemembers transition seamlessly into meaningful 
employment and careers, with a particular emphasis on emerging 
industries such as green jobs.
    4. Boosting USERRA's impact by increasing awareness of and 
commitment to it.
    5. Investing in VETS' team members to further develop their 
potential and better serve our clients.

    Over the past year and a half, VETS has prioritized our efforts to 
transform TAP, implement a new approach to employer outreach, and 
better serve rural Veterans.
    For the purposes of this hearing today, I would like to elaborate 
more on these efforts and other initiatives we have to assist our 
Servicemembers in transitioning from the military into the civilian 
workforce.
     transforming and redesigning the transition assistance program
    Our primary program for assisting individuals with their transition 
is the Transition Assistance Program (TAP). TAP is an interagency 
program delivered via a partnership involving the Department of Defense 
(DOD), DOL VETS, the Department of Veterans Affairs (VA), and the 
Department of Homeland Security (DHS). TAP has four components:

    1. Pre-separation counseling--this is mandatory for all 
transitioning Servicemembers and is provided by the military services;
    2. TAP employment workshop--this is voluntary on the part of the 
transitioning Servicemember and is administered through DOL VETS and 
its state partners;
    3. VA benefits briefing--this briefing is also voluntary and 
administered by the VA; and
    4. Disabled Transition Assistance Program (DTAP)--also voluntary 
and administered by the VA.

    Since 1991, when VETS began providing employment workshops pursuant 
to section 502 of the National Defense Authorization Act for Fiscal 
Year 1991 (P.L. 101-510), we've provided employment and job training 
assistance and other transitional services to over two and a half 
million separating and retiring Serve Members and their spouses. Our 
goal is to provide TAP at every location requested by the Armed 
Services or National Guard and Reserve Components.
    VETS' employment workshop is a comprehensive two and a half day 
program during which participants are supposed to learn relevant skills 
and information, such as job search techniques, career decisionmaking 
processes, and current labor market conditions. Practical exercises are 
conducted in resume writing and interviewing techniques. Participants 
are also provided an evaluation of their employability relative to the 
job market and receive information on the most current Veterans' 
benefits available. Components of the employment workshop include: 
career self-assessment, resume development, job search and interview 
techniques, U.S. labor market information, civilian workforce 
requirements and documentation of military skills.
    The current workshop also includes discussion about additional 
services available at the over 3,000 One-Stop Career Centers. By 
connecting over 1.8 million Veterans to the workforce investment system 
this past program year, One-Stop Career Centers are helping to provide 
the support Veterans need to be successful and competitive in today's 
workforce. Building on this success, VETS partners with the ETA to 
increase Veterans' awareness of, access to, and use of the One-Stop 
service delivery system including ETA's suite of on-line electronic 
tools.
    To maintain quality in service delivery and ensure uniformity among 
locations, all workshops use a common workbook and standard program of 
instruction. In addition, all facilitators are trained and certified by 
the National Veterans' Training Institute.
    In the FY 2012 Budget proposal, VETS requests that the Transition 
Assistance Program be funded at $9,000,000, renewing our FY 2011 
request to fund this as a separate activity. This is $2,000,000 above 
the level for FY 2010. VETS anticipates increased demand for TAP 
Employment Workshops in connection with the Department of Defense's 
Yellow Ribbon Reintegration Program, and in providing workshops to 
retiring Reserve and National Guard members.
    In the current TAP workshop, we have identified six primary 
opportunities for improvement. Therefore, VETS is taking the 
unprecedented step of completely redesigning and transforming the TAP 
employment workshop. We are creating experiential, effective, and 
enduring solutions for a successful transition from military to 
civilian life and employment. The new TAP is based on established best 
practices in career transition. Many of its components have never been 
a part of the employment workshop and are being introduced for the 
first time.
    The first improvement opportunity we've identified is that the 
current TAP workshop does not include any type of assessment of an 
individual prior to a person attending the workshop. As a result, there 
is no customization to an individual's needs or readiness for 
employment. Presently, Servicemembers and other TAP participants (e.g., 
spouses) with different transition needs and degrees of employment 
readiness are all grouped together. As an example, when a senior non-
commissioned officer with a bachelor's degree attends the same workshop 
as a junior enlisted member with a high school diploma, each has a 
different readiness level and transition needs. Therefore, to be most 
effective, the workshop content should be customized for each 
participant's employment readiness situation. Previously, there was no 
way to accomplish this goal. One solution could be ``pre-work''--
multiple employment-readiness assessments completed before attending 
TAP. The redesign will assess each individual's readiness for 
employment and their career interests before attending the workshop via 
online surveys. The pre-work process will then assess and place each 
TAP participant in one of three categories of employment readiness: 1) 
high, 2) moderate, and 3) entry-level. When a Servicemember attends 
TAP, they will so do with a cohort of peers at the same readiness level 
and, additionally, receive materials tailored to their specific level.
    The second improvement opportunity we've identified is that the TAP 
Employment Workshop content is outdated--the material has not been 
significantly updated in 19 years. Therefore, the transformation and 
redesign will bring in best practice content in the area of career 
transition.
    As a result of the pre-work assessment, the content will be 
customized based on employment readiness and will cover topics such as 
the following:

    1. Life and career planning
    2. Transitioning from a military to a civilian work environment
    3. Stress reduction techniques
    4. Mental resiliency training
    5. How to create a network
    6. Storytelling (articulating one's value proposition)
    7. Peer-support techniques
    8. Entrepreneurship.

    Although TAP will continue to cover the traditional topics like 
resume writing, interviewing, and dressing for success, an important 
new emphasis in TAP will be the creation of an Individual Transition 
Plan that will serve as a roadmap for the ``next steps'' to be taken in 
each participant's transition to civilian employment.
    The third improvement opportunity we've identified is that TAP is 
presently being facilitated by a mixed cadre with different skill 
levels and training (e.g. contractors, VETS Federal staff, State 
Disabled Veteran Outreach Program specialists, and Local Veterans 
Employment Representatives). Our solution to this is to shift to only 
using skilled and experienced contract facilitators who are trained to 
standards developed as part of the redesign. They will provide 
experiential learning and interactive facilitation that is customized 
to a participant's readiness level. This represents a significant shift 
away from a reliance on PowerPoint slides. Evidence has shown that 
skilled contract facilitators produce the best results of the current 
mix of TAP facilitators. Having the facilitator contracted directly to 
VETS will enhance their performance accountability.
    The fourth improvement opportunity we've identified is the 
limitation in what the current TAP employment workshop can cover and 
who can attend. The solution to this is an online platform. The TAP 
transformation and redesign will include an online, e-learning platform 
that will contain the entire TAP Workshop--including the pre-work 
assessment tools--in an engaging, dramatized format and serve as a 
comprehensive toolbox for wounded warriors, spouses, Guard and 
Reservists. Having an online platform will allow Servicemembers, 
Veterans, and spouses to access all of the content provided in TAP, 
including the workshop, at any time. Additionally, it will provide 
comprehensive content on entrepreneurship and Federal employment. 
Furthermore, a Veteran who went through TAP many years ago--or who 
never went through it--can go online and access the best-practice 
content of the new TAP. Finally, this solution will allow us to receive 
feedback from online users and track how many there are.
    The fifth improvement opportunity we've identified with the current 
program is that there are no follow-up services for its participants. 
Currently, when a transitioning Servicemember or spouse attends TAP, 
they leave with whatever they received in those two and a half days. 
Our solution to this is an innovation called ``After-TAP Support.'' In 
the redesigned TAP, after attending a workshop, each participant will 
have 60-day access to individualized phone and online support with 
``live'' person-to-person contact that will focus primarily on 
assisting participants with implementing their own Individual 
Transition Plan.
    The sixth improvement opportunity we've identified is that TAP has 
no performance metrics to evaluate its effectiveness. During the 19 
years since the TAP employment workshop has been in existence, we 
estimate that more than 2.5 million people have gone through the TAP 
program. However, there is no accumulated data measuring the program's 
effectiveness. Therefore the redesign will include performance metrics. 
The new program will gather evaluation input from TAP participants at 
``three moments of truth'':

    1. When the TAP Employment Workshop concludes--attendees will 
evaluate the delivery, content, resources, and setting;
    2. During the job search process--attendees will evaluate the value 
and relevancy of the workshop's content; and
    3. After becoming employed--attendees will evaluate the program's 
effectiveness in helping them to assimilate into a new culture, 
minimize the time it takes for them to begin contributing, and provide 
feedback on the overall value of the new TAP and its usefulness in 
obtaining a job.
    employer outreach through jobs for veterans state grants program
    The Disabled Veteran Outreach Program (DVOP) and the Local Veterans 
Employment Representatives (LVER) program are known collectively as the 
Jobs for Veterans State Grants program (JVSG). Over time, the 
responsibilities of DVOPs and LVERs have merged. However, VETS realizes 
that their function and value are very different, and it is critical 
that these positions maintain their distinct roles.
    DVOP specialists provide intensive employment services and 
assistance to meet the employment needs of eligible Veterans. DVOPs do 
this primarily at the Nation's One-Stop Career Centers funded through 
the Workforce Investment Act and at the VA's Vocational Rehabilitation 
and Employment (VR&E) offices. They also provide recovery and 
employment assistance to wounded and injured Servicemembers receiving 
care at Department of Defense military treatment facilities and Warrior 
Transition Units through the Recovery & Employment Assistance Lifelines 
(REALifelines) program. DVOPs focus their services on disabled 
Veterans. DVOPs also provide services through the Homeless Veterans' 
Reintegration Program, Veterans' Workforce Investment Program, 
Transition Assistance Program, and the Incarcerated Veterans' 
Transition Program.
    The LVER program is a State grant program authorized by Section 
4104, Title 38, United States Code. LVER staff conduct outreach to 
employers and engage in advocacy efforts with hiring executives to 
increase employment opportunities for Veterans, encourage the hiring of 
disabled Veterans, and generally assist Veterans to gain and retain 
employment. They are often members of One Stop Career Center business 
development teams. LVERs also conduct seminars for employers and job 
search workshops for Veterans seeking employment, and facilitate the 
provision of employment, training, and placement services to Veterans 
by all staff of the employment service delivery system. In addition, 
LVER staff seek to maintain cooperative working relationships with 
community organizations that provide complementary services and 
referral.
                 employer outreach through partnerships
    VETS created, and is implementing, a new approach to employer 
outreach that involves a pilot program and partnership with the U.S. 
Chamber Of Commerce. The official launch of the program was October 1, 
2010. This partnership is giving us much broader access to employers so 
that we can communicate the value of hiring a Veteran and how to access 
this extraordinary source of talent. It also allows us to educate 
employers about the unique skills Veterans bring with them based on 
their military experience.
    Phase 1 of the pilot program included the formalized coordination, 
through a Memorandum of Understanding, between the U.S. Chamber's 
affiliated chambers of commerce in 14 states with our State Directors 
(DVETS) and local staff there. VETS and the U.S. Chamber's affiliates 
worked to connect Veterans seeking employment with companies who were 
hiring. Connecting the talent pool with the many companies looking to 
hire Veterans allowed for a more efficient hiring process for many 
Veterans and employers. We gained valuable information from Phase 1 of 
the pilot that we'll be applying to Phase 2, a nationwide initiative to 
help Veterans find jobs in local communities across the country.
    In this pilot program, VETS works with Mr. Kevin Schmiegel, the 
U.S. Chamber's Vice President for Veterans Employment and a Veteran of 
the U.S. Marine Corps. Mr. Schmiegel has been a steadfast advocate of 
Veterans' employment and an enthusiastic proponent of both the pilot 
and VETS.
    As part of the Chamber's commitment to VETS, they recently hosted a 
meeting with their Top 100 Chambers from across the country, with 
representation from all 50 states. During this meeting, the Chamber 
enlisted support from a vast majority of these Top 100 Chambers to 
volunteer to host hiring fairs exclusively for Veterans, transitioning 
Servicemembers and their spouses in their respective cities. In the 
partnership, the U.S. Chamber and its affiliates focus primarily on 
securing the participation of employers while the VETS team focuses on 
obtaining participation by Veterans, transitioning Servicemembers and 
their spouses. The DVETS, along with DVOPs and LVERs in hiring fair 
locales, connect with the local affiliated chambers participating to 
coordinate outreach to both employers and the Veteran community.
    The larger hiring fairs are titled ``Mega-Hiring Fairs.'' An 
example was Phase 2's kickoff hiring fair in Chicago on March 24, 2011 
that connected over 100 employers with over 1,000 Veterans, 
Servicemembers and spouses. The Chicago hiring fair began Phase 2 of 
our pilot program--a nationwide initiative to help Veterans find jobs 
in local communities across the country. Participating employers must 
have current vacancies to fill in their organization. We are now 
working to replicate the Chicago Hiring Fair model with the remaining 
99 of the Top 100 Chambers, and are finalizing locations and dates for 
future Mega-Hiring fairs. This pilot represents a new approach to 
employer outreach for VETS and is an effective and efficient way to 
connect employers and Veterans.
                               job corps
    VETS and the Employment and Training Administration's (ETA) Job 
Corps program developed a demonstration project in June 2010 to offer 
additional educational and career technical training to Veterans and 
Transitioning Servicemembers at one of three specific Job Corps 
centers. These include the Earle C. Clements Job Corps Center in 
Morganfield, KY, Excelsior Springs Job Corps Center in Excelsior 
Springs, MO, and Atterbury Job Corps Center in Edinburgh, IN. Each of 
these three centers has 100 dedicated slots for Veterans to live and 
train together.
    While Veterans currently benefit from priority enrollment into Job 
Corps, this partnership also provides them with priority in entering 
the academic and career technical training of their choice.
    This is 100 percent free for enrolled Veterans. The program 
includes transportation to and from the Job Corps center, housing, 
meals, basic medical services, academic and career technical training, 
bi-weekly living allowance, job placement services and post-enrollment 
support.
    We have worked with Job Corps to streamline the program so that it 
recognizes the maturity and life experience that our Veterans have 
gained from their military experience. Job Corps employs a 
comprehensive career development training approach that teaches 
academic, career technical, employability skills, and social 
competencies in an integrated manner through a combination of 
classroom, practical and work-based learning experiences to prepare 
participants for stable, long-term employment in high-demand jobs. Job 
Corps graduates have the opportunity to earn an industry-recognized 
certification or credential that supports the skills and knowledge 
gained through career training.
    One of the Job Corps program's key benefits is its post-enrollment 
support. When Veterans are ready to begin transitioning into their 
career, Job Corps staff will assist them in job searching, resume 
drafting, and job interviewing skills.
    Job Corps provides graduates with transition services for up to 21 
months after graduation, including assistance with housing, 
transportation, and other support services. Upon completion of 
training, Veterans will be assigned to a career transition counselor to 
assist them with job placement or enrollment in higher education.
    We have incorporated information about this demonstration project 
and have created outreach materials to be distributed in our TAP 
Employment Workshops all over the world. TAP facilitators discuss this 
initiative in class and Job Corps personnel visit selected sites to 
answer questions and initiate applications from interested Veterans. 
This is a great opportunity for Veterans 20 to 24 years old--the cohort 
with the highest unemployment--and we are utilizing various methods, 
including discussing it before this Committee today, in order to get 
the word out.
                 rural veterans outreach pilot program
    Finally, VETS is developing an innovative national initiative that 
will allow us and states to greatly improve outreach to rural Veterans; 
provide them access to better programs, services and information; and 
connect them to a wide variety of services. Rural service is a 
challenge governmentwide because of the cost of serving Americans that 
live a great distance away from government programs and infrastructure. 
During this economically difficult time, it is even more complicated to 
increase services in these areas. VETS' initiative aims to overcome 
this barrier by leveraging low cost volunteer capacity that exists in 
communities. VETS, working with state and local government, will 
provide the initial outreach to rural Veterans and proactively connect 
them to the workforce system.
    VETS chose Washington State to be the first pilot state for this 
initiative for the following reasons:

    1. A proven history of innovation in employment and Veteran 
programming;
    2. A track record of providing strong employment services to the 
Veteran population and a commitment from the leadership in the state 
government to continue providing a high level of service to the state's 
large community of Veterans;
    3. A strong network of Veteran service organizations committed to 
volunteering their time and energy to support their fellow Veteran;
    4. A geographically diverse state with significant rural Veteran 
population and a well managed statewide network for launching a new 
initiative; and
    5. Senior Congressional leadership in Washington, DC, and 
leadership in the Governor's Office have both expressed their support 
for this initiative.

    The core service involves a team of volunteers who will initiate 
contact with Veterans, check on how their careers are going and, if 
needed, make them aware of additional support available from government 
and non-government organizations. The initiative is created to connect 
Veterans to Veteran specialists in the state workforce agency.
    The pilot is working in 22 rural counties in Washington State, with 
approximately 40,000 Veterans identified in this area. Of this 
population, 15,000 have not been in contact with employment services in 
the last five years. This is the baseline for the outreach effort. 
Based on these numbers, VETS has identified approximately 5-20 
community driven Veteran volunteers, and government funded volunteer 
organizations, to perform the outreach activities. Some volunteer 
organizations currently work in multiple counties and will be covering 
more than one county as a volunteer organization.
    VETS has signed a Memorandum of Agreement (MOA) with the Washington 
State Employment Security Department (ESD), the Washington Department 
of Veterans Affairs (WDVA), and the Washington State National Guard (J-
9). VETS formally launched the program in Seattle on October 26, 2010.
    From December 2010 through March 2011, the Labor Market and 
Economic Analysis Division (LMEA), a division of the ESD, conducted 
outreach to Veterans and contacted all Veterans who positively 
responded to the LMEA outreach requesting additional information on 
employment services. For those Veterans who requested additional 
information, LMEA will make up to three attempts to contact each of 
these Veterans to provide more information. Simultaneously, the WDVA, 
in conjunction with the Corporation for National and Community Service 
(CNCS) organized volunteers, are mailing postcards to Veterans where 
there is no phone information available. This will allow the Veteran to 
contact LMEA to arrange personal contact.
    As part of the model, the National Veterans Training Institute 
(NVTI) trains ESD employees and leaders from the volunteer 
organizations on how to provide outreach service to Veterans. Volunteer 
organizations are taught to understand government programs and provide 
employment program related information when asked. Also, they are 
trained in working from scripts created by LMEA on how to structure 
their conversations with Veterans.
    LMEA will record which Veterans request additional support during 
the personal interview. They will provide this information to the State 
workforce agency who will coordinate a volunteer to provide this 
additional support in person.
    The goal is to facilitate a meeting within three weeks of the 
outreach activity between the Veteran and the volunteer. The volunteer 
will provide information on programs that exist at the Federal, state 
and local level and contact information of the nearest DVOP or LVER in 
their area to continue the support until employment is found for the 
Veteran.
    We have seen extremely positive results thus far in the program. 
Our metric for success was having 10 percent of the Veterans 
participate--their actual participation rate is in excess of 90 
percent.
                               conclusion
    Chairman Murray, Ranking Member Burr, and Distinguished Members of 
the Committee on Veterans Affairs, I reaffirm my commitment to work 
closely with you, the outstanding team at VETS, and our partners and 
stakeholders to provide Veterans and transitioning Servicemembers the 
best possible services and programs. Our success will be measured by 
the impact our programs have on helping our Veterans find and keep good 
jobs in today's modern economy.
    We will continue to work tirelessly and innovatively to help our 
Veterans and transitioning Servicemembers create meaningful lives, 
develop rewarding careers and become productive citizens and leaders in 
their communities.

    Thank you again for your unwavering commitment to Veterans and for 
the support that you've been providing to us.
    I appreciate the opportunity to testify before you today and look 
forward to answering your questions.
                                 ______
                                 
Posthearing Questions Submitted by Hon. Patty Murray to Hon. Raymond M. 
 Jefferson, Assistant Secretary for Veterans' Employment and Training, 
                        U.S. Department of Labor
    Question 1. In your oral testimony you discussed improvements to 
the Transition Assistance Program. One of the key components to 
improving TAP is the use of metrics to measure the outcomes of TAP. Do 
you intend to follow up with veterans once they have left the service 
to measure the success of TAP and gage what other employment assistance 
veterans may have?

    Question 2. Please describe any work that has been done with state 
or national accrediting bodies in order to ease a servicemember's 
transition to civilian employment.

    Question 3. As the agency statutorily responsible for job and job 
training intensive services program, an employment placement service 
program, and a job training placement service program for eligible 
veterans, how often does the Department of Labor's Veterans' Employment 
and Training Service coordinate meetings with other Agencies involved 
in veterans' employment and training? Please describe the nature of 
these meetings. How does VETS make certain that all Agencies are 
regularly and freely informing each other of new initiatives that 
involve veterans' employment and training?
                                 ______
                                 
    Posthearing Questions from Hon. Richard Burr to Hon. Raymond M. 
 Jefferson, Assistant Secretary for Veterans' Employment and Training, 
                        U.S. Department of Labor
    Question 1. In a recent report, the Government Accountability 
Office noted that ''[l]ittle is known about the effectiveness of 
[Federal] employment and training programs * * * because only five 
reported demonstrating whether outcomes can be attributed to the 
program through an impact study.'' That report also notes that ''[the 
Department of] Labor is conducting an impact evaluation of [certain] 
services, to be completed in 2015.''

    A. Are the programs administered by the Veterans' Employment and 
Training Service being evaluated as part of that study? If not, is 
there a separate impact study underway dealing with those veteran-
specific programs?
    B. If an impact study is being conducted with respect to employment 
programs targeting veterans, how many veterans who participate in each 
of those programs are expected to be involved in the study?
    C. If an impact study is being conducted with respect to employment 
programs targeting veterans, what are the major milestones of that 
study and when will the study be completed?

    Question 2. The Veterans' Employment and Training Service is 
involved with a number of new initiatives, including a demonstration 
project with Jobs Corps, outreach to rural veterans, and outreach to 
employers.

    A. What performance measures are being used to gauge the usefulness 
of each of those initiatives?
     b. how much in total has been expended for purposes of those 
                              initiatives?
    C. How many veterans have obtained jobs or better jobs as a result 
of these initiatives?
                                 ______
                                 
 Posthearing Questions Submitted by Hon. Jon Tester to Hon. Raymond M. 
 Jefferson, Assistant Secretary for Veterans' Employment and Training, 
                        U.S. Department of Labor
    Question 1. I was encouraged to see your office launch a pilot 
program that provided outreach to unemployed rural veterans. It's 
critically important that we get a better idea of what services they 
could best utilize to get back into the workforce. I've raised this 
issue with you in the past and I certainly think it's a step in the 
right direction. I understand the challenges that come with budgeting. 
But I'm still hopeful that Montana veterans have some input during this 
process. I think it's important.
    <bullet> What are some of the early results of the pilot? What have 
you learned about ways we can better reach folks in frontier areas and 
reservations across the country? Because I can tell you that it's not 
currently being done.

    Question 2. As you know, American Indians serve in our Armed Forces 
in greater numbers than any other ethnic group, proportionally. However 
in Montana, reservation unemployment rates often exceed 50 percent. We 
can improve that number if we can put vets to work in those 
communities.
    <bullet> What are you doing to reach those folks? And when do you 
anticipate moving forward in developing a more comprehensive or 
national strategy to address rural veterans unemployment overall?

    Question 3. I only have good things to say about the Disabled 
Veterans Opportunity Program specialists and the Local Veterans 
Employment Representatives in Montana. They provide a critical set of 
services to veterans across my state. The problem is that we don't have 
enough of them.
    The current funding formula ensures that we only get a handful of 
employment trainers and counselors for a state as geographically large 
as the entire northeastern corridor of the United States. This reality 
makes it extremely difficult to adequately serve our veterans.
    <bullet> Can you speak to any efforts in VETS to acknowledge the 
shortcoming of the funding formula issue? Are there any efforts 
underway to change this formula to better reflect the needs of rural 
veterans in states like Montana? How can we use better use technology 
to reach rural areas?
                                 ______
                                 
Posthearing Questions Submitted by Hon. Mark Begich to Hon. Raymond M. 
 Jefferson, Assistant Secretary for Veterans' Employment and Training, 
                        U.S. Department of Labor
    Question 1. As you know, outreach to the Alaska Native community is 
best accomplished through the tribal entities.
    <bullet> Can you discuss any specific outreach efforts that VETS 
has made to reach out to the Alaska Native veteran community?

    Question 2. When you were in Alaska in February of last year, you 
mentioned that you wanted to explore the value of e-commerce for 
veterans in rural America. The concept you spoke of was for veterans to 
create internet-based home businesses.
    <bullet> How is that concept progressing?

    Question 3. You discussed the stovepipes inhibiting communications 
between the critical government agencies responsible for business 
development. You wanted to break down those stovepipes to bring 
organizations such as the Department of Commerce, Small Business 
Administration, and the Minority Business and Development Agency 
together to form a synergistic team.
    <bullet> Do you feel you have been successful in accomplishing this 
goal?
    <bullet> What areas of concern still remain?
    <bullet> How can we help you in accomplishing this goal?

    Question 4. In Alaska, there are around 1,500 servicemembers 
transitioning to the civilian sector each year.
    <bullet> Has there been an evaluation of the effectiveness of the 
DOL' DVOPs?
    <bullet> How much outreach outside of the office do they do?

    Question 5. You stated during our Alaska field hearings last year 
that Alaska has 5-6 USERRA complaints a year. These types of issues are 
the last thing our returning veterans should have to deal with in the 
work place.
    <bullet> What does VETS do to better educate prospective and 
current employers on USERRA?
    <bullet> Are there issues with USERRA that Congress can address?
    <bullet> Does this pose challenges that would have to be addressed 
by Congress?

    [Responses were not received within the Committee's 
timeframe for publication.]

    Chairman Murray. Thank you very much.
    Mr. Berry?

            STATEMENT OF HON. JOHN BERRY, DIRECTOR, 
              U.S. OFFICE OF PERSONNEL MANAGEMENT

    Mr. Berry. Madam Chair, thank you, and Members of the 
Committee, if I could just go off the testimony for just a 
second. I told Eric Smith I want to meet with him before next 
Friday. My commitment to you is I will do everything I can to 
see if we could use him as a real face example of some of the 
programs I am going to talk to you about in more detail here in 
our testimony.
    But it is crazy that we do not recognize medical expertise 
and talent when we are desperate. Just as you said Senator 
Tester, we cannot hire enough nurses in our hospitals around 
the country. We need to take full advantage of this and make 
sure we take the skills of these valued, experienced, and 
trained individuals and bring them into our government.
    I asked Eric Smith if his schedule would allow, since I 
want to meet with him before next Friday to see if we could use 
him as the real case example to make this work and to show the 
Committee that we are passionate about this.
    I want to thank you again for the opportunity to talk to 
you a little bit about the President's Veterans Employment 
Initiative that we are doing within the Federal Government. 
This is the most comprehensive high-level initiative ever to 
keep our returning heroes in public service and our initial 
success for our first year is looking pretty encouraging.
    In fiscal year 2010, we saw an improvement at 21 out of 24 
agencies across the government. Overall, our agencies hired a 
total of over 2,000 more vets in 2010 than in fiscal year 2009, 
even while we hired 11,000 less Federal employees overall. The 
other important thing to note is of the vets who were hired, of 
our total of over 70,000 vets that were employed in the Federal 
Government, 2,700 more disabled vets were hired in fiscal year 
2010, more than were than were in fiscal year 2009.
    I also want to tell you I take this seriously. OPM is 
leading by example. I am very proud. OPM's first this year had 
the highest percentage of disabled vets hired in the entire 
Federal Government, more than DOD, more than VA, more than 
anybody, and we are a pretty small agency. So we take this 
seriously, and we are driving this.
    A little history: the President launched this Veterans 
Employment Initiative by Executive Order in 2009. It provides 
the highest level of leadership on this issue in history. It 
creates a council chaired by Secretary Shinseki at the VA and 
Secretary Solis at Labor. I am the Chief Operating Officer of 
the council. Twenty-four agencies across the government are 
represented on the council.
    The initiative also requires every agency in the government 
to set up a full-time veterans employment officer. That has 
never happened before. It has always been collateral duty, and 
therefore, as you know, that means it gets short shrift 
attention. We are now giving it full-time attention and that 
has created a network across the government so that if someone 
comes in to Labor, for example, who is an accountant, and 
Labor's slots are filled right now. That professional can call 
their counterparts in other agencies and say, ``Boy, I have a 
super accountant here; do you have a slot?'', and build that 
network of informal communication. We have been trying to do 
that. We are building that and it is growing. It is really 
wonderful.
    The Web site which we launched this year, Fedshirevets.gov, 
has gotten over two million hits and is a wonderful, wonderful 
program. There is special hiring authorities for veterans. This 
Committee is familiar with this. We are using this as one of 
the easy avenues to get in. But we are also creating--and I 
wanted to spend a little bit of my remaining time to talk about 
two programs then get into more of the specifics of the first 
panel.
    Recognizing that this transition is important, we are 
starting with two professions that have easily transferable 
skills, but the paperwork is standing in the way. The first is 
acquisition programs. We are in desperate need of contract 
officers and specialists in the Federal Government. We have 
people who are doing this is in the military and they are doing 
wonderful jobs of it. With the right training and right 
certification, we can slot them into these jobs.
    So we have created a veterans acquisition intern program 
where they will come in at an entry-level program. We will 
employ them. They will have the time to be able to go and take 
the training courses and certification programs that they need 
to get into the program, and then they can be converted into 
the permanent Career Civil Service and have a career trajectory 
that can go as high as GS-15.
    So we are trying to create real jobs and bring people in at 
the GS-3, 4, 5 level, but give them a career trajectory so they 
would have a real opportunity in their life.
    The second program, and it is very on point with the first 
panel, is we are doing the exact same thing with nursing, the 
nursing career track. We are trying to wrestle to the ground 
the certification program problem, because these people, as you 
heard so admirably and eloquently from the first panel, have 
got the skills. We just have to figure out how to transfer them 
in and make sure we do not let paperwork stand in the way.
    Madam Chairman, I apologize, my time is expired. The rest 
of my testimony, I have it. I will give it to you and stand 
ready to answer any questions.
    [The prepared statement of Mr. Berry follows:]
           Prepared Statement of Hon. John Berry, Director, 
                  U.S. Office of Personnel Management
    Madam Chair, Senator Burr, and Members of the Committee: Thank you 
for inviting me to this important hearing on veterans' employment in 
the Federal Government and for the chance to speak with you about the 
Office of Personnel Management's (OPM's) leadership of the 
Administration's Veterans Employment Initiative.
    One of the best ways for us to honor the service of the brave men 
and women in our Armed Forces is to make sure they have ample 
opportunities for civilian employment in the Federal Government. They 
are valued, experienced, and trained. In doing so, we are not only 
demonstrating appreciation for their service and sacrifice; we are 
making it possible for the Nation to continue to benefit from their 
talents, dedication, and training. As I have said many times, hiring 
veterans makes good business sense.
                     veterans employment initiative
    Recognizing this, President Mama launched the Veterans Employment 
Initiative in November 2009, when he issued Executive Order 13518. The 
order created the Council on Veterans Employment to advise and assist 
the President on improving employment opportunities for veterans in the 
Federal Government. The Council is co-chaired by the Secretaries of 
Labor and Veterans Affairs. As Director of OPM, I serve as Vice Chair. 
Twenty-four agencies are represented on the Council.
    More than a year ago, the Veterans Employment Council published the 
first ever Strategic Plan for Government-wide Veterans Recruitment and 
Employment. The Strategic Plan, which covers the period from FY 2010 
through FY 2012, maps a comprehensive assault on barriers to veterans' 
employment in the areas of leadership commitment, skills development, 
marketing employment opportunities for veterans, and creation of a 
single-source information gateway for disseminating veterans' 
employment information.
    One key action required by the executive order was the 
establishment of a Veterans Employment Program Office (VEPO) within 
each of the 24 agencies represented on the Council. The mission of each 
of these offices is to support the Veterans Employment Initiative and 
provide employment assistance to veterans at the agency level. OPM's 
VEPO provides a full range of support to transitioning servicemembers, 
other veterans--including disabled veterans--and their family members 
who seek information on employment in the Federal Government. In 
November 2010, the physical space for OPM's VEPO with assistive 
technology was officially opened to assist disabled veterans in their 
Federal job search.
                    progress in veterans' employment
    The past year has yielded significant progress. Last September, the 
Council on Veterans Employment adopted a hiring model that established 
aggressive, but realistic, goals for veterans' hiring by agencies in 
the current fiscal year. At the most recent meeting of the Council last 
month, all agencies indicated they are making good progress toward 
meeting these goals. Executive branch agencies increased their hiring 
of veterans by a total of nearly 2,000 from FY 2009 to FY 2010, even 
though their total hiring fell by 11,000 during that same period. 
Specifically, veterans' hiring grew from 70,170 in FY 2009 to 72,133 in 
FY 2010, which comprised more than a quarter of new hires in the 
executive branch. Moreover, agencies hired nearly 2,700 more disabled 
veterans in FY 2010 than in 2009. While the Governmentwide results are 
promising, more progress is needed.
    OPM, as an agency, has worked hard to provide employment 
opportunities for veterans. We hired 229 veterans in FY 2010, compared 
to 171 veterans in FY 2009. In both years, veterans constituted 
approximately 27 percent of OPM's total new hires. In FY 2010, we hired 
113 disabled veterans--41 more than in the previous year. Disabled 
veterans made up more than 13 percent of OPM's total new hires last 
year--more than any other agency's percentage of hires.
             use of special hiring authorities for veterans
    We continue to encourage agencies to make full use of the various 
hiring authorities that can facilitate veterans' employment. For 
example, the Veterans Recruitment Act authorizes noncompetitive 
appointment for eligible veterans to positions up to the GS-11 level, 
or equivalent. The Veterans Employment Opportunities Act (VEOA) can be 
used to appoint those entitled to veterans' preference or veterans who 
have at least 3 years of active military service to permanent positions 
in the competitive civil service. Hiring of veterans under the VEOA 
increased from about 20,200 in 2009 to more than 20,750 in 2010. 
Veterans Recruitment Act appointments grew from 6,659 to nearly 7,000 
during the same period, and the special hiring authority for veterans 
who are 30 percent or more disabled accounted for more than 2,000 hires 
last year, compared to 1,727 in 2009.
                  veterans acquisition intern program
    One element of the Veterans Employment Initiative we are 
particularly excited about is the new Veterans Acquisition Intern 
Program, which we will launch later this year as a pilot. This is an 
inter-agency program designed to recruit student veterans and support 
their career development once they are hired. It will offer veterans 
who are students the opportunity to gain valuable on-the-job training 
and work experience in the acquisition field while continuing their 
education.
    Those who are selected for the program will be assigned a mentor, 
and a robust Individual Development Plan will be used to track their 
progress. Upon completion of the program, these interns will be 
eligible for non-competitive conversion to permanent positions in the 
competitive civil service as contract specialists.
    OPM will determine the eligibility criteria for this program and 
select applicants for agencies to consider. We will provide career 
counseling for applicants, establish metrics and an assessment process, 
approve each agency's implementation plan, and evaluate the program. If 
the Veterans Acquisition Intern Program is as successful as we hope, we 
will explore the possibility of extending the concept to other 
occupations. One of the most exciting features of this approach is that 
it offers veterans opportunities for careers in Government, not just 
jobs, and builds on the Government's investment in their military 
training and experience.
                veterans nursing career track initiative
    During an OPM Veterans Service Organization (VSO) Coalition meeting 
last fall, several veteran representatives expressed concern over the 
difficulty they experienced trying to convert their military medical 
training and experience as Army medics or Navy Corpsmen to assist in 
their quest for employment as Federal nurses. Although several medical 
intake positions exist which easily allow a former medic or Corpsman to 
enter the medical field based on their level of training and 
experience, these positions were not in the Federal nursing series such 
as Registered Nurse (RN) (0610) or Licensed Practical Nurse (LPN) 
(0620).
    On March 29, 2011, OPM hosted a mini-summit of representatives from 
Federal agencies, military medical organizations, credentialing bodies, 
and academia to identify and address issues affecting transitioning 
servicemembers and veterans seeking Federal nursing positions in order 
to create an effective career track for veterans. During the forum, the 
VA stated that it hires LPNs who are provided an opportunity to finish 
their Bachelor of Science in Nursing degree to become an RN. This 
program may serve as an excellent vehicle to bring young medics and 
Corpsmen into Federal service while they complete their academic 
studies. This information is very encouraging as we assist more 
veterans in securing Federal nursing positions in this mission-critical 
area.
                  veterans employment training modules
    The executive order establishing the Veterans Employment Initiative 
required OPM to develop mandatory training for human resources 
personnel and Federal hiring managers on veterans' employment, 
including veterans' preference and special hiring authorities. We are 
currently developing an interactive web-based E-Learning application on 
veterans' employment, which will enable us to track the progress of 
those who take the courses. The training will cover veterans' 
preference, special hiring authorities for veterans, non-competitive 
appointment eligibility for military spouses, and the Uniformed 
Services Employment and Reemployment Rights Act (USERRA).
                       hiring reform and veterans
    More than two years ago, we embarked on a broad initiative to 
reform the entire Federal hiring process. Along the way, we have 
attempted to address broad systemic problems such as reducing long job 
announcements and allowing resumes and. cover letters as applications. 
However, where appropriate, we have taken on targeted approaches, as 
with veterans' employment, to improving the recruitment and hiring of 
talented men and women to represent the diversity of our Nation and our 
workforce. This intersection of these various reform initiatives is 
creating a veterans-friendly employment environment that is unmatched 
in the private sector.
    Hiring Reform, at large, has several major components, all of 
which, in one way or another, create opportunities to improve veterans' 
employment. The President issued a memo to make the process easier for 
talented candidates to apply for Federal employment. Veterans can now 
navigate the process with greater ease and ensure their veteran's 
preference is applied fairly and consistently.
    Additionally, I am proud of the work OPM and other Federal agencies 
have done in implementing President Obama's executive order on hiring 
more people with disabilities. As many members of the military return 
from combat with serious disabilities, it is our duty as an employer to 
create opportunities for these men and women to transition into Federal 
employment.
    The Student Pathways framework is another significant part of 
Hiring Reform. The Student Pathways Initiative, like the Veterans 
Employment Initiative, was launched by President Obama in an executive 
order. Executive Order 13562 of December 27, 2010, established three 
streamlined pathways into Federal service for students and recent 
graduates, consolidating a confusing patchwork of programs into one 
Internship Program, a Recent Graduates Program, and the Presidential 
Management Fellows Program. We expect to issue proposed regulations 
implementing this initiative in the near future.
    The Student Pathways framework was the product of an inter-agency 
study spearheaded by OPM, which concluded that the Government was at a 
serious competitive disadvantage compared to the private sector in its 
ability to recruit and hire students and recent graduates. The inter-
agency team recommended the consolidated pathways approach as a way to 
overcome this disadvantage. The Internship Program will target students 
enrolled in institutions at all levels, ranging from high school to 
doctoral programs. The Recent Graduates Program will be designed for 
recent graduates of trade and vocational schools, community colleges, 
and universities. The Presidential Management Fellows Program will 
include modest enhancements to the current leadership development 
program for advance degree candidates. Veterans' preference will apply 
to selections made under all three of the pathways.
    The Recent Graduates Program, in particular, can be helpful to 
veterans in gaining access to Federal employment. It will target recent 
graduates of trade and vocational schools, community colleges, 
universities, and other qualifying institutions. This program will be 
open to those who apply within two years after completing their 
degrees; however, veterans who cannot apply within the two-year window 
because of their military service obligation will be able to apply as 
much as six years after finishing their degrees. Applicants who are 
accepted into the Recent Graduates Program will be placed in a two-year 
development program with a cohort of peers hired during timeframes 
aligned with academic calendars. Those who successfully complete the 
program will be considered for placement into permanent jobs.
    Our simultaneous pursuit of four major initiatives demonstrates 
that many overlapping goals can be pursued in concert.
          special appointment eligibility for military spouses
    Our concern is not only for returning veterans who are seeking 
jobs, but also for the spouses of those permanently disabled or killed 
during military service. Just last month, OPM published a proposed 
regulation to extend a special hiring authority for spouses of deceased 
and 100 percent disabled veterans. Currently, these spouses may be 
appointed, without competition, to a Federal job within two years after 
their spouse dies or becomes fully disabled. However, we recognize that 
many spouses are not prepared to enter the workforce during this two-
year period because they are still grieving, or are enrolled in 
educational or training programs, or may be caring for children or for 
their disabled spouse. The change we recently proposed will remove the 
two-year time limit on this appointment eligibility so that these 
spouses will have as much time as they need to consider seeking 
employment in the Federal Government.
                            fedshirevets.gov
    Finally, I wanted to tell you about a special Web site for 
veterans. In January 2010, FedsHireVets.gov became operational to 
support the information needs of transitioning servicemembers, 
veterans, and military spouses seeking employment in the Federal 
Government. Besides posting updates on important Veterans Employment 
Initiative activities, the Web site provides useful information on 
veterans' preference, special veterans appointing authorities, and 
agency-specific Veteran Employment Program Manager contact data. A 
special feature of the Web site provides answers to Frequently Asked 
Questions and offers an opportunity to ask a question not addressed. 
Additionally, the associated Facebook and Twitter accounts promote real 
time social contact on employment opportunities and special events. 
Since its creation, FedsHireVets.gov has registered well over 1 million 
hits.
                               conclusion
    To conclude, I would say that our Veterans Employment Initiative is 
off to a great start. We are pleased with the initial progress we have 
made, both within OPM and working with the other agencies on the 
Veterans Employment Council. We are building a strong program to 
enhance employment opportunities for veterans, which we believe can 
serve as a model for private sector employers as well. Although we know 
we have accomplished a great deal in a short time, we are also very 
aware of how much work lies ahead, and we are eager to take it on.

    Again, I appreciate your inviting me here today. I would be happy 
to respond to any questions you may have.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon.Richard Burr to 
     Hon. John Berry, Director, U.S. Office of Personnel Management
    Question 1. Executive Order 13518 established the Veterans 
Employment Initiative to help increase the number of veterans employed 
by the Federal Government and required each of the 24 Chief Human 
Capital Officers Act agencies to create a Veterans Employment Program 
Office.

    A. What specific functions are performed by those offices?
    Response. Executive Order 13518 requires agency Veterans Employment 
Program Offices to do the following:

    <bullet> Enhance employment opportunities for veterans within their 
respective agencies
    <bullet> Develop and implement the agency's Operational Plan
    <bullet> Establish veterans recruitment programs
    <bullet> Establish, as appropriate, training programs for disabled 
veterans
    <bullet> Coordinate job opportunities for veterans
    <bullet> Provide employment counseling to support the career 
aspirations of veterans

    B. What performance measures are used to determine whether these 
offices are effective?
    Response. In September 2010, the Council on Veterans Employment 
approved a hiring percentage model to assess the effectiveness of the 
Veterans Employment Initiative.
    Each agency established a hiring percentage goal using this model 
for Total Veteran New Hires and Total Disabled Veteran New Hires for FY 
2011.
    The Veteran Employment Program Office is a key enabler for the 
agency in meeting their hiring goal.
    Attached, please find a memorandum I issued to the Council on 
Veterans Employment, which includes a tiered model which will guide 
agency goal setting based on the agency's FY 2009 percentage of 
Veterans hired.

    C. Have any performance metrics been collected regarding these 
offices? If so, please provide a summary of the performance of those 
offices. If not, what is the time-frame for beginning to collect 
performance statistics?
    Response. Agency veteran hiring percentage goals for FY 2011 are 
based on their FY 2009 veterans' employment data which serves as the 
baseline. Government-wide veteran employment data is typically 
available after the second quarter following the close of the fiscal 
year. This data will be released and posted on Fedshirevets.gov.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Chairman Murray. All of your testimony will be included in 
the record, so thank you very much.
    Mr. Campbell.

 STATEMENT OF JOHN R. CAMPBELL, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE, WOUNDED WARRIOR CARE AND TRANSITION POLICY, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Campbell. Good morning, Chairman Murray, Ranking Member 
Burr, and Senator Tester. Thank you for the opportunity to be 
here this morning with Director Berry and Assistant Secretary 
Jefferson from Labor.
    I am pleased to discuss the role DOD plays in helping 
servicemembers successfully transition from active duty to 
civilian life. The department focuses on providing separating 
servicemembers useful information, resources, and assistance in 
all aspects of the transition process, including, but not 
limited to preparation for post-military employment. It is 
crucial to the transition process that servicemembers take 
advantage of their military experience in order to achieve 
their full employment potential after they leave the military.
    The Transition Assistance Program, better known as TAP, is 
a collaborative effort among DOD, the Department of Labor, 
Veterans Affairs, and Homeland Security. It remains the primary 
platform used to deliver an extensive array of services and 
benefits to separating servicemembers. However, we recognize 
the current program has been in place for nearly two decades 
without major enhancements.
    To strengthen and improve TAP for the 21st Century, each 
agency, Defense, Labor, and Veterans Affairs, is improving its 
component of TAP through a number of initiatives. We are 
leveraging technology, modernizing curriculum, improving field 
staff training, and developing ways to improve access to 
information relating to a successful transition.
    Although the traditional brick and mortar classrooms will 
still be available, I am really excited about how we are moving 
TAP into a virtual setting. We started a virtual learning 
series on March 1 of this year. Five hundred thirty-one 
individuals have registered for six webinars. We have had an 
additional 177 registered for May and the May schedule has only 
been available since April 1.
    On a personal note, I actually participated in one last 
week. We had over 100 participants. It started at 8 a.m., ran 
for an hour. It was all about resume writing. I would invite 
any Member of the Committee or any member of the staff to 
participate in further webinars. Those are really powerful.
    That is the great thing about technology. We are not bound 
by the constraints of the more traditional learning 
environments. We can also reach more people at the same time. A 
major part of our use of technology and the movement to a 
virtual TAP environment is the Career Decision Toolkit. The 
toolkit, in both CD and online format, is a cornerstone of 
transforming TAP into a blended career transition training 
tool. It takes advantage of online digital resources, virtual 
classrooms, and social media that compliment the traditional 
brick and mortar TAP classes. A copy of the CD with 
accompanying fact sheet has been provided to each Member of the 
Committee.
    DOD and the military services have also significantly 
increased their focus on licensure and certification by 
providing such information in a wide range of ways and in 
different formats to appeal to individual learning styles. For 
example, the Career Decision Toolkit contains a wealth of 
information on both. A key component of effective licensure and 
certification is introducing the information to the 
servicemember early in their careers, not just at the time of 
separation. Waiting until the end of military service to 
educate the war fighter on licensure and certification is too 
late.
    Our servicemembers have unlimited access to online 
credentialing and credentialing opportunities and information 
from a COOL Web site created by the Army and the Navy. COOL is 
Credentialing Opportunities Online. Our airmen have similar 
opportunities provided by the Air Force called CERT, 
Credentialing and Education Research Tool. These resources are 
used in concert with military education and training 
opportunities throughout the military life cycle. Key efforts 
include analysis to identify potential gaps between military 
training and civilian credentialing requirements, along with 
providing extensive information on resources available to fill 
those gaps. I am pleased to see that the States like Washington 
and Utah are making great progress legislatively in recognizing 
military training in the certification and licensing process.
    In closing, I would like to emphasize that the end State 
for the enhanced TAP of the 21st Century will be servicemembers 
having the knowledge, skills and abilities to empower 
themselves to make informed career decisions, be competitive in 
the global marketplace and become positive contributors to 
their community as they transition from military to civilian 
life.
    The measure of a successful transition does not focus 
solely on TAP, but rather is shared with military leadership at 
every level within the command structure and degree of personal 
involvement by the servicemember and his or her family.
    Madam Chair, this concludes my statement. On behalf of the 
men and women of the military today and the families, I thank 
you and the Members of the Committee for your steadfast support 
and leadership in this area. I will be happy to answer any 
questions you and the Committee members might have at this 
time.
    [The prepared statement of Mr. Campbell follows:]
 Prepared Statement of John R. Campbell, Deputy Assistant Secretary of 
 Defense (Wounded Warrior Care and Transition Policy), U.S. Department 
                               of Defense
    Madam Chairman and Members of the Committee: Thank you for the 
opportunity to discuss the role the Department of Defense (DOD) plays 
in helping Servicemembers successfully transition from active duty to 
civilian life. Education and training are keys to obtaining meaningful 
employment and a better quality of life after a Servicemember retires 
or separates from the military. Servicemembers are encouraged to take 
full advantage of all educational opportunities and training programs 
afforded while they are on active duty, such as tuition assistance and 
the Post-9/11 GI Bill. The Department also focuses on providing 
separating Servicemembers useful information and assistance in all 
aspects of the transition process, including preparation for post-
military employment. It is crucial to the transition process that 
Servicemembers take full advantage of their military experience in 
order to reach and achieve their full employment potential after they 
leave the military.
                  transition assistance program (tap)
    TAP is a collaborative partnership among DOD, the Departments of 
Labor (DOL), Veterans Affairs (VA), and Homeland Security (DHS) and 
remains the primary platform used to deliver an extensive array of 
services and benefits information to separating Servicemembers. 
Servicemembers are required by statute to commence pre-separation 
counseling no later than 90 days prior to active duty separation but 
are strongly advised and encouraged to start the process 12 months 
before separation, or 24 months before retirement. In addition to the 
mandatory pre-separation counseling, DOD counselors make every effort 
to encourage transitioning Servicemembers to participate in the 
voluntary TAP components (which are VA's Benefits Briefing, Disabled 
Transition Assistance Program (DTAP) and DOL's TAP Employment 
Workshop). Each agency is responsible for providing its portion of TAP 
to Servicemembers.
    Taking full advantage of what TAP has to offer enables 
Servicemembers to be strong competitors for career opportunities in the 
civilian workforce. During mandatory pre-separation counseling, 
Servicemembers review and complete an extensive checklist with a 
counselor. After Servicemembers complete the pre-separation counseling 
portion of TAP, they receive a copy of the checklist (DD Form 2648 for 
Active Duty and DD Form 2648-1 for the National Guard and Reserves) so 
they can refer back to it and look up web sites and other information 
to reinforce what they received during the pre-separation counseling 
session. The checklists have all the topics required by statute that a 
counselor must address during the pre-separation counseling session. 
The forms are used by separating Servicemembers and their spouses to 
record that pre-separation counseling was conducted.
    If the Servicemember desires more information on any topic on the 
pre-separation counseling checklist, that exceeds the general knowledge 
of the counselor, then the member checks a ``YES'' block next to the 
item on the form, and the counselor refers the Servicemember to a 
subject matter expert who is able to assist the member with the desired 
information, or get the answers to questions which the transition 
counselor may not have been able to answer. The subject matter expert 
may be a family support transition or education counselor located at 
the installation, or it may be a DOL or VA representative who provides 
TAP support at the installation.
    During pre-separation counseling, the counselor is required to 
explain and discuss ``Licensing, Certification and Apprenticeship 
Information'' with transitioning Servicemembers. Additionally, 
Servicemembers are always encouraged to do research on the internet and 
it is recommended they start with CareerOneStop, the DOL web site on 
exploring careers, salary and benefits, education and training, resume 
and interviews, and licensure and certification (http://
www.careeronestop.org). The Workforce Credentials Information Center, 
within the America's Career InfoNet part of this site, provides a 
wealth of licensure and certification information. The member can also 
access the Occupational Information Network called O*NET 
(www.onlineonetcenter.org) and the skills profiler which also falls 
under the purview of our partners at DOL. This site is considered the 
Nation's primary source of occupational and industry information. Using 
O*NET allows the Servicemember to do a crosswalk between his or her 
Military Occupational Code and the civilian equivalency of that code, 
linking the member to the Standard Occupational Classifications in the 
civilian workforce.
    The information received during the pre-separation counseling 
portion of TAP is reinforced during the other three voluntary 
components of TAP: DOL's TAP Employment Workshop, VA's Benefits 
Briefing, and the Disabled Transition Assistance Program (DTAP). 
National Guard and Reserve personnel receive a Uniformed Services 
Employment and Re-Employment Rights Act (USERRA) briefing during 
demobilization processing. DOL has notified each state's Adjutant 
General of the opportunity to receive TAP employment workshops whenever 
and wherever desired. Transitioning Servicemembers, including National 
Guard and Reserve personnel, are strongly encouraged to visit one of 
approximately 3,000 DOL One-Stop Career Centers, where they receive 
priority service consisting of help with translating their military 
skills to civilian occupations, receiving a skills assessment, and 
getting assistance in finding a job. In addition to receiving 
information on licensure and certification, Servicemembers can also 
receive information on apprenticeship resources.
                   enhanced tap for the 21st century
    Initially developed in the late 1980s and implemented in the early 
1990s, the current program has been in place for nearly two decades 
without major enhancements. To strengthen and improve TAP, DOD, DOL and 
VA are collaborating to re-engineer, redesign, and transform the 
current program in a way that will better meet the needs of 
Servicemembers and their families in the 21st Century. The ``enhanced 
TAP'' is a collaborative effort where each agency will improve its 
component of TAP through a number of initiatives, to include leveraging 
technology, improving curriculum, better staff (counselors/
facilitators, etc.) training, and developing ways to access TAP so that 
the information is accessible 24/7.
    DOD is moving TAP from an end of military career event to a 
military lifecycle process. We are developing a robust blended delivery 
of TAP information and services via online, brick and mortar, and 
multi-media. An example of this is Virtual TAP, an online delivery 
system that will allow Servicemembers and their families to access and 
receive information on education, scholarships, employment, financial 
and career planning, and other transition-related areas any time. A 
major part of Virtual TAP is the Career Decision Toolkit, which can be 
accessed at www.turbotap.org. The toolkit, in both CD and online 
format, is a cornerstone of transitioning TAP into a blended career 
transition training model that takes advantage of online and digital 
resources, virtual classrooms, social media and other platforms that 
compliment the traditional ``brick and mortar'' TAP classes that most 
Servicemembers now attend.
    We are also improving staff training to better inform 
Servicemembers of the benefits, resources and enhanced online tools 
available, as well as to improve the experience of Servicemembers 
attending the traditional ``brick and mortar'' sessions which will 
still be available. Increased use of social media will also enhance 
DOD's ability to connect with the 21st Century Servicemember.
    In addition to DOD's efforts, DOL is redesigning and transforming 
its TAP Employment Workshop to make it more relevant to Servicemembers 
and spouses. VA's re-engineering initiative involves a three phase 
effort to develop a self-serve, online mechanism for Servicemembers to 
have the option of completing the VA benefits briefing electronically 
within their own timeframe prior to discharge. DOL will speak more to 
their redesign of TAP for the 21st Century in their testimony.
                      other employment initiatives
Operation Warfighter (OWF)
    OWF is a DOD-sponsored internship program that offers recuperating 
wounded, ill and injured Servicemembers meaningful activity that 
positively impacts wellness and offers a process of transitioning back 
to duty or entering into the civilian workforce. The main objective of 
OWF is to place recuperating Servicemembers in supportive work settings 
that positively benefit the recuperation process.
    OWF represents a great opportunity for transitioning Servicemembers 
to augment their employment readiness by building their resumes, 
exploring employment interests, developing job skills, benefiting from 
both formal and on-the-job training opportunities, and gaining valuable 
Federal Government work experience that will help prepare them for the 
future. The program strives to demonstrate to participants that the 
skills they have obtained in the military are transferable into 
civilian employment. For Servicemembers who will return to duty, the 
program enables these participants to maintain their skill sets and 
provides the opportunity for additional training and experience that 
can subsequently benefit the military. OWF simultaneously enables 
Federal employers to better familiarize themselves with the skill sets 
of wounded, ill and injured Servicemembers as well as benefit from the 
considerable talent and dedication of these transitioning 
Servicemembers.
    To date, the program has placed approximately 1,800 Servicemembers 
across more than 100 different Federal employers and sub-components. 
The program currently has 390 active internship placements.
The Veterans Employment Initiative (VEI)
    The VEI, created by Executive Order 13518, aims to aggressively 
enhance recruitment strategies and promote employment opportunities 
which will lead to an increase in the number of veterans in the Federal 
Government. DOD is a strategic partner on the Steering Committee for 
this initiative, along with the Office of Personnel Management (OPM), 
VA, DOL, and DHS. The Order established an interagency Council on 
Veterans Employment that advises the President and the Director of OPM 
on the initiative. The Council serves as a national forum to promote 
veterans' employment opportunities in the executive branch and develops 
performance measures to assess the effectiveness of the VEI. DOD 
implemented an agency-specific DOD Veterans Strategic Plan, which 
includes performance measures and expected outcomes. Agencies covered 
by the VEI have established Veterans Employment Program Offices or 
designated a full-time staff person dedicated to providing employment 
services to veterans. The DOD Veterans Employment Program Office 
assists Veterans with navigating the application process in their 
search for employment. Veterans and the public may also access the 
VEI's helpful Web site at www.fedshirevets.gov.
Education and Employment Initiative (E2I)
    Contributing factors to unemployment among wounded warriors include 
the lack of a focused employment, educational, and rehabilitation 
process that engages Servicemembers as soon as they begin treatment at 
a Medical Treatment Facility (MTF), as well as a lack of qualified 
career counselors who can administer career assessments and match 
Servicemembers to careers. DOD, in collaboration with VA, DOL, and the 
Office of Personnel Management (OPM), is developing E2I to address 
these shortfalls. E2I will leverage best practices and the good work 
already being done from existing employment and training initiatives in 
both Federal and private sectors. The first phase is a tiered pilot 
program scheduled to launch in May 2011.
    The goal of the E2I pilot is to engage Servicemembers early in 
their recovery to identify skills they have, the skills they need and 
the employment opportunities where those skills can be matched and put 
to good use. The E2I process will begin within 30-90 days of a 
Recovering Servicemember (RSM) arriving at a MTF, taking advantage of a 
recovery time that averages 311 days but can be as long as five years. 
At the very beginning of the E2I process, all applicants will be 
administered a comprehensive skills assessment to include understanding 
their current disability, current Military Occupational Specialty (MOS) 
experience, career desires, education and training background, and 
special accommodations that may be required for a particular type of 
position. This assessment will be provided by a highly trained career 
and vocation counselor who has extensive knowledge of the issues facing 
wounded warriors.
    The E2I counselor will work with the RSM from the initial stages of 
creating an individual development plan (IDP) goal setting, course 
selection or education requirements, through the completion of 
training/certification to return to duty or alternate job placement. A 
Mentor and Coach will be assigned to all E2I applicants at the 
beginning of the process to provide personalized assistance and 
guidance throughout the E2I process from recruitment at the MTF into 
the program, through placement in their new MOS or chosen career.
    Our plan is to evaluate the E2I program over the next 12 months to 
18 months and refine the E2I process with new ideas and best practices. 
Once this evaluation is complete, our plan is to continue our E2I roll-
out, which will include partnering with OPM, VA and DOL to ensure we 
have standardized practices and comprehensive handoffs as the RSM 
leaves the responsibility of the DOD.
                               conclusion
    The Department understands there is a strong consensus within 
Congress and the Veterans' community that more needs to be done to help 
Servicemembers successfully transition to civilian life. There are 
proponents who believe DOD should be responsible for finding jobs for 
transitioning Servicemembers. However, we do not believe that is an 
appropriate role of DOD. Rather our responsibility, which we take very 
seriously, is to help prepare transitioning Servicemembers to find a 
job by connecting them to the vast resources of the DOL and VA 
Vocational Rehabilitation and Employment Services which have dedicated 
programs and training to help transitioning Servicemembers find 
employment. As we empower Servicemembers to take charge of their 
transition, we must recognize that their success rests largely on their 
implementation and utilization of the skills, tools, and resources made 
available to them, starting with pre-separation counseling and 
continuing throughout the transition process. The success is further 
reinforced by active engagement, reinforcement, and motivation by unit/
command leadership.
    The measure of a successful transition does not focus solely on 
TAP, but rather is shared with military leadership at every level 
within the command structure and the degree of personal involvement by 
the Servicemember and his or her family. We must continue to find new 
ways to not only reach our Servicemembers and provide useful 
information to them, but also to strive to ensure they are armed and 
prepared to address all the various challenges and opportunities in 
their transition to civilian life. It is through their success that we 
measure ours and continually look for better ways to provide the help 
they need.
    In summary, the end-state for the enhanced TAP for the 21st Century 
by DOD, DOL, and the VA will consist of a population of Servicemembers 
who have the knowledge, skills, and abilities to empower themselves to 
make informed career decisions, be competitive in the global workforce 
and become positive contributors to their community as they transition 
from the military to civilian life. Madam Chairman, this concludes my 
statement. On behalf of the men and women in the military today and 
their families, I thank you and the Members of this Committee for your 
steadfast support.
                                 ______
                                 
    Posthearing Questions Submitted by Hon. Patty Murray to John R. 
  Campbell, Deputy Assistant Secretary of Defense for Wounded Warrior 
           Care and Transition Policy, Department of Defense
    Question 1. Why is additional legislation in order for the Services 
to provide certification of a servicemember's specific military 
training and experience prior to discharge?

    Question 2. Why is DOD relying on each service to make TAP 
mandatory, rather than making TAP mandatory for all services?

    Question 3. I am interested in more information on the Education 
and Employment Initiative pilot program you describe in your written 
testimony. Have you chosen test sites where the program will launch in 
May 2011? How do you plan to evaluate the success of this program? Your 
written testimony signals your plan to continue rolling out the program 
after only 18 months, even though you say that the average recovery 
time is 311 days but can be as long as five years. Given that there may 
not be enough participants who have completed the program to do a 
complete study, how can you be sure that it can be successfully 
replicated at all sites?

    [Responses were not received within the Committee's 
timeframe for publication.]

    Chairman Murray. Thank you very much to all three of you 
for your testimony. I love your enthusiasm and cheerleading and 
great words, but I got to tell you, 27 percent of our veterans 
ages 20 to 24 are unemployed. Senator Burr mentioned the word 
``accountability'' in making sure that things are working and I 
have to just say I am--Secretary Jefferson, when you came in 
and we confirmed you, I think it was a year and a half ago, I 
loved the enthusiasm, but I want to see it translated into 
something that is not 27 percent of our veterans who are 20- to 
24-years old are unemployed.
    You heard the panel in front of us. You have heard the 
frustration. I hear it everywhere I go. I am positive every one 
of my colleagues here has heard it. It is not right that 
somebody comes out of the military and faces the issues that 
they do today. Yeah, it is a tough economy, but 27 percent? 
That is just unacceptable.
    So Secretary Jefferson, let me start with you.
    At your confirmation hearing, you said success was going to 
be measured by the impact the programs have helping veterans. 
How can we be here a year and one-half later and we are looking 
at these high numbers of unemployment?
    Mr. Jefferson. Sure. Madam Chairman, I think that is 
exactly because the problems that we are dealing with have 
taken place over a period in some cases of 20 years and we are 
on track to address all of them by Veterans Day this year. Over 
the last 18 months, let me just start with the TAP program. 
That program was extremely broken, so I wanted to first figure 
out what are all the problems, what are the best solutions for 
those problems, and then to implement those.
    As an example, two and a half million people have gone 
through TAP. There is not one performance metric. So we are on 
track to have that contract awarded on June 6. That is our 
projected date.
    Chairman Murray. The contract awarded to do what?
    Mr. Jefferson. The contract for the new TAP.
    The entire redesign and transformation of our Transition 
Assistance Program, we are planning to award that on June 6--
that is our projected timeline now as of today--and to have the 
new class starting by Veterans Day, Madam Chairman.
    Chairman Murray. So veterans will be participating in that 
new TAP program?
    Mr. Jefferson. Yes, Madam Chairman. Our goal is for the new 
class, for the servicemembers to go into the new class of TAP 
by Veterans Day this year. It has taken 20 years. The program 
has been outdated for 20 years. We are working to get that done 
this year by Veterans Day, and measure the outcomes.
    Chairman Murray. OK, we want to see that.
    Mr. Jefferson. Yes.
    Chairman Murray. I mean, it has been a long, slow process 
and we need to see more results from that.
    Mr. Jefferson. Yes, Madam Chairman.
    Chairman Murray. So I appreciate that.
    Mr. Campbell, we heard from witnesses on the first panel 
that servicemembers do not get proof of certification, that 
they receive training and perform medical procedures during 
their time in the military, and we saw without just that piece 
of paper in their hand that says they did what they did and it 
is real, they cannot get a job.
    Can the Department of Defense make that information 
available to a servicemember when they are discharged so that 
they have some kind of piece of paper saying that they did what 
they did that actually relates to the civilian world?
    Mr. Campbell. I believe that we can.
    Chairman Murray. What is the barrier? Does Congress need to 
pass legislation? Does the military just need to do it? What is 
the barrier to that happening? Because this is not new. I do 
not think any of us are hearing this for the first time. We 
have been hearing it since soldiers first started coming back 
from Iraq.
    Mr. Campbell. Yes, ma'am. We are probably going to need to 
have some legislation to make that work. We do not at present 
have the capability to provide more than we do on the DD-214, 
and so if there is some legislation that would change that to 
put more information on there that would allow the States to 
take a look at what the extent of the experience of these young 
men and women are, that would be one answer.
    Mr. Berry. Madam Chair, could I add to this as well? It may 
be that these intern programs that we are setting up, and I 
think specifically the nursing one especially, because we have 
found that these certification programs and--you know, we want 
to be careful. We are not saying that we are asking to lower 
the bar for anybody. These folks can meet the bar, we just need 
to make sure that their training counts, and that if there are 
gaps, we can fill in those gaps and make sure we fill them in.
    So I think what is going to be important in this, 
especially the nursing intern program, is that if legislation 
is needed, where would it have the most targeted impact? So, my 
commitment to you is we will keep in touch with you and your 
staff and as we move forward on that program, if we find the 
weak spots, it may be that we can collaborate the sort of State 
and Federal certifications that can solve this without the need 
for more law.
    But if we can't, then we will certainly identify for you 
where those changes would be in order.
    Chairman Murray. How long will that take?
    Mr. Berry. This program is underway this year. We are 
working with the VSOs right now, with VA, Labor, and DOD, and I 
think we will have the learning experience this year to be able 
to inform, to get back to the Committee on if we need 
additional legislation in that area.
    Chairman Murray. Well, Mr. Campbell, let me go back to you. 
Can the Department of Defense certify that someone actually 
performs medic--does the actual classes and does medic work or 
anything, can the Department of Defense certify? Can we get 
them to move to doing that?
    Mr. Campbell. Sure. [Pause.]
    I am told that we cannot certify that.
    Chairman Murray. OK.
    Mr. Jefferson. Madam Chairman, can I make a comment about 
the role of TAP?
    Chairman Murray. Yes.
    Mr. Jefferson. I respectfully disagree with a member of the 
previous panel. After doing a lot of due diligence on this, we 
feel that it is important that the servicemembers participate 
in TAP as early as possible prior to their transition. One of 
the reasons is we are revamping the new TAP to make it a one-
stop solution for everything to a primary portal for 
entrepreneurship training, resources, et cetera, and also to 
make it a resource for apprenticeships.
    So as servicemembers come to TAP, they are going to get 
awareness on what are the apprenticeship and credentialing 
needs they have.
    There is already a COOL----
    Chairman Murray. Are you referring to the testimony about 
having it within 90 days?
    Mr. Jefferson. Yes, that is exactly what I am referring to, 
Madam Chairman. So as a servicemember has an awareness, he or 
she then has 1 year before ETS or 2 years before retirement to 
go back and use resources and DOD like the military 
apprenticeship program, to get those credentialing and 
certifications.
    As we move to transform TAP this year, we want to bring 
awareness of all of those apprenticeship programs into that.
    Chairman Murray. I think the testimony that Mr. Smith 
talked about was the fact that he went through the TAP program. 
Grant it, it is the old one.
    Mr. Jefferson. Yes.
    Chairman Murray. You are talking about a new one; I 
understand that. But then he went and deployed to Iraq. Life 
changed and he came back and whatever he heard was different.
    Mr. Jefferson. Yes, and that is why I have a few things. 
Number 1, servicemembers can go through TAP a second time. Two, 
we are going to have an e-learning platform. Three, when they 
finish TAP, each servicemember for the first time ever is going 
to have an individual transition plan followed by 60 days of 
post-TAP support where they----
    Chairman Murray. Mandatory? Is it going to be mandatory?
    Mr. Jefferson. I will defer to DOD for that, but I will say 
this. I believe every servicemember will benefit through going 
through the new Transition Assistance Program the way we are 
revamping it.
    Chairman Murray. OK. Senator Burr?
    Senator Burr. I am going to ask a simple question. We have 
had some tough ones. Who should be held responsible for the 
pitiful placement of our country's veterans, which agency? Who 
is in charge?
    Mr. Jefferson. Sir, I will step up and take responsibility 
for serving as a focal point for veterans employment. When I 
came here 18 months by confirmation hearing, I made a variety 
of promises about things that we would do to prepare, provide 
and protect.
    Senator Burr. Is it statutorily the Department of Labor's 
responsibility?
    Mr. Jefferson. We have the congressional mandate for 
veterans employment as the lead agency in the Federal 
Government.
    Senator Burr. My question would be this. Why aren't you 
driving all aspects of employment of veterans within OPM, 
within VA, within everywhere else? Why is everybody sort of 
creating their own little world that they deal in?
    Mr. Jefferson. Sir, I would offer that if we look at what 
has actually happened over the last year, there has been more 
integration and collaboration than ever before. Let me share 
two quick examples.
    For the Federal Hiring Initiative, Director Berry, myself, 
and VA have been doing that. For the TAP transformation, with 
the e-learning platform, that is a VA--that is a DOD/Labor 
collaboration like never before. For the new approach to 
employer outreach, that is vets, ESG, all out of DOD, as well 
as the private sector via the U.S. Chamber. So we are working 
to change long-standing problems.
    I welcome the assistance of yourself, sir, and your staffs, 
but we are making progress. I am trying to get it all done 
yesterday. It does take some time to change.
    Senator Burr. Will the new TAP program have performance 
measures----
    Mr. Jefferson. Yes, sir.
    Senator Burr [continuing]. That look at employment 
outcomes?
    Mr. Jefferson. Sir, we are going to have performance 
metrics at three moments of truth, one when----
    Senator Burr. If we still have programs out there that do 
not have performance measures today, why have we continued them 
for the last year and a half? Why does it take a GAO report 
that tells us about the duplication, the number of agencies 
that are involved, the lack of coordination that exists; why 
are they still in existence?
    Mr. Jefferson. Sir, I began the TAP transformation process 
on day one. I cannot comment as to what happened before I was 
there. I also know that we have 160----
    Senator Burr. What do you say to the GAO report that--let 
me just pull up their quote.
    Mr. Jefferson. Yes, sir.
    Senator Burr. GAO noted, ``overlap among federally-funded 
employment and training programs raise questions about the 
efficiency and effective use of the resources and program 
overlap might hinder people from seeking assistance and 
frustrated employers and program administrators.''
    Now, did you disagree with their assessment?
    Mr. Jefferson. Sir, that was one of the reasons why I am 
trying to push forward so hard. We need a program in place for 
those 160,000 servicemembers who are getting out until the new 
program is in effect. But we are also partnering, as an 
example, with DOD Army forming a TAP/ACAP partnership, so for 
the first time ever, a servicemember in the Army will go 
through TAP and then transition into the ACAP program.
    We are also partnering with the Military Spouse Employment 
Program that has got jobs for 90,000 spouses. That has never 
been done before.
    Senator Burr. Let me ask you, Mr. Campbell, is it possible 
before an active duty servicemember separates, at the post that 
they separate from, could we have them take the certification 
examination for that State for whatever technical skill they 
have worked in the military?
    Mr. Campbell. I don't see any reason why we couldn't.
    Senator Burr. I don't either, and I know the military 
cannot do a certification. The military, I believe, could and 
should list the expansive experience that a separated member 
has. But maybe if we could have them take the certification 
exam, we have put them a little further down the road.
    Mr. Campbell. Yes, sir. I would just say that Secretary 
Jefferson talked about the new TAP. In terms of TAP--the 
virtual TAP that DOD is rolling out for pre-separation 
counseling piece of it which is congressionally mandated--we 
will have the capability to have that kind of testing on the 
site so that service men and women who are interested in the 
certification of whatever the mandated--or whatever level of 
interest they have in a particular skill set, they could take 
the exam right there.
    Senator Burr. Would it surprise any of you that a corpsman, 
5 years of experience?----
    Mr. Campbell. Yes, sir.
    Senator Burr. Ten years of experience----
    Mr. Campbell. I mean, I was----
    Senator Burr [continuing]. Separate from the military and 
could not be hired at Womack Hospital in Fayetteville, at Fort 
Bragg?
    Mr. Campbell. Sir, I was a platoon commander in Vietnam. I 
mean, I know what corpsmen can do, and it's very surprising and 
disappointing that this is the case.
    Senator Burr. I mean, this is within the DOD family.
    Mr. Campbell. Yes, sir.
    Senator Burr. That there is not a mechanism that allows the 
experience derived over 5-10 years in the military to even put 
them in line for consideration of an equivalent job at a 
military hospital. There is something wrong here. This is not 
difficult.
    I think what Mr. Jefferson is attempting to do is much more 
difficult. And I might say to you, Mr. Berry, truthfully, we 
will never be able to employ enough veterans, given the budget 
situation in the U.S. Government, that it will make a dent in 
the mass of 27 percent unemployment. I applaud you for the 
effort. I applaud the administration for focusing government 
attention on this.
    I wish we could focus as much on the inability of Federal 
agencies when those individuals are called up for active duty 
to actually follow the rules that we have in place for every 
private sector employer, because it was the Federal agencies 
that flunked that side of it, continue to do it today, and it 
is agency by agency.
    So let me assure you, the model of the way forward is not 
to replicate what we have been doing. It is to actually listen 
to what these veterans said. They did not bring up tough 
issues. A transition program. Clearly the one at DOD they have 
assessed does not work or they did not know it existed, because 
in every case, all four said you know what, we need a 
transition program before we get out.
    Two, resumes, I mean there is the first thing that the 
private sector looks at if you are really serious--and I 
applaud you for putting it into the TAP program. Geez, why 
wasn't it there before? These are not revelations that have 
just popped up. These are elementary to employment 
opportunities regardless of whether you are a servicemember or 
a graduate out of high school.
    How many vets do you intend to hire in the Federal 
Government; what is the target?
    Mr. Berry. Well, what we have done, sir, is the point of 
this----
    Senator Burr. What is the number?
    Mr. Berry. Well, I can give you--what we have done, sir, is 
create a percentage model, and it is based on each agency's 
performance. So we have come up with a unique metric on this, 
which I think you will be impressed with.
    If you are already hiring between 20 and 25 percent, all 
right, if you are already in the good camp, we are asking you 
to do a little bit more, do a 1 or 2 percent increase. But if 
you are below 10 percent, we are asking you to do a 5 to 6 
percent increase. If you are in the middle, if you are between 
10 and 20, we are asking you to do a 3 and 4 percent increase.
    Senator Burr. What is that number?
    Mr. Berry. I will work out the totals. I have not worked 
out the totals. But what that does is it gives--and I can tell 
you each agency now has a specific goal to which they are being 
held accountable. Each goal is significantly more than what it 
was the year before, so even though last year--you know, we did 
not have enough months in the year to do that metric. What we 
did was we told everybody do better, and we did better.
    We did 2,000 more vets better. We did 2,700 more disabled 
vets better.
    This will--I believe this will keep that going and that 
trajectory going, sir.
    Senator Burr. I applaud you for that increase.
    I want to repeat something that you said and I am 
paraphrasing, so you correct me if I was wrong. You said we got 
a new program and we are going to hire separated servicemembers 
at an entry-level position. You said, I cannot remember the 
grade.
    Mr. Berry. A GS-3, 4, or 5.
    Senator Burr. GS-3, 4, or 5, to get the education and the 
certification needed to make a career. Now, I just ask you to 
pause for a second and think about the testimony that you heard 
in the last panel. That was not what they were asking for. They 
were asking to apply their experience into a certification 
because they had a very difficult time going back to acquire 
the education needed to fit within the system we designed.
    I can understand how this is sort of moving the goalpost is 
something that the Federal Government is doing positively. But 
to me, having just heard the witnesses testify, I have to think 
if they are still here, they are sitting out there saying, did 
they listen?
    Our problem is not creating new programs. It should be 
reforming some and again, I applaud you for TAP. Our problem 
today is putting veterans in a job. It is enabling them to get 
a paycheck and to feel the worth of the service that they 
committed to and the opportunity that they want to have from 
thereon out. If not, quite honestly, none of you are 
responsible for the next part. It falls in our laps in this 
Committee. It is veterans homelessness. It is substance abuse. 
It is all the things we know we are going to run into if in 
fact we have not provided them one simple thing, the means to 
take care of their family and themselves, and that is a 
paycheck.
    So as elaborate as some of the things sound as they are 
described, my only recommendation to each one of you is make 
this simple. If we have not gotten something simple, we will 
not have the level of participation to drive down a 27 percent 
unemployment rate in the veterans community, no matter how 
creative the private sector is, whether it is Military.com or 
whether it is the Initiative for Green Jobs for Vets, we are 
not going to make a dent in this if in fact we cannot get 
everybody on the pathway of having the simple things that these 
guys have described for us, resumes, a transition program that 
is understandable, a pathway to certification.
    I will be honest with you; I would love to hire one of the 
electricians coming out of the military. It would probably be a 
hell of a lot more reasonable cost.
    [Laughter.]
    Mr. Berry. They are well trained, well trained.
    Senator Burr. So how can we all admit how well trained they 
are, and the only thing that separates them from where they are 
today and a job is a certificate saying that they have 15 years 
as an electrician? Something is crazy wrong with this. I am not 
sure that any of the things I have heard today is going to 
solve that little simple piece.
    I would ask you, Ray, to figure out what Department of 
Labor can do.
    Mr. Jefferson. Yes, sir.
    Senator Burr. To find that level of agreement between the 
Federal Government, between the military, between the States, 
between localities that says, you know what, we can all agree 
on some fast-track certification. If you have X amount of years 
of experience, whether it is driving a truck or stringing wire, 
with a simple 30-day refresher course, you can take an exam and 
if you pass, you get your certification. If you don't, then you 
go through the laborious process of going back to school.
    I am going to tell you, for most of these kids, there is a 
reason they went in the military over and above serving their 
country. It was because they were tired of education. Education 
was not the centerpiece of their life. They had gotten it up to 
here.
    Now if they are career, they are getting a lot of education 
while they are in the military, but the education that the 
young ones are getting, they do not realize it. We are spending 
a lot of money to make them proficient on some of the world's 
greatest technology, and it is just a shame that we are not 
tapping into that investment that we make.
    The Chair has been very gracious to me. Once again, I want 
to applaud you for what each one of you in your departments and 
agencies do every day, but I also want you to leave 
understanding we have not solved this problem yet.
    We have a long way to go. Thank you, Mr. Chair.
    Senator Tester [presiding]. Thanks, Senator Burr. I am 
going to start with you, Director Berry.
    During Eric Smith's testimony you were obviously paying 
attention. The only thing I would say is if one Eric Smith is 
in this position, gosh knows how many more are out there. This 
one is a slam dunk, from my point of view anyway; so anything 
you can do in that particular area throughout the military is 
critically important.
    Mr. Campbell, there was a question that the Chairman asked 
of you that the gentleman behind you, you originally said you 
could certify and the gentleman behind you said no, you cannot. 
I understand that. I have staff too that tell me what to say. 
The question is, and if you cannot answer this now, we can 
certainly get it in writing, but why can't the military certify 
the jobs that the people in the military have done? Is there 
some rule or regulation stopping it from doing that?
    Mr. Campbell. I will have to take that for the record, 
Senator.
    Senator Tester. I would love to know that because there is 
nobody that knows what the soldier is doing in the field any 
better than the people that are serving with him and that is 
the military.
    For them not to be able to certify, I think unless you can 
tell me a reason why not, that is a major, major problem.
    Assistant Secretary Jefferson, it is always good to see 
you. I appreciate the work all of you do.
    When we talk about TAP, and we talk about revamping TAP so 
it meets the needs of the soldiers, whether it is done before 
they are deployed or whether it is done after they are 
deployed, one of the strengths that you bring to this job, from 
my opinion having never served, one of strengths that you bring 
is that you have served and that you have sacrificed and that 
you know the mindset going in and you know the mindset coming 
off.
    I think that is a critically important perspective to have 
when you are setting up these programs.
    Mr. Jefferson. Yes, sir.
    Senator Tester. You know--I mean, any teacher knows there 
is an opportunity to get through at a certain moment in time 
and if you do not take advantage of that moment in time, it is 
gone, and if you are doing it before or you are doing it after 
is not nearly as effective.
    So all I would ask you to do--this is just a statement--is 
when you are advising programs, put yourself back as that 18-
year-old or 20-year-old kid that you were, young man that you 
were when you went in and before you got deployed and say, all 
right, would this have worked, you know----
    Mr. Jefferson. For me.
    Senator Tester. Yeah. That is all. Because that is one of 
your skill sets that I think is critically important to bring 
to the table.
    Mr. Jefferson. Thank you, sir.
    Senator Tester. I have to ask a question about the 
outreach, the pilot program you talked about, and we did get a 
response back and it was because of budgetary reasons that you 
have not been able to expand that program. I understand that.
    Mr. Jefferson. Sir, did you get the update on that as well?
    Senator Tester. Go ahead.
    Mr. Jefferson. One of the resources, on a loan to expand 
that into phase two, six States, as we had hoped to do, but I 
am trying to see if we can bring an interagency innovation, in 
fact the collaboration together to allow it to continue. It is 
very effective, as you know.
    Senator Tester. Yeah.
    Mr. Jefferson. So I am working on that right now to see if 
we can maybe bring some other partners in, give us some 
additional capacity.
    Senator Tester. Have you been able to put any numbers 
together at this period--it is pretty early in this program--as 
to numbers of dollars invested versus number of dollars back?
    Mr. Jefferson. Yes, sir. It is very minimal.
    We are only paying for phone charges, mailings. It is 
$140,000.
    Senator Tester. Yeah, and have you been able to do any cost 
benefit analysis on that as to what is being returned with the 
money that you spent?
    Mr. Jefferson. Oh, yes, sir. We have about 90 percent 
participation. That is about--over 4,000 veterans right now are 
in the program. Some want employment access and services. Some 
want health, some want education.
    We have over 26 percent wanting employment, 818 have 
enrolled in a formal course and we have gotten jobs for 23 
already. Now, we believe that a lot more than 23 have found 
jobs, but we have that lacking indicator. So the feedback from 
the veterans is this is a big hit.
    Senator Tester. We have talked about American Indians. They 
have a high rate of enlist----
    Mr. Jefferson. Yes, sir.
    Senator Tester. They also have an incredibly high rate of 
unemployment in the State of Montana. I only speak for that 
because that is what I know. It may be the same around the 
country; I do not know that.
    Is there anything we can do to reach those folks? Is there 
anything you are able to do to reach the folks in Indian 
country that--I mean, it makes 27 percent look like full 
employment. That is the kind of numbers we are talking.
    Mr. Jefferson. Yes, sir. Sir, Secretary Solis and the 
Department of Labor have a particular commitment to the Native 
American community. We have brought Native American leaders 
into the department to look at how we can better serve them. I 
have asked my State directors to go above and beyond what they 
have been doing before to get our 2,000 employee 
representatives on the ground. I would welcome the continued 
dialog with your office, and I am hopeful that we can find a 
way to expand this because, as you know, many Native American 
Indians are also living in rural America.
    Senator Tester. Last question, and I am going to turn to 
Senator Boozman. It can be for any of the three of you. There 
are a wide variety of veterans jobs programs out there. I 
cannot help to think that there is not a lot of overlap.
    Mr. Jefferson. Yes, sir.
    Senator Tester. We are in tough budgetary times. Is anybody 
doing an analysis? I know it means giving up turf on some 
people's parts and taking turf on other people's parts. Is 
anybody doing an analysis on overlap and how we can be more 
efficient and more effective?
    Quite frankly, from my perspective, the less overlap you 
have, the more efficient the program, the more effective it is 
too. Is anybody doing any analysis on that?
    Mr. Jefferson. Sir, I would--if I may substitute the word 
``action'' for analysis, we have been stepping into this, going 
over to DOD, working with John Campbell's shop, the ESGR 
executive director, the veterans employment folks over at the 
Army G-1's office, bringing them together with the U.S. 
Chamber, reaching out to the Society for Human Resource 
Management as well, to look at how we can collaborate more 
effectively.
    The 100 mega hiring fairs are an example of that. We are 
also going to be working to create a toolkit for employers on 
how to find onboard and assimilate veterans.
    Senator Tester. One of the things that the President has 
talked about in every program is that you cut down the silos, 
you work across alliances, reduce duplication, and you become 
more efficient. And you set aside your egos to do it. I would 
just encourage you to do it in this particular case. I think it 
reduces confusion in a big way.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here. We really do appreciate your hard work.
    Mr. Jefferson, what percentage of people go through TAP?
    Mr. Jefferson. Sir, we have about 160,000 to 165,000 
servicemembers who leave the service every year. We capture 
about 80 percent of them every year. Last year we served 
134,000 servicemembers. That included 2,500 spouses.
    Senator Boozman. You and I agree that it is very important 
to go through that program, but the reality is, the DOD has a 
lot to do with whether or not an individual actually goes 
through it----
    Mr. Jefferson. Yes, sir.
    Senator Boozman [continuing]. With allowing them the time 
to do that. So something that we might consider doing, Mr. 
Chairman, is I would really like--and I will visit with--but I 
think at some point we really need to have DOD in the room with 
these folks in the sense of again, like with the TAP program, I 
mean, that is a joint effort.
    Mr. Jefferson. Yes.
    Senator Boozman. I would very much like to see it as 100 
percent. I know you would.
    Mr. Jefferson. Yes, sir.
    Senator Boozman. But we need to figure out where the 20 
percent is getting by.
    Mr. Jefferson. Yes.
    Senator Boozman. I apologize for not being here earlier. I 
missed the earlier discussion, but I really feel like that the 
TAP needs to be done early.
    Mr. Jefferson. Yes, sir.
    Senator Boozman. We need to get rid of the stigma of going 
through it because I have had the opportunity to go and 
actually hear some of the old program, which was actually 
pretty good, in the sense that so many of those individuals do 
not realize the benefits that they are getting. I mean, they do 
not realize how much health care is going to cost them in the 
future and all of these different things, which they have to 
plan for.
    You cannot do that in a very short period of time. So we do 
need to get that sorted out.
    Senator Tester. Senator Boozman, just so you know, Mr. 
Campbell is from DOD.
    Senator Boozman. OK, I'm sorry.
    Mr. Campbell. Senator, that is OK.
    Senator Boozman. Well, again, the----
    Mr. Campbell. Let me just say that there is one piece of 
the entire TAP process, which is pre-separation counseling, 
which is DOD, congressionally mandated. Within the four 
services, the Marines make it mandatory. Air Force----
    Senator Boozman. So what has happened with the 20 percent? 
I really am late getting here in that sense, but tell me what 
has happened with the 20 percent slippage.
    Mr. Campbell. Well, we got----
    Senator Boozman. It serves one out of five.
    Mr. Campbell [continuing]. A service or two that does not 
make it mandatory, so it is really up to the servicemember 
whether he or she wants to take it. There is----
    Senator Boozman. So is it merely that, or is it more just 
guys being--again, we have all the deployments going on. It is 
tough out there. Is it that they do not want to take it or is 
it just the numbers are so tight?
    Mr. Campbell. I will be honest, Senator, I think they want 
to take it. Whether they think it is valuable or not, that is a 
question. Both Secretary Jefferson and I are both working hard 
at trying to make sure that the new TAP process is really going 
to be valuable to them and in a medium that they understand, 
the web. So we are working on that.
    Senator Boozman. In regard to the certification, I think 
that is really important. The appropriate time to do that would 
be if a young man or woman has completed truck driving school 
in the military; that would be the time to take the 
certification course.
    I do not care who you are, I am an optometrist and 
practiced for 24 years and I was pretty good at what I did when 
I left, but I could not have passed a test, you know, at that 
point, and truly, getting squared away. So that would be the 
time to do it, so we do need cooperation there.
    The other differences, there is a difference in 
certification and licensure and our States determine licensure, 
so you have to figure out that component of it also.
    But one of the blowbacks that we have had in the past is 
that DOD, I think, has felt like if you do those kind of 
things, then you are going to lose force. You know, at the 
conclusion of training and they have this certification which 
can lead to licensure, then that is really not that great of 
thing in the sense that some of these people will have the 
option then of getting out and going into the--so that is 
another area I think that we have to break down and see if that 
really is a problem.
    The other thing is, can you all comment on what effect are 
the frequent deployments having on employment?
    Mr. Jefferson. Sure. So as we hear from employers, they are 
doing overall a tremendous job of supporting servicemembers and 
their families. The First Lady yesterday----
    Senator Boozman. I understand that. I do not mean to 
interrupt. He is going to cut me off.
    Mr. Jefferson. OK.
    Senator Boozman. I understand. Our employers are doing a 
tremendous job. On the other hand, if you have--if you are from 
a small town, which many of these individuals are, and you are 
a small business and you have five employees, and you have had 
the experience that you are going to lose one of these guys and 
what do you do, because they are going to obey the law, they 
are going to take them back, but that really does leave you in 
a bind. Is that having a significant effect on employment?
    Mr. Jefferson. It is having an effect, sir, on the small 
businesses. Obviously, we have the annual ceremony, the Freedom 
Awards, for the Guard and Reserve, and those businesses, which 
I personally often find the most inspiring, are those small 
ones who still strive to take care and honor their employment 
rights in the face of a repeated deployments where they have 
very small staffs. So that is a challenge, sir. I just have to 
acknowledge that very openly.
    Senator Boozman. One last thing, with your indulgence. You 
mention that we need to measure and more.
    Mr. Jefferson. Yes, sir.
    Senator Boozman. We need metrics. What do you all feel is 
important to measure?
    Mr. Jefferson. Three things, sir. The first is with this 
TAP--let me talk about the TAP program first. When a 
servicemember finishes the program, right then, where they can 
get their feedback and assess how useful they found the 
program, thumbs up, thumbs down, because that is what they are 
going to go back to their units and tell their colleagues, 
their partners.
    Number 2, when they are applying the content, which is if 
they go to TAP 1 year before ETS or 2 years before retirement, 
there may be a period of time in which they deploy before they 
apply the content. So that is the second moment of truth where 
we get performance metrics.
    The third is when they have actually found a job. How 
helpful are we at helping them to quickly assimilate into a new 
culture on board and become a contributor?
    So those are the three metrics, the three moments of truth, 
that we are going to track with the new TAP program.
    Senator Boozman. One other thing is I wish we had some 
ability to be a little bit more flexible. A number of the 
people, we actually visited with them after they got through 
doing the TAP. It was amazing the percentage of people that 
were going into franchises, things like that, and it would be 
so nice and we tried--we explored the possibility of maybe 
breaking off the education component of the franchise fee----
    Mr. Jefferson. Yes, sir.
    Senator Boozman [continuing]. And allowing them to get 
credit in that manner versus----
    Mr. Jefferson. Can I comment on that for a second, sir? 
Sir, the new TAP would be a primary portal for entrepreneurship 
programs, services, support, and I will use their phrase 
``inspiration.'' So we are building all of that into the new 
TAP. We are also partnering with SBA and an interagency task 
force to bring all that content into the new TAP.
    So a servicemember may want to do something similar to what 
they did in the military, or very different, or become an 
entrepreneur and start his or her own company.
    Senator Boozman. Thank you. Thank you, Mr. Chairman, and 
thank you, Mr. Campbell, for being here.
    Senator Tester. I want to thank the first panel and this 
panel. I appreciate taking your time to be here to testify in 
front of the Veterans' Affairs Committee.
    We are adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

      Prepared Statement of Robert W. Madden, Assistant Director, 
           National Economic Commission, The American Legion
    Today men and women come back from combat with multiple skills and 
areas of expertise. These servicemembers are considered highly 
qualified individuals who are ready for employment. The American Legion 
has found is these men and women serving our country are finding it 
hard to take the skills that they learned from the military and 
translate those skills into civilian terms. In addition, servicemembers 
with certain specific training, such as medical care, find they do not 
possess the licenses and certifications from their military service 
that the private sector needs in order to employ them.
    These disparities lead to unemployment and underemployment for 
transitioning servicemembers and veterans and puts them a step behind 
their civilian counterparts. The military invests hundreds of thousands 
of dollars in training its servicemembers making them highly qualified 
for a vast array of civilian jobs, yet these highly trained, highly 
skilled veterans often cannot do the same job they were prepared for in 
the military in the private sector. Often, this is due to a lack of 
recognition by the credentialing agencies and employers of the 
equivalency of military training, education, and experience. This 
failure to recognize the military acquired skills and education is a 
disservice to servicemembers and veterans alike and must be remedied.
                          employment barriers
    The barriers that exist to ensuring that servicemembers have the 
civilian licenses and certifications they need for the civilian 
workforce are multi-faceted. A key barrier is a lack of information on 
the part of both servicemembers and credentialing agencies. Often 
servicemembers are unaware until they transition out of the service 
there are credentialing requirements associated with the civilian 
counterparts of their military jobs until they transition out of the 
service. At that point, it may be difficult to meet the eligibility 
requirements for the credential without significant delays in 
employment. Similarly, credentialing agencies may not be aware that 
military education, training, and experience are often comparable to 
that in the civilian sector. Military leaders should combat these 
informational challenges by an early dissemination of information to 
servicemembers on credentialing requirements during their transition 
process and through marketing campaigns to civilian credentialing 
boards to create awareness of the transferability of military skills 
and the quality of military education, training and experience. The 
American Legion also recommends that credentialing agencies develop 
military-specific credential requirements that recognize military 
training and education. For example, some universities and colleges 
note military training and award college credits to veterans based on 
the amount of training they underwent. This could apply to 
credentialing as well.
    There are some military occupations, such as the medical care and 
aviation field, for which gaps between military education, training, or 
experience and civilian credential or job requirements can be remedied 
with minimal additional training or experience. However, for other 
military occupations, the gaps are fairly substantial and it will be 
difficult to get the required additional training and education in 
order to position a servicemember to be ready for employment once they 
exit the military. We allow servicemembers to fight for our freedoms 
and the least we should do is prepare them for employment in the 
private sector as part of the transitioning process.
    This transitional phase of a servicemember from military to 
civilian live can be very unstructured and can be a stressful period. 
One way we can assist servicemembers is to provide a comprehensive 
Transition Assistance Program (TAP) during their outprocessing period 
from the military. A lot of criticism of the TAP program was mentioned 
at the Employment Roundtable last month. In order to fix this problem 
an overhaul of the TAP program is due. One way to improve the program 
is to ensure that every servicemember enters and completes the program. 
Making this program a mandatory part of a servicemember's transition 
will ensure they are leaving the military better informed and trained.
    One major difficulty servicemembers have is translating their 
skills and experience from military lingo to civilian lingo. Countless 
resumes that are inaccurate or do not properly give insight into what a 
veteran has to offer come across my desk every day. In order to battle 
this conflict of translation, the TAP program should be a resource that 
describes the job duties of every military occupation and the 
equivalent civilian terminology in order to allow a servicemember to 
draft the best possible resume for seeking civilian employment.
    With over 180,000 active duty, Reserve, and National Guard 
servicemembers exiting every year, TAP and other transition programs 
need to be formatted to give the appropriate guidance and training to 
all transitioning servicemembers and their families. In addition, those 
skills that they learn through their military training should be 
translated not only in language onto a resume, but servicemembers need 
to be given opportunities to obtain the civilian licensing and 
certifications that attest to their qualifications while they are in 
the military. The American Legion notes that appropriate Federal 
agencies are re-defining the TAP program, for the first time in over 17 
years, which should go a long way to designing an education/employment 
specific level of expertise to guide servicemembers in their transition 
from military to civilian.
                          employment solutions
    Public Law 111-377, Post-9/11 Veterans Education Assistance 
Improvements Act of 2010, affords eligible veterans with educational 
opportunities that will assist veterans in their transition. The Post-
9/11 GI Bill allows veterans to receive their education at non-degree 
granting institutions, such as vocational school. This added benefit 
will allow those who want to capitalize on their military education and 
pursue a vocational/apprenticeship program leading them to jobs that do 
not require a traditional 2/4-year school to gain a degree, thus 
minimizing their time being unemployed.
    The American Legion sponsored a study in the mid-1990s to 
understand the barriers to employment that exist for servicemembers as 
they exit the military, specifically as related to health care and 
aviation licensing and certification. That study represented the first 
systematic research into licensing and certification barriers and the 
impact they have on the ability of transitioning servicemembers and 
veterans to obtain employment commensurate with their skills. This 
continues to be a high priority for The American Legion with the 
upcoming National Summit that will be hosted in 2011. Unemployment is 
an issue which we understand, and by examining the barriers and 
proposing best practice solutions that we have recommended today we 
hope to contribute transitioning servicemembers and their families a 
easier pathway to employment in the civilian economy. Thank you for 
allowing The American Legion to submit testimony today.


                                  <all>

</pre></body></html>
